<html>
<title> - NOMINATIONS TO THE U.S. COAST GUARD, THE DEPARTMENT OF COMMERCE, THE NATIONAL TRANSPORTATION SAFETY BOARD, THE MARINE MAMMAL COMMISSION, AND THE AMTRAK BOARD OF DIRECTORS</title>
<body><pre>[Senate Hearing 111-827]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-827
 
                  NOMINATIONS TO THE U.S. COAST GUARD,
                      THE DEPARTMENT OF COMMERCE,
                   THE NATIONAL TRANSPORTATION SAFETY
                  BOARD, THE MARINE MAMMAL COMMISSION,
                   AND THE AMTRAK BOARD OF DIRECTORS

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION





                  U.S. GOVERNMENT PRINTING OFFICE
63-798                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 18, 2010...................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Kerry.......................................     2
Statement of Senator Snowe.......................................     4
    Prepared statement...........................................     5
Statement of Senator Isakson.....................................    24
Statement of Senator LeMieux.....................................    26
Statement of Senator Klobuchar...................................    28
Statement of Senator Hutchison...................................    89
    Prepared statement...........................................

                               Witnesses

Merkley, Hon. Jeff, U.S. Senator from Oregon.....................     7
Papp, Jr., Vice Admiral Robert J., Commandant-Designate, U.S. 
  Coast Guard, Department of Homeland Security...................     8
    Prepared statement...........................................    10
    Biographical information.....................................    12
Robinson, Larry, Assistant Secretary-Designate, U.S. Department 
  of Commerce....................................................    38
    Prepared statement...........................................    39
Weener, Earl F., Member-Designate, National Transportation Safety 
  Board..........................................................    40
    Prepared statement...........................................    41
    Biographical information.....................................    42
Tillman, Ph.D., Michael F., Member-Designate, Marine Mammal 
  Commission.....................................................    48
    Prepared statement...........................................    49
    Biographical information.....................................    49
Boness, Daryl J., Chairman-Designate, Marine Mammal Commission...    61
    Prepared statement...........................................    62
    Biographical information.....................................    64
Moreland, Jeffrey R., Member-Designate, Amtrak Board of Directors    83
    Prepared statement...........................................    84
    Biographical information.....................................    84

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    95
Response to written questions submitted to Vice Admiral Robert J. 
  Papp, Jr. by:
    Hon. Frank R. Lautenberg.....................................    95
    Hon. Kay Bailey Hutchison....................................    96
    Hon. Roger F. Wicker.........................................    97
Response to written questions submitted to Dr. Larry Robinson by:
    Hon. John D. Rockefeller IV..................................    99
    Hon. Mark Begich.............................................   100
    Hon. Kay Bailey Hutchison....................................   100
    Hon. John Thune..............................................   101
    Hon. David Vitter............................................   102
Response to written questions submitted to Dr. Earl Weener by 
  Hon. Kay Bailey Hutchison                                         102
Response to written questions submitted to Dr. Michael F. Tillman 
  by:
    Hon. John D. Rockefeller IV..................................   103
    Hon. Kay Bailey Hutchinson...................................   105
Response to written questions submitted to Dr. Daryl J. Boness 
  by:
    Hon. John D. Rockefeller IV..................................   106
    Hon. Kay Bailey Hutchison....................................   107
Response to written questions submitted to Jeffrey R. Moreland 
  by:
    Hon. Frank R. Lautenberg.....................................   108
    Hon. Tom Udall...............................................   108
    Hon. Kay Bailey Hutchison....................................   109


                  NOMINATIONS TO THE U.S. COAST GUARD,



                      THE DEPARTMENT OF COMMERCE,


                   THE NATIONAL TRANSPORTATION SAFETY


                  BOARD, THE MARINE MAMMAL COMMISSION,



                  AND THE AMTRAK BOARD OF DIRECTORS

                              ----------                              


                        THURSDAY, MARCH 18, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. The Senate Committee on Commerce, 
Science, and Transportation will come to order.
    Good morning. I thank everyone for being here today, and 
the nominees and their willingness to serve.
    The nominees before this committee today represent a number 
of agencies that are crucial to our Nation, our environment, 
and our economy. The Coast Guard, NOAA, and the National 
Transportation Safety Board, and Amtrak all face major 
challenges, and our Nation depends on the high quality of 
public servants to take up these important issues.
    The Subcommittee which I am Chair of the Oceans, 
Atmosphere, Fisheries, and Coast Guard, is particularly 
interested in the nominees for the position of Coast Guard and 
NOAA. For the Coast Guard, the next Commandant will have to 
cope with an ever-growing set of important missions, even amid 
increasing challenges in this fiscal environment.
    On a national scale, the Coast Guard's responsibilities are 
extensive and wide-ranging. For example, last year, the Coast 
Guard responded to more than 23,550 search and rescue cases, 
stopped more than 3,700 undocumented immigrants from illegally 
entering the U.S., and responded to approximately 3,600 
pollution incidents and protected our communities by seizing 
160 metric tons of cocaine, valued at nearly $5 billion.
    Admiral Papp, if you are confirmed as the next Commandant, 
you will constantly be asked to balance the demands of crucial 
and evolving homeland security missions while enduring your 
traditional missions and making sure that they are met.
    On the Deepwater Program, the Coast Guard has taken some 
steps toward fixing the failings of the past. But make no 
mistake, I am nowhere close to satisfied with the Coast Guard's 
progress on Deepwater, and we will continue to have aggressive 
oversight.
    We are not done fixing the Coast Guard's acquisition 
program, and many challenges lie ahead. Taxpayers deserve to 
know that their Government dollars are being spent in a 
responsible manner. We cannot repeat the blunders of the past, 
and I assure you we will be looking at how every dollar is 
spent. The Coast Guard needs to complete its mission safely and 
effectively, and taxpayers are going to be making sure that 
that happens.
    NOAA also faces a similar daunting number of 
responsibilities and challenges. Our world's oceans are facing 
unprecedented threats. The process of ocean acidification is 
actually challenging the very chemistry of the ocean.
    As our carbon dioxide emissions make seawater more acidic, 
the ocean may begin to withhold the basic chemical building 
blocks needed by many marine organisms. In regions like the 
Pacific Northwest, scientists predict that a more acidic ocean 
could dissolve the shells of tiny organisms that make up the 
base of the oceans food chain.
    When it comes to ocean acidification, we risk not just 
damaging the ocean's ecosystem, we are threatening its very 
foundation. We are already seeing on the ground economic 
impacts of ocean acidification, like the shellfish farmers in 
Washington State, those who are greatly impacted by 
acidification.
    In addition to ocean acidification, NOAA's conservation and 
management efforts have to cope with a long list of threats--
ocean dead zones, ocean trash and marine debris, overfishing, 
toxic algae blooms, increasing ocean temperatures, and 
endangered species. NOAA and the Obama Administration are 
making ambitious steps to begin addressing many of these 
issues, and it is imperative that NOAA fill its ranks with the 
best, most-qualified people to carry out NOAA's conservation 
and management responsibilities. The ocean coasts and our blue 
economy will depend on this.
    I look forward to hearing from today's nominees on their 
experience and background and what best prepared them to meet 
the challenges that we face ahead.
    So, with that, I know that we have several colleagues that 
are here that would like to give statements on behalf of 
nominees that are from their home State areas. And so, I see my 
colleague Senator Kerry is here. Would you like to make a 
statement now on behalf of Admiral Papp?

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you, Madam Chairman.
    Well, I appreciate the opportunity. I am not sure what the 
order is--I think Admiral Papp is the first panel. And I 
appreciate the opportunity to say a few words in support of his 
nomination to become the Commandant of the United States Coast 
Guard.
    I am convinced that Admiral Papp was predestined--ordained, 
if you will--to become a ship captain in the Coast Guard 
because he grew up within sight of the Coast Guard Academy in 
New London, Connecticut, and he was inspired, I know, by the 
sight of the training vessel EAGLE as she would go out of 
there.
    He spent 14 years at sea over the course of his career, the 
captain of 4 Coast Guard cutters, EAGLE, and the CONSTITUTION. 
The EAGLE and CONSTITUTION--excuse me. He was not captain of 
the CONSTITUTION. That is a Navy ship. I am not giving that to 
him.
    [Laughter.]
    Senator Kerry. But the EAGLE and CONSTITUTION are the only 
active sailing vessels in the American Government's service, 
and I know that he considers service on the EAGLE as sort of 
the pinnacle of his career because he had the privilege of 
training with some 1,000 cadets in that process, and that is 
the future of the Coast Guard.
    I had the privilege of meeting the Admiral when he was 
still a captain on the EAGLE, and it came at a time when he 
sailed the EAGLE and her crew at the head of a group of tall 
ships coming into Boston in the Summer of 1998. We were 
celebrating the 200th anniversary of CONSTITUTION's maiden 
voyage.
    I will always remember it because Prince William of Great 
Britain was there, representing the Queen. And I remember 
walking into this reception in the Charlestown Navy shipyard, 
and there were a host of Navy officers there all dressed in 
white. The only person there in blue was the Admiral, who 
clearly put his blues on just to stand out amidst all the Navy 
folks, and I had the privilege of introducing the Prince to 
him. I also got to meet his wife, Linda, who is here with us 
today.
    I renewed our acquaintance the next year when he became the 
Coast Guard's Chief of Congressional Affairs. And I will say 
that during the 3 years in that job and anybody on this 
committee who worked with him in that task knows how diligently 
he worked and the authority that he brought in his effort to 
fight for the resources necessary to carry out the full range 
of Coast Guard missions, which we all know have grown markedly 
both with the increase of interdiction narcotics efforts, as 
well as the post-9/11 responsibilities that have fallen to the 
Coast Guard.
    Madam Chairwoman, there is no one more passionate about the 
Coast Guard or the defense of our country than Admiral Papp, 
and it is a passion that is guided by significant experience, 
operational and staff experience that will serve him very, very 
well. He has held almost every important command in the Coast 
Guard, and that ranges from the District Commander on the 
northern border, Director of Reserve and Training, the 
Commander of the Ninth Coast Guard District, Chief of Staff of 
the Coast Guard, and currently, the Atlantic Area Commander 
responsible for all Coast Guard activities from the Rocky 
Mountains to the Arabian Gulf. That is an enormous span of 
responsibility.
    So I am convinced that his experience, combined with his 
passion and his vision, make him the ideal candidate to lead 
the United States Coast Guard at this critical juncture in its 
storied history, and I am proud to introduce him to the 
Committee.
    Senator Cantwell. Thank you, Senator Kerry. And thank you 
for being here.
    We are going to call Vice Admiral Papp up in a few minutes, 
but I wondered if my colleague, the Ranking Member of the 
Subcommittee, had anything that she wanted to say this morning 
before we continued?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. And thank you, Madam Chair, and I appreciate 
very much for convening this hearing today to discuss the vital 
contributions of our nominees.
    And I first want to recognize the nomination of Vice 
Admiral Papp to be the next Commandant of the Coast Guard, and 
I want to welcome Admiral Papp. And I appreciate the fact he 
was willing to travel to Maine recently to attend the 
Fishermen's Forum.
    And I think he certainly gained a perspective of, you know, 
how the people of Maine, a coastal State, and the fishing 
community view the Coast Guard with tremendous admiration and 
appreciation for the work that the Coast Guard does, day in and 
day out, on behalf of the people of our State and across this 
country. So there is enormous gratitude for the work that they 
perform.
    I want to welcome Admiral Papp before this committee as the 
next nominee for the Commandant of the Coast Guard. I think his 
resume--as Senator Kerry and I know the Chair has spoken to--
speaks for itself with 35 years of service since his graduation 
from the Coast Guard Academy.
    But I also want to point out that he is just the 13th 
service member to qualify as a Gold Ancient Mariner, with over 
10 years of cumulative at-sea time during his tenure, 
remarkable example and demonstration of his commitment to the 
service of this country.
    I also want to thank him for all of the work that he has 
done over the years. I think his background and experience 
demonstrates an abundance of expertise and qualifications to 
assume this job and the capacity as Commandant, given the 
enormous challenges and responsibilities that that job 
represents.
    The Coast Guard fills innumerable roles in the maritime 
domain and does so with tremendous skill, precision, and speed, 
despite often operating in the most treacherous of conditions. 
When other vessels head for safe harbors in the face of a 
rising storm, it is the Coast Guard's duty to sail full steam 
ahead into the teeth of the tempest to assist those in need.
    From dramatic helicopter rescues hundreds of miles from 
shore to its role as first responders in the face of 
humanitarian crises like the tragic earthquake in Haiti, the 
Coast Guard perpetually lives up to its motto, ``Always 
ready.''
    So the Coast Guard today faces countless challenges, which 
we will pursue through various questions to the Admiral. But 
certainly, in the execution of their missions--and frankly, it 
is the budget that concerns me the most. President Obama has 
chosen in this Fiscal Year to impose a freeze on nonmilitary 
discretionary spending. And frankly, the Coast Guard is a 
branch of the military. So I am surprised that it wasn't 
recognized as such in terms of now imposing a reduction of more 
than $340 million in the Fiscal Year 2010 enacted level.
    So those are some of the issues that I certainly will be 
pursuing in the line of questioning. But I certainly want to 
welcome Admiral Papp to this position and to this committee so 
that we have a chance to explore these and examine these key 
issues.
    And Madam Chair, I also would like to recognize on the 
second panel an individual who represents the State of Maine, 
who is highly qualified in the position not only as a member of 
the Marine Mammal Commission, but also has been nominated to be 
the next Chair of the Marine Mammal Commission. And I want to 
recognize Dr. Daryl Boness. I know he represents Maine's 
outstanding academic community with his research and the fact 
that he is a Research Professor at the University of Maine in 
Orono.
    And I am just very pleased with his credentials and 
qualifications that he has been recognized not only to be 
reappointed to this commission, but also to serve as the next 
Chair.
    Thank you.
    [The prepared statement of Senator Snowe follows:]

 Prepared Statement for Hon. Olympia J. Snowe, U.S. Senator from Maine
    Good morning, Mr. Chairman, and thank you for convening this 
hearing today to discuss the vital contributions these nominees will 
provide to the Nation. In particular, as Ranking Member of the 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard, and as 
a Senator from a state so inextricably linked to our oceans and coasts, 
I am pleased to be in this position to ensure we uphold the tradition 
of strong leadership of the United States Coast Guard with the 
nomination of Vice Admiral Robert Papp to be the next Commandant.
    I want to welcome Admiral Papp who comes before this committee 
today nominated to be the Coast Guard's next Commandant. Admiral Papp's 
resume speaks for itself, with 35 years of service since his graduation 
from the Coast Guard Academy, but I also want to point out that he is 
just the 13th service member to qualify as a Gold Ancient Mariner with 
over 10 years of cumulative at-sea time during his tenure--a remarkable 
example of his commitment to the service and the country. I also want 
to thank him for his offer to travel with me to Maine earlier this 
month to attend the Maine Fishermen's Forum and after having the 
opportunity for extended conversations with him during our trip to 
Maine and back, there is no doubt in my mind that he is the right 
person for the job.
    The Coast Guard fills innumerable roles in the maritime domain, and 
does so with tremendous skill, precision, and speed despite often 
operating in the most treacherous of conditions. When other vessels 
head for safe harbors in the face of a rising storm, it is the Coast 
Guard's duty to sail full steam ahead into the teeth of the tempest to 
assist those in need. From dramatic helicopter rescues hundreds of 
miles from shore to its role as first responder in the face of 
humanitarian crises like the tragic earthquake in Haiti, the Coast 
Guard perpetually lives up to its motto: semper paratus--``always 
ready.''
    Today's Coast Guard faces countless challenges from the continued 
vigilant execution of their missions, to the ongoing efforts to correct 
the course of its troubled recapitalization and acquisition program, to 
dealing with what can only be described as a hostile budget environment 
within this Administration. And frankly, it is the budget that concerns 
me most. President Obama chose in his Fiscal Year 2011 budget to impose 
a freeze on non-military discretionary spending. The Coast Guard of 
course is a branch of the military, but this budget actually imposed a 
reduction of over $340 million from the FY 2010 enacted level.
    As this committee has discussed on numerous prior occasions, the 
Coast Guard is an agency that has always been asked to do more with 
less, and we simply cannot continue to expect the same high level of 
service without sufficient funding. Already in the budget request, we 
are looking at the elimination of key port security assets, for 
example, including the Marine Safety and Security Team stationed in New 
York Harbor. I look forward to discussing with Admiral Papp how, as 
Commandant, he would ensure the Coast Guard can continue to provide its 
truly critical services in light of this proposed reduction.
    I also want to welcome our second panel of nominees who will appear 
before us today, particularly Dr. Daryl Boness, a resident of Hartford, 
Maine, and Research Professor at the University of Maine, Orono, who 
has been nominated to serve on the Marine Mammal Commission. Dr. 
Boness' scientific career spans more than 30 years, and in addition to 
his work as Editor-in-Chief of the journal Marine Mammal Science, he 
has served on review panels for the National Marine Fisheries Service, 
the Fish and Wildlife Service, the Office of Naval Research, just to 
name a few. He is among the most respected scientists in his field, and 
will provide invaluable contributions to our Nation's marine mammal 
management programs.
    Dr. Boness is joined in his nomination to that body by Dr. Michael 
Tillman. And I want to thank Dr. Larry Robinson, nominated to be 
Assistant Secretary of Commerce for Oceans and Atmosphere.
    Our ocean and coastal resources provide tremendous ecological, 
economic, and cultural benefits, but recent Administrations, including 
the current one, have failed to recognize their contributions with 
sufficient investment. I am pleased to see that NOAA has created a 
senior leadership position--to which Dr. Robinson is nominated--to 
coordinate the agency's efforts on conservation and management. As I 
discussed with Dr. Lubchenco at the NOAA Budget hearing before this 
committee earlier this month, we are drastically underfunding oceanic 
research--particularly fisheries research that has a very real impact 
on our coastal economy.
    In Prospect Harbor, Maine, we have recently seen the loss of 130 
jobs resulting from the closing of a century-old sardine cannery--the 
last one in the country. The reason for this closure is that scientists 
set a low catch limit for herring, not because the stock is overfished, 
but because the data they had to work with simply could not provide 
enough certainty to make a valid assessment of the health of the fish 
population. A Government Accountability Office study released in 2008 
found a similar dearth of data to support marine mammal stock 
assessments, something Drs. Boness and Tillman are no doubt aware of. I 
hope we can count on these nominees to help reverse that trend, protect 
our depleted resources, and ensure a brighter, sustainable future for 
our coastal resources and economy.
    Finally, I want to welcome Dr. Earl Weener, nominated to the 
National Transportation Safety Board, and Mr. Jeffrey Moreland to serve 
on Amtrak's Board of Directors.
    The Federal Government's role in transportation is primarily one of 
safety; new members of the National Transportation Safety Board (NTSB), 
will continue to be a part of an agency immersed in the investigation 
of two high-profile accidents this committee has expressed considerable 
interest in; last year's crash of Continental Flight 3407 outside of 
Buffalo, New York, and the Metro collision of two passenger trains near 
Takoma Park, Maryland in June of last year, as well as improving the 
safety of Americans through comprehensive review of dozens of incidents 
and accidents throughout the country.
    I must admit, I have grown tired of reading newspaper articles 
detailing various accidents which the NTSB has already warned against 
by pointing out safety flaws that could have prevented these accidents. 
In fact, I worked with Senator Boxer to put some of the Board's 
recommendations into law in our One Level of Safety legislation, and 
the Committee has recognized that work, and inserted it into the FAA 
Reauthorization. While I am well aware that the agency has only the 
ability to make recommendations, and has no implementation authority, I 
believe the NTSB's challenge will be to become more assertive in 
communicating to Congress if government entities continue to be 
downright dismissive of the Board's efforts.
    One new focus this Administration has brought to transportation 
policy has been the substantial interest in, and subsequent commitment 
to, passenger rail. With Amtrak as our primary vehicle for inter-city 
passenger rail--particularly in the Northeast--I look forward to having 
a complete Board of Directors to preside over the $13 billion Federal 
investment we made for passenger rail over the past year.
    While I remain a serious supporter of passenger rail, and was 
particularly gratified that my home state of Maine received a High 
Speed Rail grant of $35 million to extend our Downeaster service north 
to Brunswick, Maine, I am not entirely convinced we are using our 
limited transportation resources in the most responsible manner. The 
Associated Press pointed out that one high-speed rail project in 
California--one!--is projected to cost upwards of $40 billion. Can we 
provide the kind of commitment for high speed rail--both in terms of 
time, and more importantly, revenue--that will provide benefits to all 
Americans? Or are we squandering precious revenues that could be used 
to restore Amtrak's infrastructure to a state of good repair, to 
prepare it to move at greater speeds and with greater efficiency? 
Amtrak's Board of Directors should have a significant role in these 
discussions.
    Once again, I want to thank the Chairman for bringing all of these 
nominees before the Committee today, and I look forward to our 
conversations and to continuing the process of filling the vacancies 
and increasing the efficiency of operations of the Federal Government.

    Senator Cantwell. Thank you, Senator Snowe.
    And again, before we turn to Vice Admiral Papp, we are 
joined by our colleague Senator Merkley from Oregon, a member 
of the EPW Committee, to give comments about one of the other 
nominees.
    So welcome to the Committee, Senator Merkley. We look 
forward to your introduction.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you, Madam Chair.
    And thank you to you and members of the Committee for the 
invitation to come and to introduce a fine Oregonian and expert 
in aviation safety, Dr. Earl Weener.
    Dr. Weener will appear in the second panel, but he is being 
nominated to be a Member of the National Transportation Safety 
Board. I would also like to welcome his wife, Linda, who is 
able to join us today.
    Dr. Weener, of Sherwood, Oregon, has spent his life working 
as an engineer in both the private and nonprofit sectors to 
improve airplane and pilot safety. His Ph.D. is in aerospace 
engineering and he was formerly the Chief Engineer at Boeing, 
where he created and led industry programs that demonstrate the 
necessity for additional safety enhancements in order to reduce 
crashes due to pilot error. His activities helped instigate 
industry initiatives toward risk reduction.
    His lifelong career has helped the commercial aviation 
industry incorporate accident prevention into their operational 
systems, both domestically and internationally. He has won a 
number of awards for his outstanding work, including the 
Honeywell Bendix Trophy for Aviation Safety in 2005 for his 
contributions to commercial air aviation safety. He was also 
awarded the Aviation Week and Space Technology Laurels Award in 
1994 for his leadership in preventing controlled flight into 
terrain accidents.
    He is currently a Fellow at the Flight Safety Foundation, 
where he has led international industry initiatives to improve 
runway safety, and to reduce ground accidents and injuries. He 
is also a general aviation flight instructor, and so he 
understands firsthand the skills required by pilots and the 
learning process that new pilots go through. Not only does Dr. 
Weener have aviation experience, he also has a Coast Guard 
captain's license and spent 2 years of his retirement traveling 
around the U.S. coast.
    While we all hope that aviation accidents continue to be 
few and far between, having a qualified member of the NTSB such 
as Dr. Weener, benefits our quest to eliminate accidents and 
perfect aviation safety.
    So I am very pleased to support his nomination, and thank 
you for the invitation to introduce him.
    Senator Cantwell. Thank you, Senator Merkley, for your 
statement. I am sure Dr. Weener very much appreciates you being 
here today on his behalf, and we will look forward to hearing 
his comments.
    Vice Admiral Papp, if you would come to the witness table 
and make your statement? And if you would, introduce your 
family. We appreciate them being here as well.

         STATEMENT OF VICE ADMIRAL ROBERT J. PAPP, JR.,

            COMMANDANT-DESIGNATE, U.S. COAST GUARD,

                DEPARTMENT OF HOMELAND SECURITY

    Admiral Papp. Good morning, Madam Chair. I would like to 
introduce my wife, Linda, who is sitting directly behind me. 
She is with me here today.
    A number of shipmates unexpectedly have driven up here to 
be with me as well, including, most importantly, my Executive 
Assistant for the last 2 years, Commander, now Captain-select 
Rick Rodriguez, who has served me well and will be coming to 
Washington this summer in another assignment.
    I would ask, Madam Chair, that I be able to submit my 
prepared testimony for the record and give a brief oral 
statement.
    Senator Cantwell. Please do so.
    Admiral Papp. Thank you.
    Good morning, Madam Chair.
    And Senator Kerry, thank you so much for that introduction. 
It is good to reestablish our relationship and good to see you 
again. I deeply appreciate you taking the time to come in here 
this morning and for your constant stewardship of the Coast 
Guard.
    As well, Senator Snowe, it was great to get together with 
you again. I really enjoyed going up to Maine for that visit. 
Next time, I want to be able to have a couple lobsters while I 
am there. So maybe we will spend a little more time when I go 
up there.
    It is a privilege for me to appear before you today. I am 
grateful for the confidence of President Obama and Secretary 
Napolitano in nominating me to become the 24th Commandant of 
the United States Coast Guard.
    I am also grateful that my wife of nearly 34 years, Linda, 
is able to share this day with me because she has been an 
inseparable part of my career, just as she would tell you that 
the Coast Guard has been an inseparable part of our marriage--
insufferable sometimes, but inseparable.
    [Laughter.]
    Admiral Papp. It has been an honor to serve in the Coast 
Guard for nearly 35 years, and I am humbled by the prospect of 
serving as the Commandant. I joined the Coast Guard with a 
desire to be a mariner and a ship's captain, carrying out Coast 
Guard operations. As an operator, I have seen firsthand the 
obsolete cutters, boats, aircraft, electronics, and logistics 
systems that contribute to the difficulty of performing our 
missions in an unforgiving environment.
    In 1999, after many years at sea, I became the Chief of 
Coast Guard Congressional Affairs. At the time, we were faced 
with declining budgets, which required tough decisions on the 
allocation of resources, while suffering from obsolete and 
worn-out operational assets and deteriorating shore 
infrastructure.
    Now when I was assigned to the job, I believed that 
Congressional Affairs might be my last assignment before 
retiring. But after the events of September 11, 2001, I was 
inspired to continue my service, and I have been humbled to be 
given continuing opportunities to serve in the Coast Guard and 
to serve our country.
    Today, after 8 years of unprecedented budget growth, the 
Coast Guard, unfortunately, is still plagued with much of the 
same obsolete equipment. After the tragedy of 9/11, we assumed 
increased responsibilities, which placed additional burdens on 
our people and equipment and presented challenges to performing 
our traditional missions. Like 1999, we now face potential 
budget constraints, increased mission demands, and strained 
resources.
    Now the reason we continue to get the job done is people. 
As an operational field commander for nearly half my career, I 
have been able to maintain a meaningful connection with and 
understanding of the people who have volunteered to serve their 
country in the United States Coast Guard.
    When I talk about these people, I refer to them as 
shipmates. Shipmates is my short-hand term of endearment for 
members of the Coast Guard family--the active duty, the 
reserve, the auxiliary, and the civilians, all the men and 
women of our service who, because of our experiences together, 
really do become an extended family.
    I have visited with thousands of them. But more 
importantly, I have listened to them and heard loud and clear 
that they remain committed to mission excellence, but they need 
the resources--the ships, the aircraft, the boats, the 
communication systems, and the shore infrastructure--to keep up 
with the increasingly challenging missions in the maritime 
environment.
    At the same time, they desire policies that facilitate 
their dreams and aspirations while accommodating the current 
societal norms for those who desire family stability. We want 
to make our service the choice of a profession for all 
Americans.
    I am committed to the dedicated men and women with whom I 
have proudly served alongside for 35 years. If confirmed as 
Commandant, my obligation to them, as well as the Department of 
Homeland Security and the American public will be fulfilled by 
setting a course that steadies our service, honors our 
profession, strengthens our partnerships, and respects our 
shipmates.
    For the past 2 years, I have been responsible for two-
thirds of the Coast Guard's worldwide operations. We have 
conducted operations from the Rocky Mountains to the Northern 
Arabian Gulf, dealing with devastating floods and hurricanes, 
ice-choked rivers, major oil spills, and migrant and drug 
smugglers, all while providing security and safety for our 
ports and waterways and enforcing a host of maritime safety 
regulations.
    Our versatile, adaptable ships, boats, and aircraft, and 
people perform splendidly in spite of the challenges presented 
by obsolete equipment and casualties. And most recently, they 
were the first on scene in Haiti to provide relief to that 
country's poor and unfortunate people.
    Shortly after the earthquake, the cutter TAHOMA from 
Kittery, Maine, pulled into Port-au-Prince harbor, and her 
Captain, Jim Spott, sent a group of his shipmates ashore to see 
what they could do for the dying, sick, and wounded. Among that 
group was a recent Coast Guard Academy graduate named Ensign 
Kevin Robinson. I exchanged e-mails with Ensign Robinson.
    He said, ``My peers and I are not doctors, but we do have 
basic medical training and supplies to keep a deep cut from 
turning into an amputation. We are just scrambling to help as 
many people as we can with what we have.''
    Ensign Robinson's words and deeds could be taken as a 
metaphor for a service that has the somewhat dubious reputation 
of always trying to do more with less, often at the expense of 
working our people harder. I addressed this challenge head on 
in my speech upon taking command of Atlantic Area 2 years ago.
    ``We have the honor and privilege of performing meaningful 
work that is essential to the long-term safety and security of 
our country. I know you are capable of heroic and extraordinary 
deeds. I will never ask you to do more than our resources 
allow, but we must do our absolute best with what we have to 
sustain mission excellence. We owe it to our citizens and our 
shipmates. I expect nothing better. You should accept nothing 
less.''
    My operational leadership experience over more than three 
decades has constantly reenergized my passion and enhanced my 
vision to lead the service in carrying out all 11 of the Coast 
Guard's statutory missions in the most effective and 
professional manner possible.
    Again, I am privileged to appear before you today in 
consideration of serving as the 24th Commandant of the United 
States Coast Guard. I look forward to working with the 
leadership and the members of this committee to make the 
service as effective as possible, and I will be happy to answer 
any questions that you have.
    [The prepared statement and biographical information of 
Admiral Papp follows:]

  Prepared Statement of Vice Admiral Robert J. Papp, Jr., Commandant-
      Designate, U.S. Coast Guard, Department of Homeland Security
Introduction
    Good afternoon Mr. Chairman and distinguished members of the 
Committee. It is a privilege to appear before you today. I am grateful 
for the confidence of President Obama and Secretary Napolitano in 
nominating me to become the 24th Commandant of the United States Coast 
Guard. I would also like to thank Admiral Thad Allen, our current 
Commandant, for the opportunity to serve as Chief of Staff of the Coast 
Guard and Commander of the Atlantic Area. It has been an honor to serve 
in the Coast Guard for nearly 35 years, and I am humbled by the 
prospect of serving as the Commandant. Today, I will discuss my 
priorities and objectives to provide an overview of how, if confirmed, 
I will lead the Coast Guard in support of the goals of the Department 
of Homeland Security (DHS).
Unique Agency of the Federal Government
    The Coast Guard is a unique Federal agency. We trace our history 
back to August 4th, 1790, when the first Congress authorized the 
construction of ten vessels to prevent smuggling and enforce tariff and 
trade laws. Over the last two centuries, we have expanded in size, 
authorities, and responsibilities to confront the ever-evolving 
challenges of the maritime environment. With its broad safety, 
security, military, and law enforcement authorities, today's Coast 
Guard is a versatile, adaptable, maritime service within DHS and one of 
the Nation's five armed services. In fulfilling the Coast Guard's 
eleven statutorily-mandated missions, we protect against hazards to 
people, maritime commerce, and the environment; defend our borders; 
rescue those in peril on our waters; respond promptly to both man-made 
and natural disasters to restore the Nation's waterways--safeguarding 
and fostering the rapid recovery of the Marine Transportation System 
(MTS); and, when called upon, defend the Nation both at home or abroad 
in partnership with the other Armed Forces. On the rivers, in the 
ports, on the seas, and around the globe, the Coast Guard provides a 
great service to our Nation through our distinctive blend of military, 
humanitarian, and civilian law enforcement capabilities.
Our People--Our Results
    We have approximately 42,000 active duty, 8,200 reserve, 8,000 
civilian, and 31,000 volunteer auxiliary members engaged in conducting 
or supporting Coast Guard operations. These dedicated men and women 
deliver critical services and value to the public across our eleven 
missions. In FY 2009, under the leadership of Admiral Allen, we 
responded to more than 23,500 search and rescue cases and saved more 
than 4,700 lives; removed more than 160 metric tons of cocaine bound 
for the United States; interdicted more than 3,700 undocumented 
migrants attempting to enter our Nation illegally; and conducted 
thousands of security boardings and escorts. In support of the MTS, we 
serviced more than 17,700 aids to navigation and corrected more than 
7,500 discrepancies; performed domestic icebreaking to keep waterways 
open for commercial traffic carrying more than $600 million worth of 
cargo; performed more than 17,300 facility inspections, 25,400 
container inspections, and over 14,000 inspections on U.S.-flagged 
certificated vessels; and conducted nearly 4,500 marine casualty 
investigations.
    Since our inception, the Coast Guard's service to the Nation has 
been defined by our missions and our people. Our men and women are 
inspired by the rich heritage of our Service and its accomplishments. 
Today. the challenges that we face are as varied as they are demanding. 
The American people and our partner agencies expect clarity of purpose 
and excellence in performing our statutory missions--and that is what 
we seek to do on a daily basis.
Unity of Effort
    The Coast Guard's core competencies, organizational ethos, and 
broad capabilities are tightly aligned to DHS' vision to provide a 
homeland that is safe, secure, and resilient against terrorism and 
other hazards. Our Service's eleven missions, performed by a talented 
and versatile work force, reflect and support the Secretary of Homeland 
Security's five priorities as articulated in the Department's 
Quadrennial Homeland Security Review:

  <bullet> Preventing Terrorism and Enhancing Security

  <bullet> Securing and Managing Our Borders

  <bullet> Enforcing and Administering Our Immigration Laws

  <bullet> Safeguarding and Securing Cyberspace

  <bullet> Ensuring Resilience to Disasters
My Priorities
    I am wholly committed to carrying out the Coast Guard's eleven 
statutory missions in the most professional and effective manner 
possible. If confirmed, I will set a course that completes several 
ongoing reforms, honors our profession, strengthens our partnerships, 
and respects our shipmates. I will briefly elaborate on my priorities 
below.
Completing Ongoing Reforms
    The Coast Guard can and will increase our effectiveness by 
completing several ongoing staffing, financial management, and mission 
alignment reform efforts over the next few years. The tragic 9/11 
attacks and Hurricane Katrina displayed the Coast Guard's exceptional 
skills, yet also brought to light several structural areas in our 
organization that needed improvement. We continue to modernize our 
headquarters and logistics organizations, we are updating our financial 
management systems to reflect contemporary controls and procedures for 
accounting and property management, and I am committed to completing 
the efforts already underway to reform our acquisitions program and 
recapitalize our cutters, aircraft, and Command, Control, Computers, 
Intelligence, Surveillance, and Reconnaissance systems. Our challenge 
is to effectively coordinate and complete these efforts as 
expeditiously as possible while maintaining our high levels of 
performance across our operational mission set.
    In order to realize all of the priorities I am outlining today, we 
need to remain committed to the recapitalization of our aging fleet. We 
have worked diligently to overcome our acquisition program's 
performance gaps, and Congress' continued support for, emphasis on, and 
oversight of this program is critical. We need to build on the 
acquisitions successes of our seagoing and coastal buoy tenders, as 
well as the 87-foot coastal patrol boat program, and extend those 
successes to our other cutter classes.
    The operational demands on the Coast Guard require completion of 
our critical recapitalization programs. Aging, deteriorating, and 
technically-challenged resources have exacerbated our operational 
challenges. To maximize effectiveness in the future, I will ensure that 
the Coast Guard is optimally organized to most effectively operate 
within its available resources. I will take aggressive steps to refocus 
on the versatile and adaptable capabilities provided by our cutters, 
boats, and aircraft in order to be prepared for the challenges of today 
and tomorrow. Most importantly, I will ensure our people have a clear 
vision and focus on how we will collectively navigate the way ahead to 
best leverage our versatile and adaptable maritime core capabilities 
and ensure the stability of our Service.
Honor Our Profession and Respect Our Shipmates
    The Coast Guard's greatest asset is the men and women who are 
called to duty in our active, reserve, civilian, and auxiliary 
components. Over the last decade, our workforce has grown rapidly to 
meet expanding requirements. To establish the highest professional 
standards, I will work to identify and address any gaps in 
capabilities, competencies, and performance measures. I am deeply 
committed to developing our collective work force, enabling our men and 
women to build upon their experiences and excel throughout their 
careers.
    I am also fully committed to providing the absolute best in human 
resource management, administrative support, wellness programs, and 
professional development. It is imperative that we continue to recruit 
and retain talented and motivated people. Our ability to accomplish 
this depends upon the substantive opportunities we offer, and our 
actions to care for our own. To implement this mandate, I will 
implement policies to benefit the workforce and their families by 
providing a safe, collaborative, and productive workplace environment, 
and support the White House initiative to provide family and geographic 
stability to our men and women in the armed services. I am committed to 
a Service that reflects the racial, ethnic, and gender composition of 
our Nation. In short, if confirmed as Commandant, maintaining the Coast 
Guard as a profession of choice will be one of my top responsibilities.
Strengthen Our Partnerships
    The Coast Guard has strengthened our ability to protect our 
Nation's ports, waterways, and coastlines by partnering with Federal, 
state, and local agencies; tribal nations; the marine industry; and 
international stakeholders. By working collaboratively, we can align 
our efforts to create an effective and efficient system to meet today's 
demands and fulfill our national security goals. I will work closely 
with Secretary Napolitano to fully implement the shared vision for 
homeland security set forth in the Department's first ever Quadrennial 
Homeland Security Review. I will also build upon the Coast Guard's 
strong record of developing and supporting maritime security 
partnerships at all levels of government and internationally with 
foreign coast guards. Prioritizing these partnerships will help us 
create a Maritime Transportation System that is safe, secure, and 
resilient against all hazards.
Conclusion
    I would like to express my heartfelt gratitude to Admiral Thad 
Allen for his exceptional service to our Nation during his tenure as 
Commandant. Admiral Allen has presided over the needed adjustments to 
our organization and force structure that have set us up for success 
now and in the future. Our recent response to the tragic earthquake in 
Haiti underscores these improvements, as we led the initial U.S. 
response during the first 24 hours and supported the effort coordinated 
by the U.S. Agency for International Development and U.S. Southern 
Command in the following days.
    Serving our country is more than a job--it is a calling that 
obligates us to responsible conduct, accountability, and commitment to 
the Coast Guard's core values of Honor, Respect, and Devotion to Duty. 
We are inspired to serve by patriotic motives and the rule of law, and 
we have sworn to support and defend the Constitution. My operational 
and leadership experience over more than three decades has constantly 
re-energized my passion and enhanced my vision to lead the Coast Guard 
in a meaningful, efficient, and effective manner to serve the American 
people.
    Again, I am privileged to appear before you today in consideration 
of serving as the 24th Commandant of the United States Coast Guard. I 
look forward to working with the leadership and members of this 
committee to make the Service as effective as possible. I am happy to 
answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Robert J. 
Papp, Jr.
    2. Position to which nominated: Admiral (O-10); Commandant, U.S. 
Coast Guard.
    3. Date of Nomination: December 22, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Commander (Lant-00), U.S. Coast Guard Atlantic Area, 
        432 Crawford St., Portsmouth, VA 23704.

    5. Date and Place of Birth: 25 March 1952; North Kingston, Rhode 
Island, USA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Linda Kapral Papp, Retired in June 2008 Fairfax County 
        Public Schools, Fairfax, VA; children: Lindsay Anne Sher (28), 
        Caitlin Elizabeth Papp (24) (twins), Jillian Marie Papp (24).

    7. List all college and graduate degrees. Provide year and school 
attended.

        College: U.S. Coast Guard Academy 1970-75--BS/Management 04 
        June 1975.

        Graduate: U.S. Naval War College 1989-90--MA/Strategic Studies 
        01 June 1990.

        Graduate: Salve Regina College 1989-90--MS/Management 20 May 
        1990.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Post-undergraduate and Management-level jobs (all U.S. Coast Guard 
assignments):

        Jun 1975 to Aug 1975--Commissioned Platoon Officer, U.S. Coast 
        Guard Academy, New London, CT.

        Sep 1975 to Apr 1977--Deck/Operations Officer, USCGC IRONWOOD, 
        Adak, AK.

        Jun 1977 to Jan 1979--Executive Officer, USCGC REDWOOD, New 
        London, CT.

        Jan 1979 to May 1981--Commissioned Company Officer, U.S. Coast 
        Guard Academy, New London, CT.

        Jun 1981 to Aug 1983--Commanding Officer, USCGC RED BEECH, 
        Governors Island, NY.

        Aug 1983 to May 1986--Assistant Chief, Aids to Navigation 
        Branch Third Coast Guard District, Governors Island, NY.

        May 1986 to Jul 1989--Commanding Officer, USCGC PAPAW, 
        Charleston, SC.

        May 1989 to Jun 1990--Student, U.S. Naval War College, Newport, 
        RI.

        Jun 1990 to May 1993--Branch Chief, Defense Operations 
        Division, U.S. Coast Guard Headquarters, Washington, D.C.

        May 1993 to Jul 1995--Commanding Officer, USCGC FORWARD, 
        Portsmouth, VA.

        Jul 1995 to May 1996--Chief, Fleet Development Team, Aids to 
        Navigation Division, U.S. Coast Guard Headquarters, Washington, 
        D.C.

        May 1996 to Jul 1999--Commanding Officer, USCGC EAGLE, New 
        London, CT.

        Jul 1999 to May 2002--Chief, Office of Congressional Affairs, 
        U.S. Coast Guard Headquarters, Washington, D.C.

        May 2002 to Oct 2002--Deputy Chief of Staff, U.S. Coast Guard 
        Headquarters, Washington, D.C.

        Oct 2002 to May 2004--Director of Reserve and Training, U.S. 
        Coast Guard Headquarters, Washington, D.C.

        May 2004 to Apr 2006--Commander, Ninth Coast Guard District, 
        Cleveland, OH.

        Apr 2006 to Jul 2008--Chief of Staff, U.S. Coast Guard, U.S. 
        Coast Guard Headquarters, Washington, D.C.

        Jul 2008 to Present--Commander, U.S. Coast Guard Atlantic Area, 
        Portsmouth, VA.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None. The Coast Guard 
is my only government experience.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, U.S. Coast Guard Academy Alumni Association--1975 to 
        present.

        Board of Directors 1979 to 1981.

        Member, U.S. Naval Institute--1975 to present.

        Member, Military Officers Association of America--2000 to 
        present.

        Member, National Maritime Historic Society--2002 to present.

        Member, New York Yacht Club--2002 to 2006.

        Member, Reserve Officers Association--2002 to present.

        Member, Association of Naval Service Officers--May 2002 to 
        present.

        Member, National Naval Officers Association--May 2002 to 
        present.

        None of these organizations restricts membership on the basis 
        of sex, race, color, religion, national origin, age, or 
        handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have never been a candidate for public office.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Military Awards

        Distinguished Service Medal--for service Apr 2006-Jul 2008.

        Legion of Merit--for service Oct 2004-Apr 2006.

        Legion of Merit--for service Oct 2002-Apr 2004.

        Legion of Merit--for service Jul 1999-May 2002.

        Legion of Merit--for service May 1996-Jul 1999.

        Meritorious Service Medal--for service May 1993-Jun 1995.

        Meritorious Service Medal--for service Jul 1990-May 1993.

        Coast Guard Commendation Medal--for service May 1986-Jun 1989.

        Coast Guard Commendation Medal--for service Aug 1983-May 1986.

        Coast Guard Commendation Medal--for service Jun 1981-Aug 1983.

        Coast Guard Commendation Medal--for service Jan 1979-May 1981.

        Coast Guard Achievement Medal--for service Jun 1977-Dec 1978.

        Commandant's Letter of Commendation--for service Aug 1990-May 
        1991.

        Special Recognition:

        Distinguished Public Service Award--National Maritime Historic 
        Society.

        Native Son Award--Norwich Rotary--Norwich, Connecticut.

        Minute Man Hall of Fame--Reserve Officers Association.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Writings:

        Afterword for the reprinting of The Skipper and the EAGLE by 
        Captain Gordon McGowan, Sea History Press 1998.

        Article--Awakening the Next Watch, Tall Ships News Issue No. 
        36--Summer 1998.

        Article--Co-authored Maximize Maritime Partnerships, U.S. Naval 
        Institute Proceedings, August 2009.

        Article--Co-authored Operational Analysis Can Maximize Coast 
        Guard Assets, U.S. Naval Institute Proceedings, January 2009.

    Speeches:

        Remarks For Association of Naval Service Officers (ANSO) 
        Quantico, Virginia, 9 April 2003.

        Remarks For International Society for Performance Improvement 
        (ISPI) Boston, Massachusetts, 12 April 2003.

        Remarks For I/ITSEC 2003, General/Flag Officer Panel, Orlando, 
        Florida, 2 December 2003.

        Remarks For Memorial Day--Lake View Cemetery, Cleveland, Ohio, 
        31 May 2004.

        Remarks For Northern Association of Boating Administrators 
        Niagara, New York, 13 June 2004.

        Remarks For Memorial Ceremony at Perry's Victory and 
        International Peace Memorial, Put-in-Bay, Ohio, 11 September 
        2004.

        Remarks For Veteran's Day Ceremony Lakewood, Ohio, 11 November 
        2004.

        Remarks For Pearl Harbor Day Ceremony, Cleveland, Ohio, 7 
        December 2004.

        Remarks For Norwich Native Son Award Ceremony, Norwich, CT, 22 
        June 2005.

        Remarks For International Armed Forces Council, Selfridge ANGE, 
        MI, 14 May 2005.

        Remarks For American Sail Training Association, Bay City, MI, 5 
        November 2005.

        Remarks For Blue Coats Society, Cleveland, OH, 9 November 2005.

        Remarks For Northwest Passage 50th Reunion, Reno, NV, 6 
        September 2007.

        Remarks For Pacific North West Coast Guard Ball, Seattle. WA, 8 
        September 2007.

        Keynote Address For Homeland Defense/Security Conference, 
        Colorado Springs, CO, 2 October 2007.

        Remarks For CACI annual conference, Tyson's Corner, VA, 15 
        October 2007.

        Remarks For DHS/USCG Executive Change Leadership Conference, 
        Washington, D.C., 19 October 2007.

        Remarks For Joint Force Maritime Component Commander (JFMCC) 
        Flag Course at the Naval War College, Newport, RI, 2 November 
        2007.

        Remarks For DHS Chief Administrative Officers (CAO) Forum. 
        Washington, D.C., 28 November 2007.

        Remarks For 2007 Pearl Harbor Memorial Ceremony, Baltimore, MD, 
        7 December 2007.

        Remarks For 20th Annual Surface Navy Association National 
        Symposium, Crystal City, VA, 17 January 2008.

        Remarks For Association Of Naval Services Officers (ANSO), 
        Norfolk, VA, 2 May 2008.

        Remarks For Surface Navy Association Monthly luncheon, 
        Arlington, VA, 14 May 2008.

        Remarks For National Naval Officers Association (NNOA), 
        Portsmouth, VA, 23 July 2008.

        Remarks For 2008 International Seapower Symposium, Venice, 
        Italy, 15 October 2008.

        Remarks For National Maritime Historical Society (NMHS) Annual 
        Awards Dinner, New York, NY, 24 October 2008.

        Remarks For Joint Forces Maritime Component Commander (JFMCC) 
        conference, Newport, RI, 30 October 2008.

        Remarks For Tidewater Chapter of the Surface Navy Association 
        (SNA) luncheon, Norfolk, VA, 21 January 2009.

        Remarks For 98th Annual Elizabeth City Area Chamber of Commerce 
        Dinner, Elizabeth City, NC, 2 February 2009.

        Remarks For Surface Navy Association's Maritime Security Forum 
        Communication Forum, New London, CT, 25 March 2009.

        Remarks For Institute for Defense and Government Advancement 
        (IDGA) Annual Maritime Homeland Security Summit, Jacksonville, 
        FL, 28 April 2009.

        Remarks For National Naval Officers Association (NNOA) 
        Tidewater Chapter Scholarship Banquet, Norfolk, VA, 9 May 2009.

        Remarks For Rotary Club of Camden County, Kingsland GA, 15 May 
        2009.

        Remarks For USS Intrepid Parade of Ships Reception (Fleet 
        Week), New York, NY, 20 May 2009.

        Remarks For the Board of the National Academy of Science (Naval 
        Studies Board), Norfolk, VA, 10 June 2009.

        Remarks For National Naval Officers Association (NNOA), 
        Houston, TX, 21 July 2009.

        Remarks For Long Beach Chapter of the Propeller Club, Long 
        Beach, CA, 20 October 2009.

        Remarks For 8th Annual Maritime Security Conference & Expo, 
        Long Beach, CA, 20 October 2009.

        Remarks for Joint Forces Staff College, Norfolk, VA, 4 November 
        2009.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        26 September 2006--``International Polar Year'' Joint Hearing--
        Senate Committee on Foreign Relations and Senate Committee on 
        Commerce, Science, and Transportation.

        26 February 2008--``Coast Guard FY 09 Budget'' House 
        Subcommittee on Coast Guard and Maritime Transportation.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I joined the Coast Guard with a desire to be a mariner and ship's 
captain, carrying out Coast Guard operations. In 1999, after many years 
at sea, I became the Chief of Coast Guard Congressional Affairs and 
gained insight on the working functions of the executive and 
legislative branches. It was my responsibility to articulate the fiscal 
and policy needs of our Service, as well as the impact of our budget to 
Congress. While I held this office (1999-2002), economic conditions led 
to successively lower budgets, requiring tough decisions on the 
allocation of resources while the Coast Guard was suffering from 
obsolete and worn-out operational assets and deteriorating shore 
infrastructure. Coast Guard leadership was required to focus on the 
fundamental services provided by versatile and adaptable ships, boats, 
and aircraft with the ability to respond to the range of our mandated 
day-to-day missions, while remaining prepared for uncertain events. 
Today, we face similar challenges. I have taken aggressive steps as the 
Atlantic Area Commander to allocate resources based on sound risk 
assessment by comparing demands and capability and making adjustments 
based on expected mission performance every quarter.
    Today, I feel even greater dedication to the Coast Guard and our 
Country than I felt on the day I was commissioned. Service is more than 
a job--it is a vocation that obligates us to responsible conduct, 
accountability, and commitment to the Coast Guard's core values of 
Honor, Respect, and Devotion to Duty. We are inspired to serve by pure 
and patriotic motives, the rule of law, and have sworn to support and 
defend the Constitution.
    The breadth of operational and leadership experience gained during 
my career has provided me with extremely useful insight into the 
workings of our government and the most meaningful, efficient, and 
effective ways to serve the American people. These skills and 
experiences, combined with my passion and vision, have prepared me to 
lead the U.S. Coast Guard as Commandant at this critical time in our 
Service's history.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    You will find no one more passionate about Coast Guard service, and 
my passion is guided by practical experience. To best lead the Coast 
Guard, I will call upon my experiences at sea as a Commanding Officer 
of four cutters; as a District Commander on the Northern Border, 
working with interagency and international partners; as the Atlantic 
Area Commander, overseeing over two-thirds of all Coast Guard 
operations; and as Chief of Congressional Affairs and Chief of Staff of 
the Coast Guard, managing all aspects of the Service's legislative, 
policy, and budgetary programs.
    The Coast Guard must focus on our 11 principal missions, finding 
efficiencies and managing risk in operational areas. As a member of the 
Coast Guard Leadership Council, I have provided detailed operational 
input to reduce costs in our FY 11-16 budget development. The current 
fiscal environment is an opportunity for the Coast Guard to refocus on 
its value to our Country and our Department. We are the world's best 
Coast Guard, providing unique services to our Nation.
    I am ready to make the tough decisions that will keep our Service 
focused on its maritime, military, and multi-mission capabilities. To 
ensure that the Coast Guard's management and accounting controls are 
transparent, understandable, and auditable, I will make a clean CFO 
Audit one of my top strategic goals, while ensuring that the 
acquisition, contracting, and financial management expertise required 
to sustain this effort endures well after I turn over the service to a 
new leader.
    I will also leverage force multipliers such as technology, 
modeling, and simulation to ensure every resource entrusted to us by 
the public provides the greatest benefit, and make finding and 
eliminating any unnecessary waste or redundancy a high priority. I will 
partner with agencies within D.S., in the Department of Defense and 
throughout the Federal Government to address issues of mutual concern 
so that our budget is leveraged to ensure success.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The challenges that we face are as varied as they are demanding. 
The American people and our partners expect clarity of purpose and 
excellence in our statutory missions. Operational excellence is not 
vague in its meaning; it requires focus, leadership, and the proper 
tools based on a foundation of professional experience and commitment 
to excellence.
    The top three challenges include:

        1. Balancing our missions

        2. Emphasizing the quality of life of our work force

        3. Working within the resource constraints and current 
        capabilities inherent to our service

    I consider balancing our mission sets, based on operational risk, 
my biggest challenge. There are wide-ranging expectations of our 
service--from the fisherman off shore whose boat is sinking, to the 
buoy tender ensuring the Maritime Transportation System is well 
maintained.
    I am committed to providing the best quality of life and 
opportunity to our work force. The men and women of the Coast Guard are 
our greatest asset. These young people are called to duty to serve 
others at their own peril. Core mission excellence depends on our 
people; we must commit to their health and well-being. We must uphold a 
standard of ``people first'' that is inclusive of our entire workforce 
of active, reserve, and civilian members. This approach is coupled with 
the best possible use of our 30,000 person Auxiliary, whose volunteer 
motivation inspires me daily.
    I am dedicated to creating and sustaining a climate that supports 
racial, cultural, gender, and ethnic diversity throughout the Coast 
Guard. As an active member of both the National Naval Officers 
Association and the Association of Naval Service Officers (the African-
American and Hispanic affinity organizations), I hear first-hand from 
members of both organizations about the need to enhance our efforts to 
promote diversity. In response, I have developed a detailed diversity 
action plan to foster the best possible workplace environment for all 
members of our Coast Guard family.
    The Coast Guard has finite resources. I will demand that my 
operational commanders maintain, allocate, and deploy their resources 
in a responsible manner. I am committed to developing a culture of 
living within our means. As a service, we must provide the best 
possible value to the American public and the maritime community, with 
emphasis on excellence, balance, and partnerships.
    While the challenges we face are significant, I know our service is 
ready and able to overcome them.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Please see my nominee PFDR.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I served as the Chief of Staff, U.S. Coast Guard from 2006-2008. In 
that capacity, I supervised Coast Guard Headquarters staff who 
advocated for Coast Guard legislative, appropriations, and policy 
agendas with Congress and government stakeholders.
    I served as the Chief, Office of Congressional Affairs for the 
Coast Guard 1999-2002. In that capacity, I was the Commandant's direct 
representative for advocating Coast Guard legislative, appropriations, 
and policy agendas with Congress and government stakeholders.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will obtain advice from a Coast Guard ethics official and follow 
that advice.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain:No--Not Applicable.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No--Not Applicable.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No--Not Applicable.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No--Not Applicable.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No--Not Applicable.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I have nothing else to add at this time.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
               resume of vice admiral robert j. papp, jr.
Objective
    Commandant, United States Coast Guard
Summary
    Over 34 years of active military service and experience in Coast 
Guard operations, budgetary and policy development, personnel and 
resource management, and congressional and maritime partnership with a 
proven track record of achieving the highest levels of productivity and 
efficiency. An experienced leader and program manager with exceptional 
organizational, financial, communications, and people skills.
Family
    Married 33 years to Linda Kapral Papp formerly of East Lyme, CT, 
and a retired educator. Three daughters: Lindsay (Papp) Sher, MD, 
Georgetown University Hospital; Caitlin Papp, a Fairfax County teacher; 
Jillian Papp, employed in the Office of the Inspector General, DHS.
Work History
    2008 to Present, Commander, Coast Guard Atlantic Area, Portsmouth, 
VA

        Responsible for roughly 2/3 of the Coast Guard's operations, 
        people, and resources. Operational commander for all Coast 
        Guard missions within the eastern half of the world, from the 
        Rocky Mountains to the Arabian Gulf, spanning an area of 
        responsibility that includes five Coast Guard Districts, 42 
        states with over 14 million square miles. Leads over 51,000 
        military and civilian employees and Auxiliarists.

    2006 to 2008, Chief of Staff of the Coast Guard, Coast Guard, 
Headquarters, Washington, D.C.

        Led, managed, supervised, and served as commanding officer for 
        all of Coast Guard Headquarters and its units for 2 years. 
        Supervised the performance of all Assistant Commandants and 
        oversaw all management (fiscal, policy, and personnel) 
        functions for the entire Coast Guard. Provided daily oversight 
        of resource issues, close-out of FY06 appropriation, 
        Congressional Stage and execution of FY07 and FY08 budgets, and 
        submission of FY09 budget. Served as witness for FY09 budget 
        hearing before CG&MT subcommittee. Duties now being performed 
        by the Vice Commandant after Modernization changes.

    2004 to 2006, Commander, Ninth Coast Guard District, Cleveland, OH.

        Operational commander over a region spanning 6,500 miles of 
        shoreline and 1,500 miles of international border with Canada 
        providing search and rescue, marine safety and environmental 
        protection, maritime law enforcement, aids to navigation and 
        icebreaking services.

        Designated by the Secretary of the Department of Homeland 
        Security to serve three times as a Federal Coordinator: The 
        Iraqi elections in Dearborn, MI; Major league baseball's 2005 
        All Star Game held in Detroit, MI; and Super Bowl XL held in 
        Detroit, MI.

    2002 to 2004, Director of Reserve, Training, and Leadership and 
Diversity Staff Coast Guard Headquarters, Washington, D.C.

        Served as Director of the Coast Guard Reserve and a member of 
        the Reserve Forces Policy Board, charged with developing 
        policies to recruit, train, allocate, and support over 8,000 
        Coast Guard Reservists. Supervised Leadership and Diversity 
        Staff in developing training and policy direction for the 
        Commandant.

    1999 to 2002, Chief of Congressional Affairs and, Deputy Chief of 
Staff of the Coast Guard, Washington, D.C.

        Final staff assignments before making Flag rank.

    Previous Assignments Afloat

        Fourteen years of sea duty in the Bering Sea, Gulf of Alaska, 
        Pacific, Atlantic, Caribbean, and Gulf of Mexico, including 
        service aboard six Coast Guard Cutters and commanding the Coast 
        Guard Cutters RED BEECH, PAPAW, FORWARD, and the Coast Guard's 
        training barque, ``America's Tall Ship'' EAGLE, visiting 16 
        foreign countries as a goodwill Ambassador.

        Served as the task unit commander of Coast Guard cutters, 
        patrol boats, and aircraft during Operation ABLE MANNER off the 
        coast of Haiti in 1994, enforcing United Nations sanctions. 
        Additionally, the task unit augmented U.S. Naval Forces during 
        Operation UPHOLD DEMOCRACY, the mission to restore President 
        Aristide to power.

    Previous Assignments Ashore:

        Commandant of Cadets staff at the U.S. Coast Guard Academy (New 
        London, CT).

        Aids to Navigation staff in the Third Coast Guard District (New 
        York, NY).

        Chief of the Capabilities Branch in the Defense Operations 
        Division (Washington, D.C.).

        Chief of the Fleet Development Team (Program manager for the 
        buoy tender fleet acquisition--Washington, D.C.).

        Director of the Leadership Development Center (New London, CT).

        Chief of the Coast Guard's Office of Congressional Affairs 
        (Washington, D.C.).

        Deputy Chief of Staff of the Coast Guard (Washington, D.C.).
Education
        B.S. Management, U.S. Coast Guard Academy, 1975.

        M.A. Strategic Studies, U.S. Naval War College, 1990.

        M. S. Management, Salve Regina College, 1990.
Awards and Honors
        Military awards include the Coast Guard Distinguished Service 
        Medal, Legion of Merit (four awards), Meritorious Service Medal 
        (two awards), Coast Guard Commendation Medal (three awards), 
        Coast Guard Achievement Medal, and Commandant's Letter of 
        Commendation Ribbon.

        Inducted into the Reserve Officers Association Minuteman Hall 
        of Fame in recognition of dedicated service to the Nation in 
        support of the U.S. Coast Guard Reserve.

        Presented the Distinguished Public Service Award by the 
        National Maritime Historical Society in 1998 for service as the 
        Commanding Officer of the Coast Guard Cutter EAGLE.

        Presented with the ``2005 Native Son Award'' by his home town 
        of Norwich, Connecticut.

        13th Gold Ancient Mariner of the Coast Guard, an honorary 
        position held by an officer, with the earliest date of 
        qualification as a Cutterman and over 10 years of cumulative 
        sea duty. Charged with keeping a close watch to ensure sea-
        service traditions are continued and the time-honored 
        reputation of the Coast Guard is maintained.
Affiliations
        U.S. Coast Guard Academy Alumni Association

        U.S. Naval Institute

        National Maritime Historic Society

        New York Yacht Club

        Reserve Officers Association

        Military Officers Association of America

        Association of Naval Service Officers

        National Naval Officers Association

        Foundation for Coast Guard History

        Surface Navy Association
Security Clearance
        Top Secret/SCI (updated August 2008)

    Senator Cantwell. Thank you, Vice Admiral.
    Let us start with the Deepwater Program--and we appreciate 
your wife being here and your fellow coworkers who have been so 
supportive of your career. One of the major issues with the 
Coast Guard and the Deepwater Acquisition Program was the fact 
that the Coast Guard exempted them from the good governance 
process outlined in the Coast Guard's own Major Systems 
Acquisition Manual.
    Will you commit that, if confirmed, the acquisitions that 
happen under your tenure as Commandant will follow the Coast 
Guard's Major Systems Acquisition Manual?
    Admiral Papp. Yes, ma'am. In fact, we are going back under 
the MSAM, the Major Systems Acquisition Manual. We are going 
back and correcting some of the shortfalls we have had, 
particularly in the fast response cutter. And our next major 
project being the Offshore Patrol Cutter, the OPC, we are 
taking strict compliance with that, and any new projects we 
take on will be in strict compliance with the MSAM.
    Senator Cantwell. If confirmed as Commandant, will you 
commit to embracing and enforcing the acquisition principles in 
reform legislation S. 1194 that is passed out of this 
committee?
    Admiral Papp. Yes, ma'am. And in fact, we appreciate your 
stewardship and your constant oversight. I think, oftentimes, 
we have well-intentioned people within the Coast Guard, but I, 
in particular, having served up here, understand the need for 
constant oversight and sort of, from time to time, holding our 
feet to the fire. So we appreciate your oversight in this 
matter, and we appreciate the legislation that is going 
forward.
    Senator Cantwell. What steps will you take as Commandant to 
make sure that the cost estimates for the future offshore 
patrol cutter acquisition are reasonable, accurate, and 
transparent?
    Admiral Papp. Madam Chair, I go back to OMB Circular A-123, 
and in that, it says one of the most important aspects of 
acquisition oversight is a commitment from leadership and clear 
and strong ethical leadership. I am committed to giving that 
leadership, and I have taken a personal interest in the 
offshore patrol cutter, having a chance to review the 
operational requirements that we are going through right now to 
make sure that is a ship that, first of all, will be designed 
and built according with the MSAM, that it will be affordable--
nothing more than we need, but nothing less than we need--and 
that we will work and have fair and open competition to make 
sure that we get the best price for it.
    Senator Cantwell. You mentioned the National Security 
Cutter. Will you seek outside expertise to validate that the 
Coast Guard is getting a fair price for these ships?
    Admiral Papp. I think that that is a critical part of 
everything that we do is get an outside analysis of any of our 
costs. I am tremendously concerned about the cost growth that 
we have experienced, but we have taken great strides right now 
with we are currently under negotiations with Northrop Grumman 
for Hull Number 4 on a fixed-price contract. And I think as 
long as we have a constant funding stream and can depend upon 
predictable funding in the out-years, we should be able to keep 
those costs down.
    Senator Cantwell. Funding was never the problem. In fact, 
the fact was that we had a blank check given to the Coast Guard 
and, as you said, the MSAM manual thrown out the door.
    So just one more question, and then I will turn it over to 
my colleagues. I am sure they have questions as well. The issue 
of a Lead System Integrator. Are you committed to completely 
end the use of private sector lead system integrators for the 
Coast Guard acquisition?
    Admiral Papp. Madam Chair, absolutely. In fact, we are 
almost extracted from using outside sources for the LSI right 
now. It has been a very rigorous and challenging process for us 
to get the Coast Guard in a position where we can take over as 
lead system integrator for all our projects. And as soon as we 
have the contractual arrangements that we have with Integrated 
Deepwater Systems expire, within about a year or so, I believe, 
we will have taken that on completely.
    Senator Cantwell. Thank you.
    Senator Snowe, do you have questions?
    Senator Snowe. Yes. Welcome, Admiral Papp.
    In reference to my earlier remarks regarding the budget and 
this reduction of $340 million over the Fiscal Year 2010, which 
is really the first reduction that the Coast Guard has 
experienced since 2001, since 9/11. So it does represent a 
significant reduction, given the multi-mission agency that the 
Coast Guard represents.
    So it will include a reduction of more than 1,100 in 
personnel. You will have fewer ships in 2011, fewer aircraft, 
fewer port security units, and obviously, fewer personnel. So, 
given all these reductions, how can you perform the same 
missions at the same level with the exceptional demands not 
only for fishery enforcement, search and rescue, humanitarian 
missions--as I mentioned earlier--homeland security issues. 
Certainly, across the spectrum, you have had numerous 
challenges.
    And obviously, the unforeseen, the unpredictable, as we saw 
with the earthquake in Haiti, for example. A few years ago, 
Hurricane Katrina. So how do you intend to proceed with this 
budgetary cut?
    Admiral Papp. Thank you, Senator.
    That has been my life for the last 2 years. When you are 
responsible for two-thirds of the Coast Guard's operations 
worldwide and you have finite resources, we have a process that 
we go through called a standard operational planning process 
that takes strategic guidance from headquarters and program 
goals, transmits them down to me as the operational commander. 
I take my finite resources and apply them across all the 
various claimants in the programs--for instance, to the five 
district commanders, to SOUTHCOM, and JDIF South--to distribute 
those ships.
    We also--from time to time, we have had basically a de 
facto decommissioning the last 2 years because my two major 
cutters that I have, GALLATIN and DALLAS, were in such bad 
shape we had to lay them up in the shipyard in Charleston, 
South Carolina, for nearly a year and a half. So I was down two 
ships, and our planning process allows us to adjust the 
remaining ships across the various mission sets, and the 
adaptability of those ships allows us to conduct the missions.
    We have experienced great budget growth over the last 8 
years. I am hopeful that the Fiscal Year 2011 budget is just a 
minor course correction that will allow us to get back on track 
in the out-years. And I think right now we have made a 
reasonable tradeoff in the budget to be able to continue to buy 
new ships, decommission some of the older ones that are getting 
very, very costly for us to maintain, and I think we will be 
able to continue to meet all our mission demands and goals this 
particular year.
    But what we will be faced with is we won't have that 
cushion. We won't have that bench strength to fall back on if 
there is some unplanned, unexpected event, or if, for some 
reason, we have major casualties on any of our ships or 
aircraft.
    Senator Snowe. Yes. So you really will be challenged beyond 
this year. Even with this reduction, you may well be, too, 
given the state of the fleet and very little latitude. There is 
not much room for fiscal maneuverability in your budget given 
the inordinate demands.
    Admiral Papp. Senator, what I think we can't afford to do 
is in this particular year, we are decommissioning 4 of our 
378-foot cutters. We have brought on the two National Security 
Cutters, and in fact, the Congress has paid for two more crews 
for two follow-on cutters. What we can't afford to do is 
decommission four and bring on two. If we decommission more 
next year and we only get one more national security cutter, 
obviously, we are going to dig ourselves into a deeper hole.
    Senator Snowe. Well, I think it brings me to the question 
of whether or not we should accelerate the acquisition process. 
Is it possible to do that?
    Admiral Papp. In the short term, no. But I think on a 
reasoned plan--I think part of the challenge that we have is 
having a 5-year plan where both the contractors and the Coast 
Guard can plan out and adjust all our acquisitions. The problem 
is if we have variations from year-to-year, we end up having to 
diminish or reduce the numbers of certain of our acquisition 
products, whether it is boats or ships, which then throws an 
unpredictability that the contractors will then raise prices 
because of uncertainty and increased overhead and the increase 
in prices for getting long lead items, et cetera.
    Senator Snowe. Have you examined the whole question of the 
acquisition process now that the Coast Guard is going to be 
assuming it, taking over from the lead systems integrator?
    Admiral Papp. Yes, ma'am. In fact, my involvement actually 
goes back about 4 years when Admiral Allen brought me in as the 
Chief of Staff, and we started experiencing these problems with 
Deepwater. I brought in then-Rear Admiral John Currier, who was 
Chief of Acquisitions at the time. We brought in the Defense 
Acquisition University, two professors. And in fact, John 
Higbee, one of them, is now at the department as the Director 
of Acquisition Program Management for DHS.
    I tasked Admiral Currier with coming up with a blueprint 
for acquisition reform. We are in about our fourth version of 
that right now, and in fact, Admiral Currier is now back as 
Vice Admiral Currier and as our Deputy Commandant for Mission 
Support and overseeing that program. And hopefully, pending 
confirmation here, I will make him part of the senior 
leadership team so we can continue that oversight of improving 
our acquisition program.
    Senator Snowe. The GAO testified before a House committee 
in April of last year, saying that 16 percent of the 
acquisition personnel were vacant within the Coast Guard. Is 
that still true?
    Admiral Papp. No, ma'am. We have reduced that down to about 
10 percent right now. We are challenged, just as every agency 
in the area is challenged, for acquisition professionals. They 
are in high demand. Yet we have done pretty good. We are up now 
within the Acquisition Directorate to 950 people with just 
around a 10 percent vacancy rate, both on the military and 
civilian side.
    And it is not just filling billets as well. We have 630 
people within there that have achieved at least Level 1 
acquisition certification. And I think our personnel are doing 
very good. There are a few personnel management tools that we 
are looking at that might help us out, like direct hiring, that 
would help us to continue that and other incentives. But we are 
doing very strong right now.
    Senator Snowe. Thank you.
    Senator Cantwell. Thank you.
    Senator Isakson, do you have questions?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Madam Chairman.
    Admiral, welcome. I appreciate your visit to my office the 
other day.
    Admiral Papp. Good morning, Senator.
    Senator Isakson. I have really two questions. One, the 
President's budget, when it was released in February, first, 
cut the corps by about--the Coast Guard by about $75 million, 
if I am not mistaken. And it portends it will move the St. 
Marys, New Orleans, San Francisco, New York MSST units to 
someplace else. Being that St. Marys is in Georgia, and I think 
it is a wonderful location for that type of a team, I am 
wondering what is your feeling about that recommendation, 
number one?
    And understanding also that they are deployable assets, is 
there some deployment reason for moving them? Or what would be 
the reason for moving them?
    Admiral Papp. Senator, what we are doing is in the Fiscal 
Year 2011 budget, we actually proposed to cut 5 of the 12 
MSSTs. One of those, of course, being in Kings Bay, Georgia. I 
have been down--we have had experience now for 6 years with the 
MSSTs. They were a unit that was not in the Coast Guard before 
September 11th, and they were created afterwards with a plan. 
But now we have had a chance for 6 years to see how they 
operate, see how we are using them, and we have determined that 
as part of our reassessment of our capabilities, reorganizing 
and perhaps regionalizing a little bit more, we can make use of 
the seven remaining ones a little bit better.
    The other thing we look at as well is what other resources 
are available? For instance, in Kings Bay, and I went down 
there personally last year to inspect the process for escorting 
the submarines in and out of the base. The MSST got there 
early, 6 years ago, and we were using them for security 
operations. We now, through the Navy, we have actually got the 
Navy to resource paying for Coast Guard patrol boats and Coast 
Guard people to create something called the Maritime Force 
Protection Unit.
    And that is something that didn't exist 6 years ago. It is 
very expensive, but the Navy is paying for it, and it gives us 
that added measure of security that makes the MSST in Kings Bay 
almost redundant at this point.
    And the fact of the matter is that MSST was used for 
deployments all over the country and was not always there. So 
in trying to balance out regionally and also look at what other 
resources do we have to take care of our responsibilities 
locally, that was an appropriate reduction at that location.
    Senator Isakson. So you will be sharing those--closing 
those units and sharing those assets with the seven remaining 
units. You are not moving those five units to create a new unit 
somewhere?
    Admiral Papp. That is correct. Yes, Senator.
    Senator Isakson. Second, and I mentioned this to you when 
we met before, but it is my understanding there has been a 
member of the House that has proposed legislation that would 
change the selection process for the Academy to one of a 
nomination process from Congress versus the current situation 
that you have. The Coast Guard people that I know--and one of 
my partners in business years ago was a Coast Guard man, and he 
called me on that issue. And they seem to be pretty 
universally--the alumni of the Academy--in opposition to that. 
I wonder if you had a position on that?
    Admiral Papp. I do, Senator. And thank you for giving me 
that question.
    I think that our cadet candidate process has worked well 
for well over 100 years. This is always awkward to come up here 
and say that we don't need Congressional appointments. But the 
fact of the matter is we have had a very competitive program 
that has brought good candidates into our Academy for many, 
many years with the absence of Congressional appointments, and 
also it is a very small place. We bring in usually about 300 
people a year.
    The reason this has become an issue and the reason that I 
am concerned about it as the potential Commandant is we have 
had difficulty moving the needle on increasing our diversity at 
the Coast Guard Academy. Unfortunately, we still remain 
predominantly white male. We have made great progress in women. 
We are up to about 30 percent women. But Hispanics, African 
Americans, Asians, and other ethnic categories we just haven't 
done that well.
    I think the House effort was a well-intentioned way of 
trying to come up with increasing diversity through using 
Congressional appointments. While I appreciate the interest, 
the oversight, and the suggestion, I think that by taking 
recruiting and getting out into communities that we have not 
necessarily been before, we could do better in terms of 
bringing in and increasing the diversity that we need.
    So we appreciate the support and the oversight. I think we 
need to do the work on our side to get out into those 
communities where we can get those diverse candidates so that 
we can drop down any barriers for entry to the Coast Guard 
Academy and increase the diversity of our service.
    Senator Isakson. Well, thank you for that answer.
    And just one final comment. I had the occasion 2 years ago 
to visit the Coast Guard unit at the Port of Savannah and 
actually fly out with them to the outer marker on a check of a 
cargo ship coming in that didn't have a known shipper manifest 
on it.
    And I don't think the public has as much appreciation as 
they should for the job the Coast Guard is doing at our most 
critical points, and that is the ports around the country, 
which would be a natural place for someone that wanted to do 
some harm to do it. I just wanted to tell you I was extremely 
impressed with the capability and the professionalism and the 
work that those men and women were putting in to protect the 
Port of Savannah, which I am sure is the same they do for 
Jacksonville and Charleston and New York. So I just wanted to 
compliment you on that.
    Admiral Papp. Thank you, Senator.
    Senator Isakson. Thank you.
    Senator Cantwell. Senator LeMieux?

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Madam Chair.
    Welcome here today, Vice Admiral. Good to see you again.
    Admiral Papp. Good to see you, Senator.
    Senator LeMieux. A couple of introductory remarks. First of 
all, as the State in the union besides Alaska with the longest 
coastline, we deeply appreciate the work that the Coast Guard 
does. With the State with the most boaters, we know the 
important work that you do. You are such an essential part of 
Florida. So thank you for the good work that the men and women 
of the Coast Guard do.
    Second, I want to commend the Coast Guard on the work that 
you did in Haiti. You were among the first there, and we had an 
opportunity, when the earthquake happened, to be in Miami and 
to work with your staff in making sure that those cutters got 
there as quickly as possible. And I know they did and continue 
to do extraordinary work. So thank you for that.
    For my questions, I want to focus on something that has 
already previously been discussed by Senator Snowe, and that is 
the cuts in the proposed budget. And specifically of the $350 
million cut, I want to speak about the cut to the 
counternarcotics effort. The administration's proposal achieves 
savings by cutting the amount of narcotics the Coast Guard will 
have as a goal for interception from 18.5 percent to 15 
percent.
    Now as you know, I am very interested in the work that you 
do and the work that you do out of JIATF South, out of Key 
West, in stopping the interdiction of narcotics, fighting the 
movement of narcotics into our country. So I want you to speak 
as to whether or not you feel you can continue to fulfill that 
specific mission with these cuts.
    Admiral Papp. Senator, yes. For this year, we can. As I 
said, in the Atlantic Area, we are going to see no reductions 
in ships on the Atlantic side. The Pacific Area side, we will 
be able to adjust because of the two National Security Cutters 
that will be operating out there, and I think for this next 
year, we have the resources to be able to keep our performance 
up in the counterdrug mission.
    I have been doing this for 2 years. I have been adjusting 
ships down there to try to achieve the results, and we will 
continue to do that. I have also--if confirmed, I also have a 
secondary role, a collateral duty, I would say, which is 
Director of the Interdiction Committee. And I have had a chance 
to meet with the Interdiction Committee and with Director 
Kerlikowske of ONDCP. I know that the standards for 
interdiction and the transit zone are constantly being looked 
at and adjusted.
    I haven't seen the final determinations on that, but at 
least at the last TIC meeting, we were intent on increase our 
interdictions each year. That becomes increasingly challenging 
because of the changing methods of the drug smugglers, but we 
are adapting our tactics at the same time. And there are ways 
even with fewer ships, through better intelligence and putting 
armed helicopters out there and other tactics, that we can keep 
our productivity up.
    Senator LeMieux. I am glad you mentioned helicopters. My 
next question to you was do you have all the tools you need to 
do this job? Do you need more armed helicopters? Do you need 
more resources, like night vision goggles? Tell us what you 
need to do the best job you can.
    Admiral Papp. We are doing very well on our helicopter 
program, and we also get support from the Navy. I talk in my 
goals about strengthening partnerships. One of our longest, 
most-enduring partnerships is with the United States Navy, and 
we put law enforcement teams both on their ships, and we also 
put tactical gunners in their helicopters. So they are a force 
multiplier for us.
    Right now, they are restricted to daytime use, but we are 
going to provide the training to the Navy so we can use them 
for nighttime use as well.
    We currently have the resources we need. Helicopter 
interdiction squadron down in Jacksonville is providing a good 
product. We generally have three to four of those helicopters 
deployed at any one time, and I would say we have the resources 
for that mission we need right now.
    Senator LeMieux. I just want to conclude this piece by 
commenting on the fact that we are all reading the newspapers 
about the violence in Mexico with the drug cartels. I recently 
had a trip to Colombia, and we have a wonderful partnership 
with the Colombian government trying to stop the movement of 
narcotics, specifically cocaine, out of Colombia up through 
Central America. And you all play a critical role in that, 
along with the Navy and our other law enforcement partners, DEA 
and others.
    And I want to mention to you something that I mentioned to 
Admiral Olson, General Petraeus and General Fraser, and that 
is--and I think we talked about this, but I want to say it for 
the benefit of the Committee--I have a growing concern about 
Venezuela. There are recent reports of Venezuela conspiring 
with Spanish extremists to kill President Uribe. A Spanish 
judge has put that allegation forward.
    We know that Hezbollah and Hamas are in Latin America. We 
know that Iran is trying to project its influence, and I am 
worried that it is not going to just be counternarcotics that 
are being trafficked through those routes. So I want to make 
the point to you and to this committee that we continue to 
focus on the problems that we are having in that region. And I 
think the work that you and the Coast Guard do is critical to 
that. Would you care to comment on that?
    Admiral Papp. Thank you, Senator, I would.
    I agree with you. I think our Colombian partners are really 
heroic in terms of what they are doing. In my capacity as the 
Atlantic Area commander and also the Commandant, Admiral Allen, 
we attend the International Sea Power Symposiums. We have 
worked with the Colombian CNO. The Coast Guard ends up being 
the de facto Navy for SOUTHCOM. SOUTHCOM, while they have the 
Fourth Fleet, doesn't often have many ships assigned to it. So 
we are the fleet for SOUTHCOM, working for JDIF South.
    And I think that the Coast Guard can play a more 
significant role in terms of providing stability, rule of law, 
an example for an area of the world that sometimes we forget 
about a little bit. I can recall pulling into Venezuela 
probably 10 years ago with my Coast Guard cutter, and at that 
time, they were our big partners and we were having problems 
with Colombia.
    So I think we need to sustain an effort in the Caribbean 
with Central and South America. And also another point you 
brought up in terms of the border. Constant work in the 
interdiction zone needs to be done because once those drugs get 
ashore in Mexico, they are going to come across our border at 
some point, and that is where all the violence is occurring.
    But if we clamp down on the violence on the border, which 
we probably should, they can expand out to the maritime as 
well. And we need a Coast Guard presence in the maritime, 
working with our Mexican partners, to make sure that we cutoff 
that avenue as well. Otherwise, they will just go out and 
around the border.
    Senator LeMieux. Thank you, Vice Admiral.
    And thank you Madam Chair.
    Senator Cantwell. Thank you.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair.
    Greetings, Vice Admiral.
    Admiral Papp. Good morning, Senator.
    Senator Klobuchar. Congratulations on your nomination. We 
are going to go on a little journey from the waters of Mexico 
and South America to the lakes of Minnesota.
    But before we get there, I did want to note that Senator 
LeMieux and I both went to Haiti and were, again, impressed--I 
want to reiterate what he said--with the work the Coast Guard 
did there. And we are also grateful for the work of the Coast 
Guard's Ninth District, which has jurisdiction over the Great 
Lakes and northern Minnesota lakes, and the Eighth District, 
which works to address our shipping needs on the Mississippi 
River and across southern Minnesota as well. So thank you for 
that work.
    So here we go. We have an issue that may not be on your 
radar screen, but I was shocked when I was in northern 
Minnesota this past summer and through the fall when I would go 
to our smaller towns up there, which are very tourism-based, 
how much they brought up the Coast Guard and not always in a 
positive way. And I think there may be a way to resolve this 
problem, but they are fearful. And let me explain why.
    First of all, as you know, our committee has been very 
focused on tourism. One out of eight Americans are employed in 
tourism in this country. We just passed the Tourism Act, which 
is going to help us to bring in foreign tourists, including 
some that come to northern Minnesota from Canada and elsewhere, 
and also going to help us to move the visas faster so that we 
can buildup our tourism market. We have lost a huge market 
share to other countries in the world, and so we want to change 
that.
    So let me just read this article for you that was in the 
St. Paul Pioneer Press, and I have another one from the Ely 
Timberjay that I will submit for the record.
    [The information referred to follows:]

         Pioneer Press, St. Paul, Minnesota, December 16, 2009

Strict Coast Guard License Rules Threaten Minnesota Outfitters, Fishing 
    Guides: Feds Dusting off 40-year-old Set of Strict Requirements

                           By Chris Niskanen

    As a canoe outfitter at the edge of the Boundary Waters Canoe Area 
Wilderness, Blayne Hall has seen his business ravaged by windstorms and 
challenged by wilderness lawsuits and regulations.
    His latest nemesis: the long arm of the U.S. Coast Guard.
    Hundreds of Minnesota fishing guides, outfitters and tour operators 
are facing expensive safety regulations enforced by the U.S. Coast 
Guard that include, among other things, random drug testing.
    The Coast Guard has notified Minnesota commercial outfitters and 
guides that unless they have a Federal ``Six Pack'' license, they no 
longer can operate their small boats on federally navigable waters, 
such as the Mississippi River, the St. Croix River or many lakes in 
northern Minnesota.
    It includes some waters in the BWCAW, where small operators such as 
Hall use motorboats to shuttle canoeists and where local guides show 
anglers where to catch fish.
    The Six Pack license requires commercial boat operators to pass a 
lengthy test on navigation and boat safety; have CPR certification; 
pass a physical and health examination; prove they have three to 12 
months of on-water boating experience; submit three personal 
references; and pass a drug test. They also must be 18 years or older.
    Boat operators and guides also are required to have a 
Transportation Worker Identification Credential, or TWIC, which 
requires a background check called a Federal ``security threat 
assessment'' to ensure operators aren't a threat to secure harbors.
    To Hall, the requirements sound not just absurd, but like a serious 
blow to his business.
    ``The Ely community is absolutely petrified by this,'' said Hall, 
owner of Hall and Williams Outfitters on Moose Lake and president of 
the Ely Area Tourism Board.
    ``I have high school kids who drive towboats up and down the lake 
all summer. Are they going to make them pee in a bottle?''
    The licenses and drug and physical testing cost about $600, but 
most applicants have to take a special course costing $700 to $1,000 to 
prepare for the Six Pack test.
    Dick ``Griz'' Grzywinski, of St. Paul, a well-known fishing guide, 
was ordered off local rivers last summer by the U.S. Coast Guard and 
told to get a Six Pack license.
    He signed up for the class this fall and studied a 350-page 
textbook but failed the test in November.
    ``I can't pass it. My living is shot,'' Grzywinski said Tuesday. 
``The test asks you questions like, `How many green lights are there on 
a mine sweeper?' I guess there are three.''
    A U.S. Coast Guard spokesman said the Six Pack license requirement, 
which applies to commercial boat operators with six or fewer 
passengers, has been on the books for 40 years but hasn't been widely 
enforced until now.
    The TWIC requirement became law last spring.
    U.S. Rep. Jim Oberstar, D-Minn., is chairman of the House 
Transportation and Infrastructure Committee, which oversees the Coast 
Guard.
    Oberstar spokesman John Schadl said the Congressman's staff has met 
with Coast Guard officials to devise a new, less stringent licensing 
requirement for small-boat operators.
    Schadl said the new license should be inexpensive and not require 
guides and boat operators to travel a long distance to get it.
    ``I believe the current proposal is being reviewed in the D.C. 
(Coast Guard) headquarters,'' Schadl said. ``They (the Coast Guard) 
have the ability to make these rules practical and workable.
    ``We're hoping something will be out soon. Certainly, we want this 
resolved by spring for the fishing season,'' he said.
    Coast Guard officials say the licensing requirement is to protect 
the public.
    ``The Coast Guard's primary goal is to ensure the safety and 
security of people using U.S. navigable waters,'' Lt. Dave French said 
in an e-mail. He is a spokesman for the Coast Guard's 9th district, 
based in Cleveland, which oversees northern Minnesota.
    French acknowledged that the Coast Guard is looking at less onerous 
licensing options for fishing guides and boat operators. ``We intend to 
work as quickly as possible on this,'' he said.
    The rules are being enforced on the Mississippi, St. Croix and 
Minnesota rivers, as well as the lakes connected to the Mississippi, 
such as Winnibigoshish. Other waters that are considered federally 
navigable include Lake of the Woods, Upper Red Lake, Lake Vermilion, 
Gull Lake, the Whitefish Chain and Lake Mille Lacs.
    Tom Neustrom, a fishing guide based in Grand Rapids, said he fears 
the Coast Guard will crack down on fishing guides this spring, giving 
little time for anyone to get a license.
    ``We'd be out of business,'' he said, adding that in 32 years, he 
has never heard of an accident involving a fishing guide in northern 
Minnesota.
    Hall held an emergency meeting of the Ely Outfitters Association on 
Tuesday to talk about the requirements. About 25 business owners, 
guides and outfitters showed up. Hall said he and others left the 
meeting worried that the Coast Guard's solution still might force some 
operators out of business.
    He said outfitters have been in contact with Oberstar's office.
    ``They make (the new proposal) sound like a lollipop, but the 
devil's in the detail,'' Hall said. He added that outfitters and their 
craft are either regulated or inspected by the U.S. Forest Service, 
Homeland Security, the Minnesota Department of Natural Resources and 
the county sheriff's office.
    ``Now we're going to have the U.S. Coast Guard and guys with 
machine guns on our lakes?'' Hall said. ``This just sends shudders 
through our community.''
                                 ______
                                 

                    Ely Timberjay, November 3, 2009

         Coast Guard to Step up Enforcement on Many Area Lakes

                         By Marshall Helmberger

    Coast Guard officials in Duluth say they're planning a major 
enforcement effort on federally-navigable waters throughout the border 
country, and the fallout to local outfitters, fishing guides and others 
who carry passengers for hire could be significant.
    Word of the Coast Guard's push was made official this week during a 
lightly-attended meeting in Tower. Mike Lebsack, commander of the Coast 
Guard's Marine Safety Unit in Duluth told a small group of area fishing 
guides that they will be subject to Federal licensing and other 
requirements if they operate on federally-navigable waters. That 
designation includes all of the big border lakes, such as Basswood, 
Crane, La Croix, and Namakan, as well as Lake Vermilion and Moose Lake, 
near Ely.
    According to Lebsack, the enforcement push is part of an effort to 
ensure the safety of visitors to the area. ``I think we all want the 
same things for our visitors,'' said Lebsack. ``We want them to have a 
safe and memorable trip to northern Minnesota.''
    The planned Coast Guard initiative isn't the result of any new 
laws. ``Most of these regulations have been on the books since 1968,'' 
said Lebsack, who noted it was a lack of resources that prevented 
effective enforcement in the past. But in the wake of some prominent 
fatal accidents in other parts of the country in recent years, Congress 
appropriated more funding for enforcement, said Lebsack. ``This is 
happening all across the country. It's got high level support within 
the Coast Guard and it's not going away,'' he added.
    While few would dispute the stated goal of the Coast Guard's 
efforts, there is already plenty of criticism of their approach. ``I'd 
say fifty percent of the guides on Vermilion are totally against it,'' 
said Cliff Wagenbach, of Cliff's Guide Service, who works mostly on 
Lake Vermilion. ``I think some others are for it, because they think it 
will eliminate some of the competition.''
    Some guides are already worried they could be among those operators 
forced out of business. Terry Sjoberg, who operates Ace Guide Service, 
and gets around with the assistance of a cane, worries whether he could 
pass the required physical or whether he's mobile enough for the 
mandatory CPR training.
    Those requirements are just two on a laundry list of steps that 
operators will need to take to obtain a Federal license and 
identification card. All boat operators will now have to pass a 
training course, a background check, and a drug screening. They also 
must be enrolled in a random drug and alcohol testing program.
    Completing the list won't come cheaply. A Coast Guard document 
indicates the required training course will cost $750, while the 
obtaining a federally-issued identification card runs $132.50. In 
addition, operators will also need to pay for drug testing, physicals, 
and CPR and first aid training. All together, it's likely to run $1,200 
to $1,300 said Sjoberg, The license is good for 5 years, which reduces 
the annual cost, but Sjoberg says it's enough expense and hassle that 
some of the part-time guides may just give it up.
    Wagenbach agrees. ``It will eliminate a lot of guides, or make 
crooks out them,'' he said.
Towboats a special challenge
    If fishing guides are concerned, the outlook for towboat operators 
could be even more problematic, since most rely heavily on high school 
and college students to operate their boats during the three-month 
summer season. Blayne Hall, of Williams and Hall Outfitters on Moose 
Lake, said the impact of requiring each of those students to obtain 
Federal licensure and be enrolled in drug testing programs would be 
enormous. ``If this does happen, it would be the most ridiculous 
affront to the people of the area,'' he said. ``I can not imagine these 
guys really wanting to fight this battle.''
    Hall questions whether the Coast Guard understands how burdensome 
the new regulations could be. ``They want a college kid who runs a boat 
up and down the lake with canoes to have the same licensure as someone 
captaining a fishing trawler in the Gulf of Mexico. It would sure be a 
huge economic impact to the area.'' Hall notes that the Coast Guard has 
made similar enforcement pushes in the past, only to suspend their 
plans in the face of a host of political and logistic pitfalls.
    Ely Mayor Roger Skraba said he doesn't think that's the case this 
time. ``The Coast Guard is not going to back down,'' he said. ``I want 
my constitutents to understand that this is for real.'' Skraba said 
he's asked the Coast Guard to hold a second informational meeting in 
the next few weeks, in Ely, to get the word out to more affected 
business owners.
    Skraba said operators will either have to adapt to the new 
regulations or fight for changes. ``Maybe now we need to get Sen. 
Klobuchar and Franken and Congressman Oberstar in a room and get some 
changes made. ``We want the public to know it's going to be safe, but 
it's unrealistic to impose standards designed for ocean travel,'' he 
said.
    Lebsack said the Coast Guard isn't trying to put people out of 
business, and he said he plans to work with operators to help them 
comply with the laws. ``There is some room in the rules for relief for 
some special situations,'' said Lebsack. ``I understand it's difficult, 
there's just no way around it,'' he said.
    Both Lebsack and Skraba said they will work toward establishing the 
required training courses at Vermilion Community College to make it 
more accessible to operators in the Ely and Tower area.
Penalties could be severe
    While the expense and hassle of compliance could prompt some guides 
or other boat operators to try to skirt the rules, that could prove 
very costly, according to Lebsack. ``If an operator is found operating 
without a license, or outside the scope of their license, the fine 
could be as much $27,500. That's the maximum,'' Lebsack said. Failure 
to be enrolled in a required drug testing program is subject to fines 
up to $5,500.
    If such fines are sufficient, the Coast Guard has investigative 
powers that could thwart any efforts to get around the rules. For 
example, the Coast Guard can obtain an individual's tax records to see 
if they reported income from guiding. It's such powers that concern 
guides like Sjoberg, who worries he could be investigated if he can't 
pass a physical to get licensed. ``Will they be looking through my tax 
returns, or harassing me on the lake, to see if I'm still guiding?'' he 
asked.
    Wagenbach agreed. ``It's going to be a real pain.''

    Senator Klobuchar. But this one says, ``As a canoe 
outfitter at the edge of the Boundary Waters Canoe Area 
Wilderness, Blaine Hall has seen his business ravaged by 
windstorms and challenged by wilderness lawsuits and 
regulations.'' His latest nemesis--the long arm of the U.S. 
Coast Guard. Hundreds of Minnesota fishing guides, outfitters, 
and tour operators are facing expensive safety regulations 
enforced by the Coast Guard that include, among other things, 
drug testing.
    ``The Coast Guard has notified Minnesota commercial 
outfitters and guides that unless they have a Federal six-pack 
license, they can no longer operate their small boats on 
federally navigable waters, such as the Mississippi River, the 
Saint quarry, or many lakes, if not all lakes, in northern 
Minnesota.''
    ``It includes some waters in the BWCA''--and to give you a 
sense of what these guys are doing--``where small operators use 
motorboats to shuttle canoeists and where local guides show 
anglers where to catch fish.''
    And the problem is that these guys don't make a lot of 
money. Their profit margin is incredibly small, and the cost of 
these licenses can be something like $1,500 when you add in all 
the tests and things that they would need annually.
    I support the Coast Guard on its mission to ensure safe 
vessel operations and homeland security, but these license 
burdens, which, by the way, from what I understand from 
Congressman Oberstar--we have been working this together--these 
laws have been in effect since the late 1960s, but there has 
been this newfound zeal to enforce them on these small lakes in 
northern Minnesota. I just don't see the relationship with the 
security threats and what we are doing here.
    So I understand a working group of Coast Guard officials 
from headquarters and regional offices across the Nation have 
been working to find a solution that minimizes the immediate 
impact and burden of these licensing requirements. And in fact, 
today, officials from Coast Guard Region 9 in Cleveland are in 
St. Paul to discuss this matter with my staff and with the 
commissioner of the Minnesota Department of Natural Resources.
    So could you give an update? Are you aware of this issue 
and maybe some sensibility here as we move forward in setting 
priorities? I don't know if you have seen Babe the Blue Ox and 
the Paul Bunyan statues in Bemidji, but it probably shouldn't 
be the targeted area for security issues. Vice Admiral Papp?
    Admiral Papp. Senator, that is a great question. And 
actually, it is dead square in my radar screen, and I think the 
key word you used was ``sensibility.'' I was the Ninth District 
Commander back 4 years ago. I have been to International Falls. 
I have canoed and boated on the Boundary Waters, and I have 
visited the lakes. I have seen the Babe the Blue Ox and Paul 
Bunyan.
    Senator Klobuchar. OK. Well, I never thought you would 
answer this this way. So I am impressed.
    [Laughter.]
    Admiral Papp. And I have actually posed by the giant--I 
think it is a pike that is out in front of one of the places up 
there.
    Senator Klobuchar. Yes.
    Admiral Papp. Look, when the Maritime Transportation 
Security Act was passed, it put requirements out there. And 
what is that? Perhaps 5 or 6 years old right now. We were in 
the aftermath of 9/11. And I think when laws are written, 
sometimes there are unintended consequences that come up. And I 
don't think when the law was written we ever intended to take 
mom-and-pop canoe guides and subject them to transportation 
worker identification cards and other things.
    And as I have told the Ninth District Commander, Admiral 
Neffenger, who is the one that is looking into this for me, I 
said if you have got enough resources to be able to start going 
out into the Boundary Waters, perhaps I need to redistribute 
some of your resources to some of our other challenging 
missions.
    Senator Klobuchar. That is a good answer.
    Admiral Papp. So, on the other hand, when a consumer, when 
a vacationer, when a tourist goes out and they pay their money 
to someone that is going to take them out on the water, there 
is a safety concern as well, and we want to make sure that 
person is qualified. So where is the balance between making 
sure that we have safe operators and security?
    I think there is little risk for security out there, from 
what I have seen. Yet we do want to have safety. So there is 
probably some degree of licensing, some degree of training that 
the operators should rightly go through. We need to find a 
reasonable balance in that, and that is what we have our people 
working on with the DNR out there today.
    Senator Klobuchar. OK. Well, I really appreciate that 
because you just can imagine with the economic times as 
difficult as they are, these guys have been up against it 
anyway. Tourism is down nationally, and this is just one more 
thing they can't afford.
    So if there is any way that we can work this out to lessen 
this burden, significantly lessen this burden, it would be very 
helpful. So I appreciate your pledge to do that.
    Thank you.
    Admiral Papp. Yes, Senator. We will do that.
    Senator Cantwell. Just a few more questions, Vice Admiral.
    In recent years, we have seen a significant environmental 
and economic damage from major oil spills in various parts of 
the country--California, Louisiana, Texas. Are you committed to 
maintaining the Coast Guard's capacity for oil spill response, 
and are you committed to finalizing the unfinished rulemaking 
for things like non-tank vessel response plans?
    Admiral Papp. Senator, I am. In fact, rulemaking in general 
is something that I want to give a lot of attention to. I 
recognize fully that we have a significant backlog of 
rulemaking, whether it is ballast water or any of the other 
things that are currently out there that we need to push 
forward on, and we will take a renewed effort on that.
    In terms of capacity for oil spills, yes, we do. But that 
also we have to talk once again about we don't have enough 
resources to do everything. We need to leverage partnerships. 
And it has been my view that over the past at least decade or 
so, the oil response companies that are out there that are in 
this to make money and to be available do a pretty darn good 
job. And it is almost to the point now where the Coast Guard 
can sit back a little bit and supervise and organize and hold 
people accountable.
    But the OSROs that are out there are just doing a fine job. 
We just had an oil spill recently in the Eighth District in 
Port Arthur, Texas, and they did a magnificent job in cleaning 
up under Coast Guard supervision.
    Senator Cantwell. So where is the rulemaking on non-tank 
vessel plans? Where would you put that?
    Admiral Papp. I don't have an answer for you, Senator. I 
will certainly look into it, and we can provide an answer for 
it. I have been away from headquarters for a couple of years 
now, not involved in the rulemaking process.
    I am certainly going to give that my attention, and I can 
report back to you in terms of what the priorities are as we 
see it and as we work with the department to push those 
forward.
    Senator Cantwell. I think that that would be very helpful. 
I think from past Commandants' experience, what happens is we 
end up having an oil spill. We end up having a hearing about 
it. Then we find out that there is this long list of rulemaking 
that hasn't been done, and obviously, there is a prioritization 
there.
    And I think at least the Subcommittee would like to 
understand what the priorities are on various rulemakings so 
that we can give comment to that level of importance and get a 
timeframe, as opposed to when an accident happens just seeing 
this long list and saying there is a backlog. Does that sound 
reasonable?
    Admiral Papp. Yes, Senator. That is completely reasonable. 
Yes, ma'am.
    Senator Cantwell. Thank you.
    And can you commit to me and others that you will work with 
this committee on the future of the Coast Guard's polar 
icebreaker fleet and the best way to determine how to move 
forward on recapitalization of that fleet?
    Admiral Papp. Absolutely, Madam Chair. This is going to be 
a very significant challenge, particularly during the time 
proposed for me to be Commandant.
    I served in Alaska my first tour. I understand the 
challenges of the Arctic. And taking my lessons from working up 
on the Great Lakes, which were frozen over most of the time, 
whether the water is hard or soft, Title XIV gives the Coast 
Guard responsibilities for carrying out the full range of our 
missions. And that does not go away up in the Arctic, and we 
know that there is more open water up there, and we need to be 
able to determine the resources we are going to need to be able 
to carry out those missions up there.
    Senator Cantwell. And would you say that the conditions are 
continuing to change in the Arctic, and there is a need for a 
larger Coast Guard presence in the region?
    Admiral Papp. I am not a scientist, and I really can't 
comment on global warming. All I know is there is much more 
open water up there right now. We are seeing increased traffic, 
whether it is sailors going up there recreationally, cruise 
ships starting to venture up there, and I suspect in the 
future, we will see commercial traffic trying to take shorter 
routes through the Arctic. Traffic will increase, and we have 
virtually no presence right now unless we redeploy assets from 
further down in Alaska or further down on the west coast.
    So it has got my interest. We need to give it attention, 
and I will work with the Committee. Yes, ma?am.
    Senator Cantwell. Thank you.
    Senator Snowe, do you have any follow-up questions?
    Senator Snowe. Yes, thank you, Madam Chair.
    Admiral Papp, regarding port security and homeland 
security, I noticed as well in the budget that there will be an 
elimination of 5 of the 13 teams on Maritime Safety and 
Security Teams. And obviously, one of which would affect the 
New Jersey/New York port, which obviously is the highest volume 
port on the eastern seaboard.
    Won't this leave a gap in port security? And I know there 
are other options involved in monitoring our ports and 
providing for port security with the vessel monitoring systems 
onboard, targeted onboard boardings, and so forth. But 
nevertheless, that is a significant reduction in those teams.
    How do you plan to fill that gap in these ports, and does 
it leave a vulnerability in that regard?
    Admiral Papp. Senator, we would never leave a 
vulnerability, and I never like to lose any Coast Guard people. 
These were hard-earned gains over the last 8 years increasing 
the size of the Coast Guard. So I am reluctant to lose anybody.
    However, working within the constraints of the budget and 
taking a look at what we needed to do, we have now had 6 years 
of operating with these Maritime Safety and Security Teams. We 
have 12 of them, and they were established right after 9/11 to 
fill a gap because, quite frankly, during the 1990s, most of 
our Coast Guard stations had been reduced to the bare minimum 
in terms of personnel.
    If you look at New York City, in particular New York 
Harbor, prior to 9/11, Station New York--taking care of one of 
the most important ports of our country--had been reduced down 
to about 45 people and 6 boats. Today, 8 years later, Station 
New York has 90 people and 12 boats, very substantial, brand-
new boats and an awful lot of training.
    So while that MSST in New York provided a gap filler in the 
short term post-9/11, we have been able to substantially 
buildup our Coast Guard Station New York, which is there every 
day. MSST New York can be deployed and sometimes is not there, 
but Station New York is there every day.
    Plus, the other thing we look at is, as I said in my 
opening statement, strengthening partnerships. Commissioner Ray 
Kelly has substantial assets that he can rely upon for 
protecting New York City and in the harbor as well. The Marine 
Police of New York City are probably some of the best in this 
country.
    So when you look at a balance, and the Coast Guard is 
looking at trying to balance where do we need our resources the 
most, where can we be supplemented by Federal, State, or local, 
New York Harbor is an obvious place. And as we reorganize these 
teams potentially in the future, we will put them in places 
where they can deploy and help out for surge.
    Senator Snowe. So the bottom line is, is that with the 
increased number of Coast Guard personnel at the various 
stations and also the adjunct of local police teams or whatever 
the local communities such as New York City have provided since 
9/11 is sufficient to compensate for the loss of these teams?
    Admiral Papp. Yes, Senator.
    Senator Snowe. You think it is sufficient?
    Admiral Papp. It is.
    Senator Snowe. OK. On small vessel security, that is one of 
the issues that I raised last summer in an oversight hearing 
with Admiral Allen. And obviously, it is one of our greatest 
challenges because you have to balance out cooperation and 
recreational boaters with maritime security, and the number of 
small vessels that obviously are out there and that you have to 
monitor and track in any way for detecting vulnerabilities.
    He did indicate that it was the greatest vulnerability that 
the Coast Guard has to contend with in our ports today. Would 
you agree with that assessment, and how best would you think we 
should address that? And are we addressing it sufficiently?
    Admiral Papp. I agree, Senator. And I had perhaps a 
microcosm of that. I dealt with, as the Ninth District 
Commander up on the Great Lakes, an estimate of 7 million 
registered recreational boaters and other small craft between 
Canada and the United States with really no control over who 
they are, where they are, what they are doing.
    I think part of the challenge in small vessel security is 
awareness, first of all. We need to work with the boating 
community and small vessel operators, first of all, to make 
sure that they know that they are not the problem. They are 
part of the solution.
    And through programs like America's Waterways Watch, 
meeting with various groups around the country, outreach with 
various boating communities and with small vessel operators, 
which has been a key part of the department's plan, is helping 
us, first of all, to gain awareness.
    If every voter out there becomes a sensor, a partner, 
someone who cooperates with you, then that by itself increases 
security because, oftentimes, boaters who have operated in a 
certain area for years, like those lobstermen we talked to up 
there in Rockland, they know who is supposed to be out there on 
the water. They recognize strangers when they are coming 
through. If we can use every one of those people out there to 
help us with our maritime domain awareness, that is a real 
force multiplier.
    So I think that is the start. It is a challenge for us. We 
know that small boats have been used as weapons by the people 
that would do us harm. And intelligence and then engaging the 
community out there to help us for awareness I think is 
probably the best thing that we can do.
    Senator Snowe. I agree with you. I think that could be, 
obviously, a very effective tool, using others who are out 
there and the partnership that is necessary to expand our 
ability to monitor the sea.
    One other question on Loran-C. The Coast Guard announced a 
shutdown of the Loran-C navigation system as a back up to the 
GPS system. There are legitimate concerns about the stability 
of the GPS system. I know the Air Force is not going to be 
building new satellites in time that are necessary and to 
maintain the current levels of services.
    So there is obviously concern among boaters in Maine and 
the fishing community about the fact that there will not be 
this Loran-C backup system and that they will have to rely on 
visual aids and navigational tools as an alternative in the 
event the GPS system fails.
    Admiral Papp. As a navigator, as a sailor, I always like to 
have as many systems available to me as possible. As a 
taxpayer, we have invested heavily in GPS. That is the way we 
have gone, and we have provided a lot of capacity out there for 
that. Doing away with Loran-C is probably the right thing to do 
now because of all the investment in GPS.
    What we need to do--and once again, I am not a rocket 
scientist or a person who deals with satellites. All I know is 
I am hopeful that they are keeping them up, that sufficient 
reinvestment is being done. At the other end, at the lower end, 
in terms of redundancy in terms of navigation systems, the 
Coast Guard, of course, remains committed to our visual aids 
navigation system. We have good resources out there in terms of 
our buoy tender fleet, the lighthouses along the coast, and I 
think that we have sufficient electronic through GPS and visual 
through our short-range navigation system that will continue to 
provide for the safety of our mariners out there.
    Senator Snowe. Thank you, Admiral Papp.
    Thank you, Madam Chair.
    Senator Cantwell. Senator Klobuchar, do you have any other 
questions, any other Paul Bunyan stories or----
    [Laughter.]
    Senator Klobuchar. No. There is always the giant ball of 
twine.
    Senator Cantwell. Definitely not in the Coast Guard's 
jurisdiction.
    Vice Admiral Papp, thank you very much. I am sure we will 
leave the record open for our colleagues who have questions. 
But thank you for your testimony and answering questions, and 
we look forward to working with you.
    Admiral Papp. Thank you, Madam Chair.
    Senator Cantwell. We are going to call up next the second 
panel.
    Dr. Larry Robinson to be the Assistant Secretary for Oceans 
and Atmosphere at the U.S. Department of Commerce; Dr. Earl 
Weener to be a Member of the National Transportation Safety 
Board; Dr. Michael Tillman to be a Member of the U.S. Marine 
Mammal Commission; Dr. Daryl Boness to be Chairman and 
reappointed to the U.S. Marine Mammal Commission; and Mr. 
Jeffrey Moreland to be the Director of the Amtrak Board of 
Directors.
    Welcome to all of you, and thank you for being here today 
and your willingness to serve. We appreciate very much your 
interest in these important organizations and representing your 
agencies.
    I think what I am going to do in the interest of time, we 
have your written testimony, all of you, and I was hoping that 
maybe today that you could just give a--since we have your 
written testimony, if you could just give a brief 2-minute 
abbreviation of that, and then we could get into some 
questions. Because I think that is what we would like to do, is 
to have questions of that.
    So if we could, and we will start with you, Dr. Robinson.

  STATEMENT OF LARRY ROBINSON, ASSISTANT SECRETARY-DESIGNATE, 
                  U.S. DEPARTMENT OF COMMERCE

    Dr. Robinson. Good morning, Chairman Cantwell and honorable 
members of this committee. I will give you a 2-minute version 
of this opening remark.
    And it is with great humility and honor that I sit before 
you as President Obama's nominee for Assistant Secretary of 
Commerce at the National Oceanic and Atmospheric 
Administration.
    I would like to thank Secretary Locke and Under Secretary 
Lubchenco for their gracious support of my nomination.
    While I am humbled by this nomination, I can only imagine 
the pride that my grandparents and my mother in particular, 
Eliza Mae Robinson, would exude if they were still with us to 
witness this occasion. Perhaps on one of those 4 a.m. drives as 
I took my mother to work, we talked about this possibility and 
why, upon my return home, I should take advantage of the 
solitude and advance my undergraduate pursuits. I am eternally 
indebted to her for all of the sacrifices she made for me in 
preparation for this moment.
    I owe a tremendous debt to my immediate family, all of whom 
are here, Madam Chair.
    Beginning with my daughters Nicole, Arlin, Talia, and my 
niece, Patricia Robinson-Brown, who my wife and I raised, and 
her husband, Kent. And by the way, we are working on the Coast 
Guard's diversity issue. They are both members of the U.S. 
Coast Guard stationed nearby at Andrews Air Force Base.
    Particularly to my wife, Sharon, of 25 years, I want to 
thank you for your friendship, wise counsel, and dedication.
    I must also thank the entire Florida A&M University family 
for adopting me into its wonderful community of scholars and 
leaders dedicated to the principle of ``Excellence with 
Caring.'' In particular, I must thank Dr. James H. Ammons, 
President of the university, who is also with us this morning, 
and former presidents Fred Gainous and Frederick S. Humphries 
for allowing me to serve in key leadership positions at the 
university.
    My perspective on conservation and management issues has 
been shaped by serving on a number of advisory bodies, 
including those with national scope, such as the National 
Ecological Observatory Network's Science, Technology, and 
Education Advisory Committee and the Ocean Research and 
Resources Advisory Committee, and those with a regional or 
local focus, such as the Department of Energy's Oak Ridge 
Operations Site Specific Advisory Board, the Florida Chapter of 
the Nature Conservancy, and the Leon County, Florida Water 
Resources Committee.
    During the past few weeks, I have met with members of the 
leadership teams at the Department of Commerce and NOAA and 
various members of your staff, which has allowed me to witness 
a spirit of collaboration that most certainly will allow us to 
continue to find creative ways to address the complex issues 
confronting NOAA and the Nation. I welcome the opportunity to 
advance these traditions even further.
    This spirit of collegiality and cooperation has been 
critical to the success of many of my professional endeavors, 
including leadership of NOAA's multi-institutional 
Environmental Cooperative Science Center since 2001. Since 
1997, I have served as Florida A&M University's Florida Sea 
Grant Coordinator, which has allowed me to obtain a grassroots 
perspective of NOAA-related issues in Florida and the region.
    My tenure on the Ocean Research and Resources Committee 
Advisory Panel has fostered a deeper understanding of NOAA and 
its relationship to other agencies and organizations with 
similar missions and goals. My appreciation for how we can 
improve the work of Federal agencies by garnering input from 
external stakeholders was bolstered during my tenure as Chief 
Science Advisor for the U.S. Department of Agriculture's 
Cooperative State Research, Education, and Extension Service.
    [The prepared statement of Dr. Robinson follows:]

 Prepared Statement of Larry Robinson, Assistant Secretary-Designate, 
                      U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and honorable 
members of this committee, it is with great humility and honor that I 
sit before you as President Obama's nominee for Assistant Secretary of 
Commerce at the National Oceanic and Atmospheric Administration. I 
would like to thank Secretary Locke and Under Secretary Lubchenco for 
their gracious support of my nomination.
    While I am humbled by this nomination, I can only imagine the pride 
that my grandparents and my mother, Eliza Mae Robinson, in particular 
would exude if they were still with us to witness this occasion. 
Perhaps on one of those 4 a.m. drives as I took my mother to work, we 
talked about this possibility and why upon my return home I should take 
advantage of the solitude and advance my undergraduate pursuits. I am 
eternally indebted to her for all of the sacrifices she made for me in 
preparation for this moment.
    I owe a tremendous debt to my immediate family beginning with my 
daughters Nicole, Arlin and Talia and my niece, Patricia Robinson-
Brown, who my wife and I raised, and who, coincidentally is now 
stationed nearby at Andrews Air Force Base in the U.S. Coast Guard. And 
to Sharon, my wife of 25 years, thank you for your friendship, wise 
counsel and dedication.
    I must thank the entire Florida A&M University family for adopting 
me into its wonderful community of scholars and leaders dedicated to 
the principle of ``Excellence with Caring.''
    In particular I must thank President James H. Ammons, former 
Presidents Fred Gainous, and Frederick S. Humphries, for allowing me to 
serve in key leadership positions at the University including Director 
of the Environmental Sciences Institute, Provost and Vice President for 
Academic Affairs and currently Vice President for Research. I must also 
thank Dr. Ammons and our Board of Trustees Chairman, Mr. William 
Jennings for encouraging me to pursue this opportunity.
    My perspective on conservation and management issues has been 
shaped by service on advisory bodies including those with national 
scope such as the National Ecological Observatory Network's Science 
Technology and Education Advisory Committee, and the Oceans Research 
and Resources Advisory Panel; and those with a regional or local focus 
such as the Department of Energy's Oak Ridge Operations Site Specific 
Advisory Board, the Florida Chapter of the Nature Conservancy, and the 
Leon County, Florida Water Resources Committee.
    During the past few weeks, I have met with members of the 
leadership teams at the Department of Commerce and NOAA and various 
members of your staff which has allowed me to witness a spirit of 
collaboration that most certainly will allow us to continue to find 
creative ways to address the complex issues confronting NOAA and the 
Nation regardless of their difficulty. I welcome the opportunity to 
advance these traditions even further.
    This spirit of collegiality and cooperation has been critical to 
the success of my professional endeavors including leadership of NOAA's 
multi-institutional Environmental Cooperative Science Center (ECSC) 
since 2001 which conducts research on ecological and human dynamics in 
coastal ecosystems from the Texas Gulf of Mexico to Delaware Bay.
    Since 1997, I have served as FAMU's Florida Sea Grant Coordinator, 
which has allowed me to obtain a ``grassroots'' perspective of NOAA-
related issues in Florida and the region.
    Four years of service on the National Research Council's Committee 
on the Restoration of the Greater Everglades Ecosystem allowed me to 
provide input to one of the Nation's most expansive and comprehensive 
ecosystem restoration projects.
    My tenure on the Ocean Research and Resources Advisory Panel has 
fostered a deeper understanding of NOAA and its relationship to other 
agencies and organizations with missions and goals.
    My appreciation for how we can improve the work of Federal agencies 
by garnering input from external stakeholders was bolstered during my 
tenure as Chief Science Advisor for the U.S. Department of 
Agriculture's Cooperative State Research Education and Extension 
Service as this agency prepared for its transformation to the National 
Institute for Food and Agriculture.
    Finally, my own research and faculty responsibilities have 
contributed to the dissertation research projects of Ph.D. recipients 
from Florida A&M University who are currently employed at NOAA in the 
National Marine Fisheries Service, National Ocean Service, and Oceanic 
and Atmospheric Research.
    Through these collective experiences and others, I have come to 
know and appreciate the Department of Commerce and NOAA and their 
responsibilities and resources very well. These resources include 
talented and dedicated people inside and outside of government whose 
work and actions impact our lives on a daily basis. Their work can 
often help us peer into the future.
    Mr. Chairman, if confirmed as Assistant Secretary of Commerce, I 
will work collaboratively with this committee, and Congress to ensure 
that the full capacity of our assets are utilized to meet our 
responsibility to manage the resources entrusted to us and arrive at a 
future defined by our collective vision that is in the best interest of 
this Nation.
    Thank you for your attention. I welcome any questions you might 
have.

    Senator Cantwell. Thank you, Dr. Robinson.
    We have your full testimony, and so I want to make sure we 
have time for questions because you hold important positions 
that we definitely want to get on the record. So if I could, I 
am going to just keep proceeding down the line so that we can 
get to that point.
    Dr. Robinson. Thank you.
    Senator Cantwell. And ask witnesses to, if they could, keep 
their remarks brief since we do have the full statements. Thank 
you.
    Dr. Weener?

    STATEMENT OF EARL F. WEENER, MEMBER-DESIGNATE, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Dr. Weener. Thank you, Chairwoman Cantwell, Ranking 
Minority Member Senator Hutchison, and distinguished members of 
the Committee.
    I am pleased to be here today as you consider my nomination 
to the NTSB. I would like to thank Senator McConnell for his 
proposing my selection and President Obama for nominating me.
    Before going further, I would like to introduce several 
people who are very special to me. Senator Merkley has already 
stated much of my background, and so I will not go into that. 
But I would like to introduce my wife, Linda. And viewing this 
from various parts of the country are my daughter, Julia 
Robinson; son-in-law, Geoffrey Robinson; my son, Jeff Weener 
and his wife, Katrina; and my mother, and a number of family 
and friends.
    My qualifications to be a Member of the National 
Transportation Safety Board include a long 40 years of interest 
in aviation safety, including 24 years at the Boeing Company. 
For the last 10 years, I have been working with the Flight 
Safety Foundation on international programs in ground safety 
and runway safety.
    The overarching role of the NTSB is to promote safety, and 
preventing accidents requires the Safety Board to accurately 
identify probable causes and communicate the findings and 
recommendations in a manner in which they are understood. The 
NTSB is the Nation's preeminent accident investigation agency, 
and its expertise and the intentional Congressional design of 
the agency as an independent agency protects it from bias in 
accident investigations.
    An equally important role for the agency is safety advocacy 
and furthering the safety recommendations of the Safety Board. 
I believe my transportation safety experience in the commercial 
transport arena and industry association in Government affairs 
and in international safety programs have prepared me for this 
appointment and this opportunity to serve the public.
    If confirmed as a Member of the NTSB, I will do my utmost 
to maintain the preeminence of the Safety Board and to serve 
the American public. I look forward to any questions.
    [The prepared statement and biographical information of Dr. 
Weener follows:]

        Prepared Statement of Earl F. Weener, Member-Designate, 
                  National Transportation Safety Board
    Chairman Rockefeller, Ranking Minority Member Hutchison, and 
distinguished members of the Committee, I am pleased and honored to 
appear before you today as you consider my nomination to the National 
Transportation Safety Board (NTSB). I am grateful to Senator McConnell, 
for proposing my selection and to President Obama, for nominating me to 
serve the Nation in this position. I would also like to thank Senator 
Merkley, from my home state of Oregon, for his support and generous 
introduction. If confirmed, I intend to work with the utmost diligence 
to contribute to the Safety Board's mission of preventing 
transportation accidents and incidents, and to maintaining the trust 
and confidence of the traveling public in our transportation system.
    Before going further, I would like to introduce several people who 
are very special to me. First, I would like to introduce my wife, best 
friend, and most ardent supporter, Linda Weener, who is present with me 
at this hearing. My daughter, Julia Robinson, and her husband, 
Geoffrey, are viewing this from Colorado. My son, Jeffrey, and his 
wife, Katrina, are viewing this from my home town, Sherwood, Oregon. My 
mother, Marcia Weener, is viewing this hearing from Michigan. Finally, 
I would like to acknowledge the support and encouragement of retired 
Executive Vice President of the Flight Safety Foundation, Robert 
Vandel, a long time colleague and collaborator in promoting aviation 
safety enhancing activities for more than two decades.
    Let me briefly discuss my qualifications and experience as they 
relate to being a Member of the National Transportation Safety Board. I 
have been actively involved in advancing safety, more specifically, 
aviation safety, for more than four decades as a private citizen, as a 
participant and technically trained professional in the commercial or 
private sector and as an active professional and consultant, educator 
and advocate in the not-for-profit sector. As an individual, at the 
beginning of my aviation career, I flew as an Air Taxi pilot and 
endeavored to teach people to fly airplanes safely. I continued as a 
flight instructor throughout my college days to the present.
    During my nearly quarter century career with The Boeing Company, I 
was involved in assignments that included developing the flight crew 
interface of the Boeing 767 and 757 flight decks, as well as the 
preliminary development of the modifications to the 747 that lead to a 
modern two-crew flight deck. During the mid 1980s, I was involved, as 
an employee of Boeing, in government affairs in this city, and, in that 
capacity, dealt extensively with aviation safety issues. During the 
latter portion of my private sector career with Boeing, I was chief 
engineer for areas that included airplane safety, safety technology 
development, and related engineering executive assignments across all 
the Boeing commercial airplanes. It was during this time that I 
initiated the effort to prevent Controlled Flight into Terrain (CFIT) 
and approach and landing accidents, which through the auspices of the 
Flight Safety Foundation, became an international safety task force.
    During the past decade, following my retirement from Boeing, I have 
continued to be active in the area of aviation safety and have worked 
with the Flight Safety Foundation to develop and lead two international 
programs focused on enhancing ground safety and runway safety. More 
recently, I was involved in leading the Flight Safety Foundation Runway 
Safety Initiative, an effort focused on preventing runway excursions, 
which were involved in approximately 30 percent of the commercial air 
transport accidents world-wide over the past decade and a half.
    The overarching role of the NTSB is to promote safety through its 
recommendations. Preventing accidents requires that the Board, through 
its investigations, accurately identifies the probable causes of 
accidents, and communicates these findings in a manner that they are 
understood. The NTSB is the Nation's preeminent accident investigation 
agency and its expertise in transportation safety is recognized 
throughout the world. It is by Congressional design, an independent 
agency and is not part of any regulatory authority. That independence 
allows the Board to conduct unbiased investigations into transportation 
accidents. An equally important role of the Board is that of safety 
advocacy, to disseminate knowledge that will lead to the prevention of 
accidents and advance the recommendations of the Board.
    I believe that my transportation safety experience in commercial 
transport aircraft design, development and operation; in industry 
association and government affairs; and in international safety 
programs have all prepared me for this opportunity to serve the public 
and advance transportation safety. I believe my experience and 
expertise complement the experience and expertise currently resident in 
the Board. If confirmed as a Member of the NTSB, I will do my utmost to 
maintain the preeminence of the Board. If confirmed, I look forward to 
the opportunity to serve the American public as a Member of the NTSB.
    I look forward to addressing any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Earl Floyd 
Weener.
    2. Position to which nominated: Board Member, National 
Transportation Safety Board.
    3. Date of Nomination: January 20, 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Sherwood, OR 97140 (office in home).

    5. Date and Place of Birth: June 23, 1945; Holland, Michigan.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Linda Wooldridge Weener, Retired; children: daughter--
        Julia Ann Robinson, 44; son--Jeffrey Earl Weener, 41.

    7. List all college and graduate degrees. Provide year and school 
attended.

        PhD, University of Michigan, 1975.

        MSE, University of Michigan, 1972.

        BSE, University of Michigan, 1971.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        University of Michigan; Graduate Research Assistant.

        The Boeing Company; Seattle, WA.

        1975-1978--Boeing Commercial Airplanes; Developed Automatic 
        Flight Controls Design Criteria and Requirements, and Microwave 
        Landing System Flight Evaluation.

        1978-1982--Boeing Commercial Airplanes; 757/767 Flight Deck 
        Development; Flight Crew Man/Machine Interface Development. 
        Flight Crew Simulation Test and Evaluation.

        1982-1984--Boeing Commercial Airplanes; 747 Two-Crew Flight 
        Deck Development and Preliminary Design.

        1984-1988--Boeing Commercial Airplanes; Manager of Aviation 
        Affairs in Washington D.C.; Aviation Industry Policy and 
        Regulatory Affairs.

        1988-1994--Boeing Commercial Airplanes; Chief Engineer--
        Airworthiness, Reliability and Maintainability, and Airplane 
        Safety Engineering (managed organization of approximately 350 
        to 400 people).

        1994-1998--Boeing Commercial Airplanes; Chief Engineer--Systems 
        Engineering (Managed organization as large as 400+ people).

        1998-1999--Boeing Commercial Airplanes; Chief Engineer--
        Airplane Safety Technology Development.

        Flight Safety Foundation

        2002-present--Flight Safety Foundation; Foundation Fellow; Co-
        leader of Ground Accident Prevention (GAP) Program; Co-leader 
        of FSF Runway Safety Initiative; Manager of Aviation Personnel 
        Shortage Project; Principal, Head-up Guidance System Technology 
        Study.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
    Consultant--Flight Safety Foundation.
    12.Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Calvin Presbyterian Church, Tigard, Oregon--Member 2006 to 
        present.

        First United Methodist Church, Seattle, WA 1993-2006.

        Columbia Aviation Association, Aurora, Oregon--Member 2006-
        2008.

        Northwest Bonanza Society--Member, Director 2006 to present (If 
        confirmed, per the ethics agreement, I will resign my position 
        as Director).

        Pacific Bonanza Society--Member 2004-2007.

        Aircraft Owners and Pilots Association--Member 1996 to present.

        Experimental Aircraft Association--Member 2003 to present.

        National Association of Flight Instructors--Member 2003 to 
        present.

        Seven Seas Cruising Association--Member 2000-2004.

        University of Michigan Alumni Association, 2008 to present.

        None of these organizations discriminate on the basis of sex, 
        race, color, religion, national origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    Aircraft Owners and Pilots Association--PAC (less than $500 in 
total contributions).
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Numerous scholarships as Undergraduate, University of Michigan.

        National Science Foundation Traineeship, University of 
        Michigan.

        Edward White Fellowship, University of Michigan.

        Tau Beta Pi (National Engineering Honor Society).

        Sigma Gamma Tau (National Aerospace Engineering Honor Society).

        Aviation Week and Space Technology, Laurels Award, 1994.

        Honeywell Bendix Trophy for Aviation Safety, 2005.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Major Presentations 2006 to 2009--Earl F. Weener, Ph.D.
        Ground Accident Prevention EASS 2006 Update, European Air 
        Safety Seminar, Athens, 3/12/2006.

        Ground Accident Prevention, Association of European Airlines, 
        Brussels, 6/29/2006.

        Ground Accident Prevention Project Status, International Air 
        Safety Symposium, Paris, 10/23/2006.

        Ground Accident Prevention Project Status, Corporate Aviation 
        Safety Team Briefing, Washington, D.C., 12/7/2006.

        Ground Safety and Accident Prevention, Alaska Air Carriers 
        Association, Anchorage, 2/15/2007.

        Ground Accident Prevention--The Foundation's Answer, European 
        Aviation Safety Seminar, Amsterdam, 3/13/2007.

        Runway Safety Initiative, NTSB Runway Safety Meeting, 3/27/
        2007.

        Ground Accident Prevention--The Foundation's Answer, 52nd 
        Annual Corporate Aviation Safety Seminar, 5/9/2007.

        Ground Damage Data in a Safety Management System, COSCAP 
        Workshop, Beijing, 3/24/2008.

        FSF Ground Accident Prevention, COSCAP Workshop, Beijing, 3/24/
        2008.

        FSF Ground Accident Prevention Data Findings, COSCAP Workshop, 
        Bangkok, 3/27/2008.

        FSF Data Collection Tools and Data Taxonomy, COSCAP Workshop, 
        Bangkok, 3/27/2008.

        Runway Safety, Air Transport World Webcast, 6/25/2008.

        Industry Training and Qualification Initiative, An 
        International Aviation Industry Approach to the Global Shortage 
        of Pilots, Mechanics and Engineers, University Aviation 
        Association, Denver, 10/16/2008.

        Runway Safety Initiative, International Air Safety Seminar, 
        Honolulu, 10/30/2008.

        Industry Training and Qualification Initiative, Crew Management 
        Conference, 12/1/2008.

        Operational Risks on the Ground and How to Prevent Them, Crew 
        Management Conference, 12/2/2008, Dubai.

        Runway Safety, Pacific Northwest Business Aviation Association, 
        Seattle, WA, 3/5/2009.

        Reducing Runway Excursions, 54th Corporate Air Safety Seminar, 
        Orlando, FL, 4/21/2009.

        Reducing Runway Excursions, Horizon Airlines, Portland, OR, 5/
        13/2009.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Beginning in 1967, as a general aviation flight instructor, I have 
been actively involved in promoting safety throughout my career. My 
engineering responsibilities with Boeing Commercial Airplanes required 
me to address safety in the design and operation of airplanes such as 
the 757, 767 and 747-400. The Company also assigned me to serve as the 
Company's spokesperson for aviation safety and to engage the commercial 
air transport industry in a more cooperative and public pursuit of 
aviation safety. While at Boeing, I was involved in initiating and 
leading the Controlled Flight Into Terrain (CFIT) Task Force, using the 
Flight Safety Foundation (FSF') as the vehicle to develop broad 
industry involvement and cooperation.
    Following my career in the private, commercial sector, and a two-
year sabbatical, I became involved in developing and leading 
international safety programs in the non-profit sector through the 
Flight Safety Foundation. These programs included the FSF Ground 
Accident Prevention Program and the FSF Runway Safety Initiative.
    Having promoted safety as an individual, as a participant in the 
private commercial sector, and as a participant in the not-for-profit 
sector, I would now like to bring this experience to the governmental 
sector where I can promote safety across multiple transportation modes. 
The NTSB is recognized as the premier safety investigation organization 
in the world, and I would like the opportunity to influence 
transportation safety as a Member of that preeminent organization.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As an NTSB Board Member not serving as the Chairman or Vice 
Chairman, there are limited direct responsibilities for the management 
of the NTSB organization. Most administrative and organizational 
management responsibilities are delegated to the Chairman and Vice 
Chairman. As a Member, I would be directly responsible for the 
management of the resources allocated to my Member office, and for 
acting collectively with the other Board Members to influence the 
policies and practices of the agency. Nevertheless, within the private 
sector, I have had direct responsibility for management of engineering 
and support organizations of the size and complexity of the NTSB, and 
would participate in management of the NTSB as the rules and 
regulations of the NTSB allow.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The first challenge to the NTSB is to maintain the position as the 
world `s preeminent accident investigation and analysis organization.
    The second challenge is to broaden the scope to address the 
identification and prevention of practices and actions that lead to or 
are precursors of accidents.
    The third challenge is to assure the NTSB has the expertise in 
place consistent with the advancement of technology in current and 
future transportation systems.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    With regard to the future, which includes the period of time that I 
will serve as a Board Member of the NTSB if I am confirmed, I have no 
financial arrangement, deferred compensation agreements or other 
continuing dealings with business associates, clients or customers.
    Based on my 24 years of service with Boeing, I am entitled to and 
receive a pension from The Boeing Company's defined benefit pension 
program. I have an ethics agreement that describes how I will avoid any 
conflicts of interest or questions as to my impartiality that may he 
raised concerning the Boeing pension.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I have no commitments or agreements regarding maintaining 
employment, affiliation or practice with any business, association or 
other organization during my appointment to the NTSB. My ethics 
agreement describes how I will handle my relationship with my current 
business and organizations with which I am currently involved.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    As I mentioned above, I am entitled to a pension from the Boeing 
defined benefit pension plan based on my service with Boeing from 1975-
1999. My ethics agreement describes the strategy that I will use to 
avoid any conflicts of interest or questions as to my impartiality if I 
am confirmed as a Member of the NTSB.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    I have had no business relationship, dealing or financial 
transaction during the last 10 years that would present a possible 
conflict of interest. I was a minority investor in a boat manufacturing 
company that has since gone out of business; however, there are no 
continuing financial interests or obligations in that regard.
    With regard to my employment as a Fellow/consultant with the Flight 
Safety Foundation, as my ethics agreement indicates, if confirmed as a 
Member of the NTSB, I will resign this position. My ethics agreement 
describes in detail the means by which I will avoid any conflict of 
interest or question as to my impartiality that could be raised 
concerning the Flight Safety Foundation.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    As has been stated in my earlier responses, in the course of the 
nomination process, I have established and entered into an ethics 
agreement that recognizes my obligations regarding conflicts of 
interest and addresses potential conflicts and potential questions of 
impartiality. If confirmed as a Member of the NTSB, I will follow the 
guidance and adhere to the commitments contained in my ethics agreement 
regarding any potential conflict of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was a minority shareholder of a boat building corporation that 
went bankrupt. I was the defendant in civil litigation by a customer 
who lost money as a result of the bankruptcy. This civil suit was 
dismissed with prejudice in summary judgment.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    Not aware of any such information.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        resume of earl f. weener
Objective
        Member, National Transportation Safety Board
Profile
        Accomplished career in aviation as engineering executive, 
        safety advocate, industry safety spokesperson, engineer, pilot

        Skilled public communicator of technical and policy issues

        Organized, highly motivated, big-picture problem solver

        Knowledgeable safety initiative developer, team builder and 
        mentor
Education
        Ph.D. Aerospace Engineering, University of Michigan

        MSE Aerospace Engineering, University of Michigan

        BSE Aerospace Engineering, Summa Cum Laude, University of 
        Michigan
Relevant Experience
    Consultant and Fellow, Flight Safety Foundation

        Led international industry initiative to improve runway safety

        Led international industry program to reduce ground accidents 
        and injuries

        Served as member of FSF Board of Governors and Executive 
        Committee

        Presided over Board of Governors workshops to develop and 
        refine mission, goals and objectives

    Chief Engineer, The Boeing Company

        Developed Boeing public safety agenda and public communications 
        strategy

        Served as Boeing spokesperson on aviation safety with customers 
        and media organizations

        Coordinated with government and industry organizations

        Created and led industry programs to reduce CFIT and Approach 
        and Landing Accidents

        Organized and lead diverse engineering organizations as large 
        as 400 people
Employment
    2002-present--Consultant and Fellow, Flight Safety Foundation, 
Alexandria, VA

        Initiated actions to reduce accidents via coordinated industry 
        programs.

        Conducted special projects such as Board of Governors strategy 
        workshops

    1999-2002--Sabbatical/Early Retirement

        USCG Master's License

        Cruised much of U.S. coastline via powerboat as full-time live-
        aboard

        Refurbished a boat and remodeled a home

    1998-1999--Chief Engineer, Safety Technology Development, The 
Boeing Company

        Directed development and application of new technology for 
        airplane safety enhancement

    1994-1998--Chief Engineer, System Engineering, The Boeing Company

        Developed cross-program organizations for airplane integration, 
        product assurance, electromagnetic compatibility, and human 
        factors

    1988-1994--Chief Engineer, Airworthiness, Reliability and 
Maintainability, and Safety, The Boeing Company

        Led organizations that type-certified airplanes, performed 
        reliability and maintainability engineering, and improved 
        airplane safety

    1984-1988--Manager of Government Affairs, Washington, D.C. Office, 
The Boeing Company

        Served as focal point for engineering, technology and policy 
        interface with Congress, Executive Branch and industry trade 
        organizations
Prior Experience
        Preliminary development of two-crew 747 flight deck concept

        Development of 757 and 767 airplane flight decks, including 
        application of human factors principles

        Developed and operated small businesses

        General Aviation flight instructor and Part 135 pilot

        Announcer and engineer for AM/FM commercial radio stations
Honors and Awards
        Honeywell Bendix Trophy for Aviation Safety, 2005

        Aviation Week and Space Technology Laurels Award, 1994

        Flight Safety Foundation Icarus Committee

        Flight Safety Foundation Board of Governors

    Senator Cantwell. Thank you, Dr. Weener.
    Dr. Tillman, thank you for being here. We look forward to 
your statement. Thank you.

   STATEMENT OF MICHAEL F. TILLMAN, Ph.D., MEMBER-DESIGNATE, 
                    MARINE MAMMAL COMMISSION

    Dr. Tillman. Thank you, Madam Chair Cantwell and Ranking 
Member Hutchison and members of the Committee.
    I am deeply grateful to President Obama for nominating me 
as a Member of the Marine Mammal Commission, and I greatly 
appreciate the opportunity to appear before you to discuss my 
nomination and to address your questions.
    I would like to begin by acknowledging my mother, Margaret 
Roberts Tillman, who passed away almost 7 years ago at the age 
of 89. She grew up in a Tlingit Indian village called Klawock 
on Prince William Island in southeast Alaska. She had the 
courage and determination to leave the village, seek a quality 
education, and forge a better life for herself and her family.
    She ultimately became a leader of our people in Seattle and 
a respected elder of the Tlingit Indian Tribe. If she could be 
here today, I am sure she would be very proud of this moment, 
and I hope that I measure up to her expectations.
    I retired 6 years ago after 32 years of service with the 
National Marine Fisheries Service. For 15\1/2\ years, I was a 
Senior Executive, applying science to resolve the difficult 
issues arising from the national and international management 
of living marine resources. I hope to serve as a Member of the 
Marine Mammal Commission and continue to apply that experience 
for the conservation of marine mammals and ecosystems.
    I will not review my career in detail, but I have had a 
wide and varied career as a scientist and manager. And I 
consequently believe I have broad experience regarding the 
interplay of science, management, and politics in formulating 
national and international policies pertaining to the 
conservation of living marine resources.
    Although now retired, I continue to work in the 
conservation arena, advising the U.S. delegation to the 
International Whaling Commission and serving as a research 
associate at Scripps Institution of Oceanography's Center for 
Marine Biodiversity and Conservation.
    I believe that, if confirmed, I have the experience, 
knowledge, and broad strategic perspective to serve the Marine 
Mammal Commission well in these challenging times.
    If confirmed, I would be honored, both professionally and 
personally, to be a Member of the Commission and to contribute 
to its mission and goals and, in doing so, continue my service 
to this great Nation.
    Thank you.
    [The prepared statement and biographical information of Dr. 
Tillman follows:]

  Prepared Statement of Michael F. Tillman, Ph.D., Member-Designate, 
                        Marine Mammal Commission
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, I am deeply grateful to President Obama for nominating me as 
a Member of the Marine Mammal Commission, and I greatly appreciate the 
opportunity to appear before you to discuss my nomination and to 
address your questions.
    I would like to begin by acknowledging my mother, Margaret Roberts 
Tillman, who passed away almost 7 years ago at the age of 89. She grew 
up in a Tlingit Indian village called Klawock on Prince William Island 
in Southeast Alaska. She had the courage and determination to leave the 
village, seek a quality education, and forge a better life for herself 
and, eventually, for her family. She ultimately became a leader of our 
people in Seattle and a respected elder of the Tlingit Indian Tribe. If 
she could be here today, I'm sure she would be very proud of this 
moment and thinking, ``See, if provided the opportunity, encouragement 
and education, we too can be among America's best and brightest.'' I 
hope that I have measured up to her expectations.
    I retired 6 years ago after 32 years of service in the National 
Marine Fisheries Service. For 15\1/2\ years I was a Senior Executive, 
applying science to resolve the difficult issues arising from the 
national and international management of living marine resources. I 
hope to serve as a member of the Marine Mammal Commission and continue 
to apply that experience to the conservation of marine mammals and 
ecosystems.
    I have had a wide and varied career as a scientist and manager. My 
early research focused on estimating the abundance of marine resources 
that were taken by commercial and Alaskan Native harvests. I then began 
advising policy officials on the scientific aspects of issues such as 
subsistence harvests of northern fur seals, incidental killings by 
Japanese drift gillnets, commercial harvests of whales regulated by the 
International Whaling Commission, and Alaska Eskimo hunts for bowhead 
whales.
    Later in my career, as a policy official or as one of the agency's 
senior scientists, I worked on Pacific Northwest salmon listings, the 
incidental take of dolphins by tuna purse seiners, the incidental take 
of sea turtles by Hawaiian longliners, recovery planning for Hawaiian 
monk seals, and the adoption of the Southern Ocean Whale Sanctuary by 
the International Whaling Commission. During these later years, I 
served as the U.S. Commissioner to the Inter-American Tropical Tuna 
Commission and the Deputy U.S. Commissioner to the International 
Whaling Commission. Consequently, I have broad experience regarding the 
interplay of science, management, and politics in formulating national 
and international policies pertaining to the conservation of living 
marine resources.
    Although now retired, I continue to work in the conservation arena, 
advising the U.S. Delegation to the International Whaling Commission 
and serving as a Research Associate at Scripps Institution of 
Oceanography's Center for Marine Biodiversity and Conservation. I 
believe that, if confirmed, I have the experience, knowledge, and 
broad, strategic perspective to serve the Marine Mammal Commission well 
in these challenging times.
    One of the major challenges facing the Marine Mammal Commission is 
the globalization of issues affecting the status of marine mammal 
populations. Marine mammals do not recognize the arbitrary boundaries 
established by governments, and neither do the issues affecting the 
health of their stocks, such as climate change, ocean pollution, and 
anthropogenic noise. For that reason, marine mammal conservation 
requires an ecosystem approach that transcends borders. In turn, 
implementation of such an approach will require dedication and new 
resources to improve our scientific understanding of how ecosystems 
work. Moreover, the involved agencies must commit themselves to 
coordinating and integrating their related scientific and management 
activities. I am pleased that the Ocean Policy Task Force has 
recognized these needs in its Interim Report.
    If confirmed, I would be honored, both professionally and 
personally, to be a member of the Marine Mammal Commission, to 
contribute to its mission and goals and, in doing so, to continue my 
service to this great Nation.
    Thank you and I would be pleased to address any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Michael F. Tillman (Mike).

    2. Position to which nominated: Member, U.S. Marine Mammal 
Commission.
    3. Date of Nomination: January 20, 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Encinitas, CA 92024 (residence and office).

    5. Date and Place of Birth: February 10, 1943; Seattle, Washington.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Jennifer E. Tillman (spouse), retired; children: Lee Michael 
        Tillman (son, age 40), Christopher Lawrence Tillman (son, age 
        33).

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S., Fisheries Science 1965, University of Washington.

        M.S., Fisheries Science 1968, University of Washington.

        Ph.D., Fisheries Science 1972, University of Washington.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        2/2004-present--Michael F. Tillman, Sole proprietor, Self-
        employed consultant contracted as follows:

    <bullet> 02/2010-09/2010--NOAA/NMFS Alaska Fisheries Science 
            Center; Contract to provide support to the U.S. delegation 
            to the International Whaling Commission.

    <bullet> 10/2008-08/2009--Data Solutions & Technology, Lanham, MD; 
            Sub-contract to provide support to IWC delegation.

    <bullet> 09/2006-09/2008--NOAA/NMFS Office of the Director, Silver 
            Spring, MD; Contract to provide support to the IWC 
            Commissioner.

    <bullet> 05/2004-08/2006--NOAA/NMFS Office of Protected Resources, 
            Silver Spring, MD; Contract to provide support to the IWC 
            delegation.

        06/1993-01/2004--Science Director, NOAA/NMFS SW Fisheries 
        Science Center, La, Jolla, CA.

        08/1992-05/1993--Acting Director, NOAA/NMFS Office of Protected 
        Resources, Silver Spring, MD.

        07/1990-07/1992--Deputy Assistant Administrator for Fisheries, 
        NOAA/NMFS Silver Spring, MD.

        07/1988-06/1990--Senior Scientist for Fisheries, NOAA/NMFS, 
        Silver Spring, MD.

        02/1987-06/1988--Division Chief, NOAA/NMFS Office of Protected 
        Resources, Conservation Science Division, Washington, D.C.

        11/1983-01/1987--Director, IUCN Conservation Monitoring Center, 
        Cambridge, United Kingdom, (on detail from NOAA).

        08/1979-10/1983--Director, NOAA/NMFS National Marine Mammal 
        Laboratory, Seattle, WA.

        05/1978-07/1979--Deputy Director, Marine Mammal Division, NOAA/
        NMFS Northwest and Alaska Fisheries Science Center, Seattle, 
        WA.

        07/1974-04/1978--Supervisory Fishery Research Biologist, Marine 
        Mammal Division, Northwest and Alaska Fisheries Science Center, 
        Seattle, WA.

        08/1972-06/1974--Fishery Research Biologist, NOAA/NMFS Marine 
        Fish and Shellfish Division, Northwest and Alaska Fisheries 
        Science Center, Seattle, WA.

        09/1970-07/1972--Research Associate, Center for Quantitative 
        Science in Forestry, Fisheries and Wildlife, University of 
        Washington, Seattle, WA.

        06/1968-07/1972--Active Military Service, U.S. Army, 1st 
        Lieutenant, Army Logistics Command, St. Louis, MO; Captain, I 
        Corps Group, South Korea.

        09/1965-05/1968--Teaching Assistant, College of Fisheries, 
        University of Washington, Seattle, WA.

    The four positions I held after earning my doctorate (August 1972 
to October 1983) were scientific/technical (I conducted research, 
published papers in peer-reviewed journals and participated in 
scientific meetings, etc.) and are germane to this position. The six 
positions from the middle of my career until I retired from Federal 
service (November 1983 to February 2004), as well as my activities as a 
self-employed consultant are primarily managerial (requiring planning, 
budgeting, management of human resources, developing and implementing 
policies and regulations). They are pertinent in that I applied the 
principles of using the best available science and a precautionary 
approach in the face of uncertainty, as well as an understanding of the 
interplay between science and management, to resolve conservation 
issues.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    No state or local positions.

        2007--Served as private sector delegate on U.S. delegation to 
        the International Whaling Commission.

        2008--Served as private sector delegate on U.S. delegation to 
        the International Whaling Commission.

        2009--Served as support staff to U.S. delegation to the 
        International Whaling Commission.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        2003-present--Unsalaried Research Associate, Scripps 
        Institution of Oceanography.

        2003-2005--Conference Chair, 16th Biennial Conference, Society 
        for Marine Mammalogy.

        2008-2009--Contractor, Data Solutions & Technology (provides 
        services for Federal Government agencies).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    (See attachment A.12--Memberships in Organizations)
    None of the organizations I belong to restricts membership or 
otherwise practices discrimination in any form.
    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have never been a candidate for or held a public office.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        1961-65--Gov-Mart Scholarship.

        1962--Phi Eta Sigma Scholastic Honorary Society.

        1965--B.S. cum laude.

        1969--Honor Graduate, Chemical Officers' Basic Course.

        1970--Army Commendation Medal.

        1979--Nominated for NMFS Employee of the Year.

        1993--Presidential Rank Award, Meritorious Executive.

        1994--Albert Schweitzer Medal, Animal Welfare Institute.

        1994-99--Presidential appointment, U.S. Commissioner to the 
        Inter-American Tropical Tuna Commission (IATTC).

        1994-04--Presidential appointment, Deputy U.S. Commissioner to 
        the International Whaling Commission.

        1995--Department of Commerce Bronze Medal (Fisheries Bycatch in 
        Chile).

        1998--Department of Commerce Bronze Medal (Tuna/Dolphin 
        Interactions).

        2000--Department of Commerce Bronze Medal (Japanese Trade in 
        Whale Products).

        2003--Nominated for NOAA Distinguished Career Award.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    (Publications are listed in attachment A.16--Primary Published or 
Creative Work)
    I have not given any relevant speeches but have made the following 
two invited presentations:

        Native hunting, gifting and marine mammal policy: The value of 
        government service to Native communities. Annual Conference of 
        the Society for Advancement of Chicanos and Native Americans in 
        Science, Anaheim, CA. September 26-28, 2002.

        State of the world's whales: A perspective from within the IWC. 
        Pew Symposium on the Conservation of Whales in the 21st 
        Century, New York, NY. April 12-13, 2007.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    While serving in various Senior Executive Service positions within 
the National Marine Fisheries Service between 1988 and 1993, I 
testified several times before Congress. I do not have records 
detailing each instance but recall that they generally pertained to 
various topics including the NOAA/NMFS proposed budget, the tuna/
dolphin issue, high-seas driftnets, and other contemporary fisheries 
and resource issues. I have never testified in a non-governmental 
capacity.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I retired 6 years ago after 31 \1/2\ years of service with the 
National Marine Fisheries Service. I spent 15 \1/2\ years of that time 
as a Senior Executive, applying science to the resolution of the 
difficult issues arising from national and international management of 
living marine resources. That experience is directly relevant to the 
conservation of marine mammals and the duties of a Commissioner.
    The employment history demonstrates a wide and varied career as a 
scientist and manager. My early research focused on estimating the 
abundance of marine resources that were subject to commercial and 
Alaskan Native harvests. As a consequence of these scientific 
activities, I began advising policy officials on the scientific aspects 
of a variety of issues such as the subsistence harvest of northern fur 
seals, incidental taking by the Japanese drift gillnet fishery, the 
commercial harvest of whales regulated by the International Whaling 
Commission (IWC), and the Alaska Eskimo hunt for bowhead whales. At 
later stages of my career, while serving as a policy official or as one 
of the agency's senior scientists, I worked on conserving Pacific 
Northwest salmon, assessing and reducing the effects of the eastern 
tropical Pacific tuna fishery on dolphins, managing interactions 
between Hawaiian longline fisheries and sea turtles, recovery planning 
for Hawaiian monk seals, and responding to the Makah Indian Tribe's 
request for authorization to hunt gray whales. Consequently, I have 
broad experience regarding the interplay between science, management, 
and politics in formulating policy decisions of national and 
international importance to the conservation of living marine 
resources.
    Although retired, I continue to work in the conservation arena, 
advising the U.S. delegation to the International Whaling Commission 
and serving as a Research Associate at the Center for Marine 
Biodiversity and Conservation. I believe that I have much to offer in 
terms of experience, knowledge, and a broadly strategic perspective 
that would serve the Marine Mammal Commission well in these challenging 
times.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I am a strong believer in the use of three management tools to 
ensure not only that fiscal goals are met but also that the correct 
programs are being executed properly:

        (1) Independent, annual audits and reviews. Inviting outside 
        experts to conduct audits of fiscal management is essential to 
        avoid waste or abuse and to ensure that established fiscal 
        management policies are being followed. Likewise, program 
        reviews conducted by outside experts give an independent check 
        on whether the appropriate priorities are being assigned, if 
        the agency's methods are appropriate to its mission and are 
        state-of-the-art, and opportunities exist for improving 
        performance.

        (2) Periodic within-year management reviews. Within-year 
        management reviews should be done quarterly, if not more often, 
        to determine if schedules are being met, resources are 
        adequate, and any management or technical issues exist and to 
        identify steps to resolve any identified problems in a timely 
        way.

        (3) Strategic planning. Strategic planning helps an agency 
        define its mission and goals, identify opportunities and assign 
        priorities, and develop a long view of how it needs to adapt to 
        change. Such an exercise builds credibility with constituents 
        and with those approving budget proposals and contributing to 
        budgets.

    I learned about and used these three tools as the Director of the 
International Union for Conservation of Nature (IUCN) Conservation 
Monitoring Center, which had 38 staff and a budget of $1 million, and 
where I led strategic and fundraising efforts to obtain half of the 
Center's annual budget. I also restructured the Center's employment and 
pay systems and set up its first health care program.
    As a Senior Executive with the National Marine Fisheries Service, I 
continued to apply these tools. As the Deputy Assistant Administrator 
for Fisheries, I was responsible for the day-to-day operations of the 
Service, which at that time had more than 2,000 employees and an annual 
budget of more than $250 million. I served on the team in 1991-92 that 
developed the first strategic plan for the Fisheries Service, which 
greatly influenced NOAA's overall budget planning strategy for FY 1993 
and beyond. While serving as the Science Director of the Southwest 
Fisheries Science Center, I managed the science programs conducted by 
250 employees, with an annual budget of $50 million, based in four 
laboratories and using four research vessels. One measure of my success 
as a manager is that I earned Senior Executive Service bonuses for 
outstanding performance for 12 of the 15 years in which I held such 
positions.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The top three challenges include the following:

        (1) Recognizing and responding to the ``globalization'' of the 
        conservation issues affecting the status of marine mammal 
        populations. The distributions and migrations of marine mammals 
        do not recognize the geographic borders established by 
        governments. Moreover, the issues that may impact the health of 
        marine mammal stocks, such as climate change, ocean pollution, 
        and anthropogenic noise, do not respect such boundaries. 
        Consequently, the conservation and management of marine mammals 
        will require regional and international cooperation in the 
        scientific investigation of these problems, as well as in the 
        development of appropriate management actions and mitigation 
        strategies.

        (2) Increasing the amount and quality of scientific research 
        and monitoring. The current emphasis in the conservation and 
        management of living marine resources is ``to utilize an 
        ecosystem approach.'' Such an approach is warranted for marine 
        mammals existing in a global world in which the conservation 
        issues transcend borders. For agencies to undertake such a 
        task, however, significantly increased resources will be 
        required, as well as a commitment to apply appropriate program 
        and fiscal management tools that ensure the quality and 
        direction of the efforts.

        (3) Recognizing marine mammals as bio-indicators for marine 
        environmental health. Marine mammals can serve as the veritable 
        ``canaries in the coal mine,'' identifying issues arising in 
        the global oceans that may affect not only their viability, but 
        that of entire ecosystems. Because seals, whales, dolphins, 
        etc., share a common mammalian heritage with humankind, their 
        ills and calamities may also signal impending problems for 
        human society. Enhancing long-term monitoring efforts for 
        marine mammal stocks will not only assist in the early 
        identification of potential environmental issues along our 
        coasts and in the world's oceans but also increase the 
        information base required for an ecosystem-based approach to 
        science and conservation.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    As noted in the Employment Listing under Item A.8 and in item E.7 
below, I expect to enter into a new contract with NOAA/NMFS Alaska 
Fisheries Science Center to provide support to the U.S. delegation to 
the International Whaling Commission. I have no other financial 
arrangements, deferred compensation agreements, or other continuing 
dealings with business associates, clients, or customers.
    My retirement accounts are as follows:

  <bullet> Annuity from Federal Civil Service Retirement System.

  <bullet> Thrift Savings Account from Federal service (no 
        disbursements drawn yet).

  <bullet> SEP IRA for self-employment (Vanguard LifeStrategy Income 
        Fund).

  <bullet> Spousal IRA for my wife (Vanguard U.S. Growth Fund).

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    In addition to the contract noted in the previous response, I 
continue to serve as an unsalaried, non-resident Research Associate 
with Scripps Institution of Oceanography, University of California at 
San Diego. Otherwise, I do not have any such commitments, agreements, 
or affiliations.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Marine Mammal Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have 
transmitted to the Commission's designated agency ethics official and 
that has been provided to this committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Marine Mammal Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have 
transmitted to the Commission's designated agency ethics official and 
that has been provided to this committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As Deputy U.S. Commissioner to the International Whaling Commission 
(1994-2004), I served as the principal technical adviser to the U.S. 
Commissioner. Consequently, I assisted in the development and 
implementation of U.S. policy at the International Whaling Commission. 
In the absence of the U.S. Commissioner at annual and special meetings 
of the Commission, I would lead the U.S. Delegation and serve as the 
principle spokesperson.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Marine Mammal Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have 
transmitted to the Commission's designated agency ethics official and 
that has been provided to this committee. I am not aware of any other 
potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    My wife and I were plaintiffs in two related civil cases:

        05/1996--Against the former owner of a house we purchased for 
        non-disclosure of a neighborhood problem. Dismissed and 
        referred to mediation.

        09/1997--Against a former neighbor for harassment. TRO issued 
        prohibiting the neighbor from harassment.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    In 2003, an employee filed an EEO complaint alleging that, during 
the process of filling a vacancy, I had discriminated against her based 
upon race. While I disputed the claim, the case was not resolved prior 
to my retirement from Federal service on 01/24/2004. I later was 
informed that the Department of Commerce settled the case without 
holding an EEO hearing and without a finding of fault.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                  resume of michael f. tillman, ph.d.
Personal
        Michael F. Tillman, U.S. citizen, Married, 2 sons, Alaskan 
        Native, member of Tlingit Indian Tribe.
Education
        Ph.D., University of Washington, 1972.

        M.S., University of Washington, 1968.

        B.S., University of Washington, 1965 (cum laude in Fisheries 
        Science).
Recent Contributions
        As Conference Chair, planned and convened the Society for 
        Marine Mammalogy's 16th Biennial Conference in San Diego, 2005.

        Presented an invited paper to the Pew Symposium on the 
        Conservation of Whales in the 21st Century, New York, 2007.

        Served on the U.S. delegation participating in two special and 
        three annual meetings of the International Whaling Commission, 
        2007-2009.

        Published two peer-reviewed papers in 2007 and 2008, with a 
        third in review in 2009.
Experience
    2/04 to present--Self-employed consultant.

        Since retirement, under contract annually to NOAA/National 
        Marine Fisheries Service serving as a senior advisor to the 
        U.S. delegation to the International Whaling Commission (IWC). 
        Also serving as a non-resident Research Associate at the Center 
        for Marine Biodiversity and Conservation, Scripps Institution 
        of Oceanography, working on marine wildlife conservation 
        issues.

    6/93 to 1/04--Science Director, ES-4, Southwest Fisheries Science 
Center, National Marine Fisheries Service, 8604 La Jolla Shores Drive, 
Jolla, CA 92037.

        Senior executive responsible for overseeing, directing and 
        coordinating research programs that provided the scientific 
        basis for conservation and management of living marine 
        resources in the NMFS Southwest Region, including California, 
        Hawaii, and the Pacific Territories. Major research programs 
        focused on sustainable fisheries (groundfish, tunas and 
        billfish, sardines and anchovies, squid), recovering protected 
        resources (abalone, salmon, coastal marine mammals, whales and 
        dolphins, sea turtles, and Hawaiian monk seals), and habitat 
        conservation (marine protected areas, essential fish habitat, 
        and Antarctic ecosystems). The Center was comprised of more 
        than 250 permanent staff based in four research facilities, 
        with a budget of up to $50 million annually, and utilizing four 
        high-seas research vessels. Concurrently served as U.S. 
        Commissioner to Inter-American Tropical Tuna Commission, 1994-
        1999, and Deputy U.S. Commissioner to IWC, 1994-2004. During 
        2001-2003, collaborated with Scripps Institution of 
        Oceanography to create the Center for Marine Biodiversity and 
        Conservation, culminating in a $3.5-million NSF Integrated 
        Graduate Education and Research Training Grant to establish a 
        new cross-disciplinary curriculum at Scripps.

    8/92 to 5/93--Acting Director, ES-4, Office of Protected Resources, 
National Marine Fisheries Service, Silver Spring, MD.

        Senior executive responsible for advising the Assistant 
        Administrator for Fisheries on policies and regulations 
        relating to implementation of the Endangered Species Act and 
        the Marine Mammal Protection Act. Oversaw the start-up of 
        recovery planning efforts for West Coast salmon stocks listed 
        under the Endangered Species Act. Served as the senior advisor 
        to the U.S. Commissioner to the IWC and in 1993 received the 
        Presidential Rank Award of Meritorious Executive for sustained 
        excellence in supporting U.S. goals of protecting whales 
        internationally and recovering protected species domestically.

    7/90 to 7/92--Deputy Assistant Administrator for Fisheries, ES-4, 
National Marine Fisheries Service, Silver Spring, MD.

        Senior executive responsible for directing the day-to-day 
        operations of the National Marine Fisheries Service, overseeing 
        the activities of more than 2,000 employees and an annual 
        budget of up to $250 million. As the agency's deputy director, 
        oversaw all fiscal, administrative, science, and regulatory 
        functions; coordinated and integrated operations with other 
        NOAA partners and other Federal, state, academic, and 
        international cooperators; and served as the agency's 
        spokesperson with Congress, constituents, and the media. 
        Testified before Congress on budgetary, management, and 
        programmatic issues. Served as the senior advisor to the U.S. 
        Commissioner to IWC and as the U.S. delegate to International 
        Council for the Exploration of the Sea (ICES).

    7/88 to 6/90--Senior Scientist for Fisheries, ES-4, National Marine 
Fisheries Service, Silver Spring, MD.

        Appointed to the Senior Executive Service as the senior 
        executive responsible for overseeing the field-based research 
        and science programs undertaken by 22 NMFS science facilities 
        and ensuring their proper integration and coordination with 
        related national and international efforts. Initiated the 
        program for improving scientific quality and credibility by 
        implementing peer reviews of the agency's science programs. 
        Initiated agency participation in NOAA's major, new Climate 
        Change and Coastal Ocean Programs that cut across NOAA's 
        organizational line offices; these required a major cultural 
        change within NMFS since agency scientists had to compete for 
        available funds. Served as the senior advisor to the U.S. 
        Commissioner to IWC, and appointed to serve as the U.S. 
        delegate to ICES.

    2/87 to 6/88--Chief, Conservation Science Division, GS-15, Office 
of Protected Resources, National Marine Fisheries Service, Washington, 
D.C.

        Oversaw protected resource science and research activities 
        funded by the office, managing seven staff and an annual budget 
        of up to $11 million. Also managed the agency's U.S. Antarctic 
        Marine Living Marine Resources Program of directed research 
        having an annual budget of $2 million. Served as the scientific 
        advisor to the U.S. Commissioner to IWC.

    11/83 to 1/87--Director, International Union for the Conservation 
of Nature, Conservation Monitoring Center, Cambridge, England.

        Served as the first professional director of the Center, which 
        provides information on the conservation status of wildlife and 
        their habitats worldwide. With a professional staff of 38, the 
        Center produced the prestigious series of Red Data Books and 
        Red Data Lists, which are used to define conservation issues 
        and to focus the efforts of IUCN and the World Wildlife Fund 
        International. Undertook strategic planning and fundraising 
        efforts that provided half the Center's funding. Chaired the 
        IWC Scientific Committee during the era when commercial catch 
        limits were phased out as a consequence of the moratorium on 
        commercial whaling.

    8/79 to 10/83--Director, National Marine Mammal Laboratory, GS-15, 
Northwest and Alaska Fisheries Science Center, National Marine 
Fisheries Service, Seattle, WA.

        Appointed first director of the laboratory established as the 
        principal source of scientific expertise on marine mammals 
        within NMFS. With a staff of 35, the laboratory undertook 
        research on the biology, life history, abundance, and 
        ecological roles of seals, dolphins and whales; their 
        interactions with fisheries; and the effects of environmental 
        change upon their populations. Continued personal research to 
        assess the status of whale stocks and led the U.S. scientific 
        team at IWC, also served as the Vice Chair of the IWC 
        Scientific Committee.

    5/78 to 7/79--Deputy Director, Marine Mammal Division, GS-14, 
Northwest and Alaska Fisheries Science Center, National Marine 
Fisheries Service, Seattle, WA.

        Assisted the director in developing plans for all research 
        undertaken and in its execution. Directly responsible for 
        preparing budgets, selecting and training personnel, arranging 
        contracts, and maintaining relationships with scientists of 
        other nations. Oversaw efforts to initiate a major new research 
        program to determine the status of bowhead whales. Continued 
        personal research to assess the status of whale stocks and led 
        the U.S. scientific team at the IWC's Scientific Committee.

    7/74 to 4/78--Leader, Cetacean Research Unit, GS-12/GS-13, Marine 
Mammal Division, Northwest and Alaska Fisheries Science Center, 
Seattle, WA.

        Supervised research to determine the status and trends of 
        bowhead whales, gray and humpback whales, and Dall's porpoise. 
        Also personally undertook research to assess the status of 
        commercially exploited whale stocks and participated in the 
        IWC's Scientific Committee, providing scientific support of 
        U.S. initiatives.

    8/72 to 6/74--Fishery Biologist, GS-12, Marine Fish and Shellfish 
Division, Northwest and Alaska Fisheries Science Center, Seattle, WA.

        Supervised a modeling study of the Bering Sea marine ecosystem. 
        Also spent 1 year at the University of Washington teaching the 
        graduate series in fish population dynamics.

    9/70 to 7/72--Pre-Doctoral Research Associate, Center for 
Quantitative Science in Forestry, Fisheries and Wildlife, University of 
Washington, Seattle, WA.

    6/68 to 6/70--Active Military Service, U.S. Army, 1st Lieutenant, 
Army Logistics Command, St. Louis, Captain, I Corps Group, South Korea.

    9/65 to 5/68--Teaching Assistant, College of Fisheries, University 
of Washington, Seattle, WA.
Honors and Awards
        U.S. Army Commendation Medal, 1970.

        Nominated for NMFS Employee of the Year, 1979.

        Presidential Rank Award, Meritorious Executive, 1993, for 
        sustained excellence in supporting U.S. goals of protecting 
        whales internationally and recovering protected species 
        domestically (included $10,000 cash bonus).

        Albert Schweitzer Medal, Animal Welfare Institute, 1994, for 
        whale conservation efforts (included $1,000 cash award).

        Presidential Appointment, U.S. Commissioner to the Inter-
        American Tropical Tuna Commission, 1994-1999.

        Presidential Appointment, Deputy U.S. Commissioner to the 
        International Whaling Commission, 1994-2004.

        Department of Commerce Bronze Medals for outstanding 
        contributions to international marine resource management: 
        1995: Fisheries bycatch in Chile; 1998: Tuna/dolphin 
        interactions; 2000: Japanese trade in whale products.

        Nominated for NOAA Distinguished Career Award, 2003.

        Senior Executive Service bonuses for outstanding performance 
        for 12 of the 15 years served, 1988-2004.
Professional Affiliations
        Fellow, American Institute of Fishery Research Biologists.

        Charter Member, Society for Marine Mammalogy.

        Research Associate, Scripps Institution of Oceanography, 
        University of California, San Diego, 1994-1999, 2003-Present.
Selected International Experience
        1974-1995, Member, IWC Scientific Committee (Elected Vice 
        Chairman 1979-1982, Elected Chairman 1982-1985).

        1978-1980, Member, INPFC ad hoc Committee on Marine Mammals.

        1979-1983 Member, Steering Committee for Marine Mammal Project, 
        US-USSR Agreement on Protection of the Environment.

        1980-1981, Member, North Pacific Fur Seal Commission's 
        Scientific Committee.

        1982-1990, Member, IUCN Species Survival Commission's Cetacean 
        Specialist Group (Chairman 1982-1983).

        1984-1987, Member, Steering Committee, IUCN Species Survival 
        Commission.

        1984, IUCN observer, CCAMLR.

        1985, Co-Head of IUCN Delegation, Fifth Conference of CITES 
        Contracting Parties.

        1987-present, Advisor to U.S. IWC delegation.

        1988, Member, CCAMLR Scientific Committee.

        1989-1991, Appointed U.S. Delegate to ICES.

        1989-1990, Member, U.S. Delegation, PICES negotiations.

        1993, Alternate U.S. Commissioner & Head of Delegation, 45th 
        Annual Meeting of IWC.

        1994-1999, U.S. Commissioner to IATTC.

        1994-2004, Deputy U.S. Commissioner to IWC.

        1994-present, Member Emeritus, IUCN Species Survival 
        Commission.

        1996-2003, U.S. Delegate to Interim Scientific Committee for 
        Tunas and Tuna-like Species in the North Pacific Ocean 
        (Chairman of ISC 1998-1999).

        1999-2003, Invited Member, International Scientific Review 
        Team, United Kingdom, Center for Environmental Fisheries and 
        Agriculture Science: Undertook peer review of CEFAS' science 
        and research programs.

        2004, 2007-2009, Member, U.S. delegation to IWC.

        2007, Invited participant and presentation at the Pew Symposium 
        on the Conservation of whales in the 21st Century, New York.
Committee Appointments
        NMFS Transition Board: Served for 2 years on team that led 
        successful efforts to reinvent NMFS.

        NMFS Executive Board: Served two-year term on newly established 
        board that advised the NMFS directorate.

        NOAA Operating Executive Resources Board: Served two-year term 
        on board advising NOAA directorate on Senior Executive Service 
        matters.

        DOC Chapter of SEA: Served two-year term on Board of Directors 
        of Senior Executive Association's Department of Commerce 
        chapter.

        NMFS PMAC: Served three-year term on NMFS Personnel Management 
        Advisory Committee.

        Leadership Council: Served on executive body comprised of the 
        Senior NMFS Executives.

        NMFS Science Board: Served on board comprised of NMFS Regional 
        Science Directors.

        1998-2003, Member External Advisory Board, Center for 
        Environmental Analysis, an NSF Center of Research Excellence in 
        Science and Technology, California State University at Los 
        Angeles (a Minority Serving Institution).

        2003-2005, Chair, Society for Marine Mammalogy's 16th Biennial 
        Conference.

        2003-2008, Member, Steering Committee for IGERT Program, Center 
        for Marine Biodiversity and Conservation, Scripps Institution 
        of Oceanography.
Item A.16 Primary Published or Creative Work--Michael F. Tillman, Ph.D.
    1. Grinols, R.B., and M.F. Tillman. Importance of the worldwide 
hake, Merluccius, resource. U.S. Fish. Wildl. Serv. Circ., 332:1-21. 
(1970) Review Article
    2. Tillman, M.F., and G.J. Paulik. Biological analysis of the 
northern anchovy fishery system. Univ. Wash., Center for Quant. Sci. 
Forest., Fish., Wildl. Quant. Sci. Pap. 28. 65 pp. (1971) Research 
Article
    3. Tillman, M.F. Assessment of north Pacific stocks of whales. Mar. 
Fish. Rev., 37(10): 1-4. (1975) Research Article
    4. Tillman, M.F. Additional evidence substantiating existence of 
northern subpopulation of northern anchovy, Engraulis mordax. Fish. 
Bull., U.S., 73(1):212-215. (1975) Research Note
    5. Tillman, M.F, and D. Stadelman. Development and example 
application of a simulation model of the northern anchovy fishery. Fish 
Bull., U.S., 74(1):118-130. (1976) Research Article
    6. Brown, G.M., J. Hammack, and M.F. Tillman. Mallard population 
dynamics and management models. J. Wildl. Manage., 40(3):542-555. Also: 
Resources for the Future Reprint 139. (1976) Research Article
    7. Tillman, M.F. Estimates of stock size for the north Pacific 
Bryde's whale. Rep. int. Whal. Commn., 27:176-179. (1977) Research 
Article
    8. Tillman, M.F. Trends in abundance of sperm whales in three areas 
of the north Pacific. Rep. int. Whal. Commn., 27:343-350. (1977) 
Research Article
    9. Tillman, M.F., and J.M. Breiwick. Estimates of stock size for 
exploitable north Pacific male sperm whales. Rep. int. Whal. Commn, 
27:180-185. (1977) Research Article
    10. Tillman, M.F. Estimates of population size for the North 
Pacific sei whale. Rep. int. Whal. Commn. (Special Issue 1): 98-106. 
(1977) Research Article
    11. Tillman, M.F., and J.M. Breiwick. Estimates of stock size for 
the Antarctic sei whale. Rep. int. Whal. Commn. (Special Issue 1):107-
112. (1977) Research Article
    12. Tillman, M.F. Extrapolated initial and current stock sizes for 
Southern Hemisphere sei whales. Rep. int. Whal. Commn., 28:313-314. 
(1978) Research Note
    13. Tillman, M.F. Modified DeLury estimates of the North Pacific 
Bryde's whale stock. Rep. int. Whal. Commn., 28:315-318. (1978) 
Research Article
    14. Tillman, M.F. Some theoretical considerations in the 
application of recruitment models to sei whale stock assessments. Rep. 
int. Whal. Commn., 28:469-472. (1978) Research Article
    15. Tillman, M.F. Estimates of abundance determined from catch per 
unit effort and age distribution data for stocks of Southern Hemisphere 
sei whales. Rep. int. Whal. Commn., 28:473-476. (1978) Research Article
    16. Mitchell, E.D., and M.F. Tillman. Scientific review of IWC 
Scientific Permits. Rep. int. Whal. Commn., 28:269-270. (1978) Note
    17. Tillman, M.F. Introduction: A scientific perspective of the 
bowhead whale problem. Mar. Fish. Rev., 42(9-10): 2-5. (1980) Review 
Article
    18. Tillman, M.F., and B. Grenfell. Estimates of abundance for the 
western North Pacific stock of Bryde's whales. Rep. int. Whal. Commn., 
30:369-373. (1980) Research Article
    19. Tillman, M.F. Estimated abundance of the Western North Pacific 
stock of Bryde's Whales. Rep. int. Whal. Commn., 31:385-388. (1981) 
Research Article
    20. Tillman, M.F., and D.G. Chapman. Further considerations of 
reasons for a more conservative approach to whale management. Rep. int. 
Whal. Commn., 31:601-604. (1981) Review Article
    21. Tillman, M.F., and S. Oshumi. Japanese Antarctic pelagic 
whaling prior to World War II: Review of catch data. Rep int. Whal. 
Commn 31:625-627. (1981) Review Article
    22. Tillman, M.F. Reanalysis of Area I [minke whale] sighting data 
by means of revised Doi model. Rep. int. Whal. Commn 32:738. (1982) 
Research Note
    23. Tillman, M.F. Mark-recapture estimates of abundance for minke 
whales in Southern Hemisphere Areas II and IV. Rep. int. Whal. Commn 
32:740-1. (1982) Research Article
    24. Tillman, M.F., and S.A. Mizroch. Mark-recapture estimates of 
abundance for the western North Pacific Stock of Bryde's whales. Rep. 
int. Whal. Commn 32:335-7. (1982) Research Article
    25. Tillman, M.F., and J.M. Breiwick. Estimates of abundance for 
the western North Pacific sperm whale based upon historical whaling 
records. Rep. int. Whal. Commn (Special Issue 5):257-269. (1983) 
Research Article
    26. Tillman, M.F., and G. Donovan (eds.). Special Issue on 
Historical Whaling Records. Including the Proceedings of the 
International Workshop on Historical Whaling Records. Rep. int. Whal. 
Commn (Special Issue 5), 269 pp. (1983) Book
    27. Tillman, M.F., J.M. Breiwick, and D.G. Chapman. Reanalysis of 
historical whaling data for the western Arctic bowhead whale 
population. Rep. int. Whal. Commn (Special Issue 5):143-146. (1983) 
Research Article
    28. Tillman, M.F., and J.M. Breiwick. A note on mark-recapture 
estimates for North Pacific Bryde's whales. Rep. int. Whal. Commn 
33:443-445. (1983) Research Article
    29. Breiwick, J.M., F. Kasamatsu, T. Miyashita, and M.F. Tillman. 
Stock estimates of Northwest Pacific Bryde's Whales. Rep. int. Whal. 
Commn 33:137-139. (1983) Research Article
    30. Tillman, M.F. A comment on the objectives of the proposal for a 
Japanese scientific permit. Rep. int. Whal. Commn 40:172-3. (1990) Note
    31. Mangel, M., et al., (41 co-authors including M.F. Tillman). 
Principles for the conservation of wild living resources. Ecol. Applic. 
6(2):338-62. (1996) Review Article
    32. Brownell, R.L., G. Notarbartolo di Sciara, P. Bergen, 
M.Tillman, and A.J. Read. Further scrutiny of scientific whaling. 
Science 290: 1696 (2000) Note
    33. Clapham, P., S. Childerhouse, N. Gales, L. Rojas, M. Tillman, 
and R. Brownell. The whaling issue: Conservation, confusion and 
casuistry. Marine Policy 31(3): 314-19. (2007) Review Article
    34. Tillman, M.F. The international management of aboriginal 
whaling. Reviews in Fisheries Science 16(4):437-44. (2008) Review 
Article
    35. Mizroch, S., M. Tillman, S. Jurasz, O. Von Ziegesar, L. Herman, 
A. Pack, S. Baker, J. Darling, D. Glockner-Ferrari, M. Ferrari, D. 
Salden, and P. Clapham. Long-term survival of humpback whales radio-
tagged in Alaska from 1976 through 1978. Marine Mammal Science. (2009, 
in review) Research Article
Other Work
    1. Hall, J.D., and M.F. Tillman. A survey of cetaceans of Prince 
William Sound and adjacent vicinity--their numbers and seasonal 
movements, Pp. 681-708. In Environ. Assess. Alaskan Cont. Shelf Annu. 
Rep. Princ. Invest. Vol. 1. Receptors-Mammals. (1977) Report
    2. Braham, H., B. Krogman, S. Leatherwood, W. Marquette, D. Rugh, 
M. Tillman, and J. Johnson. Preliminary report of the 1978 spring 
bowhead whale research program results. Rep. int. Whal. Commn., 30:291-
306. (1979) Report
    3. Tillman, M.F. Soviet time budget data for sperm whale 
operations. Annex K to Rep. of Special Meeting on Sperm Whale 
Assessment 27 November to 8 December 1978. Rep. int. Whal. Commn. 
(Special Issue 2): 129. (1980) Note
    4. Anon. Stock assessment activities within the National Marine 
Fisheries Service. NOAA Tech., Mem. NMFS-SWFC-12. 130 pp. (M.F. Tillman 
acknowledged as contributor). (1981) Technical Report
    5. Tillman, M.F. Review of, Conservation and Management of Whales 
by K. Radway Allen. J. Wildl. Manage., 45(4):1080 (1981) Book Review
    6. Tillman, M.F. Preliminary comments on the implementation of 
recovery planning for large cetaceans, Pp. 117-121. In P. Wray (ed.), 
Proceedings Northeast Endangered Species Conference, Center for Action 
on Endangered Species, Ayer, MA. (1982) Report
    7. Tillman, M.F. You want the data? We have them. IUCN Bull. 15(7-
9):89-92. (1984) Report
    8. Wachtel, P., and M.F. Tillman. WWF, IUCN step up efforts to curb 
trade in endangered species. Envir. Awareness 8(1):9-10. (1985) Report
    9. Tillman, M.F., and G.P. Donovan (eds.). Report of the workshop 
on the behavior of whales in relation to management. Rep. int. Whal. 
Commn (Special Issue 8): 1-56. (1986) Report
    10. Tillman, M.F. International effort to control marine debris in 
the Antarctic, Pp. 103-14. In R. S. Shomura and M. L. Godfrey (eds.), 
Proceedings of the Second International Conference on Marine Debris, 2-
7 April 1989, Honolulu, Hawaii. U.S. Dep. Commer., NOAA Tech. Memo., 
NOAA-TM-NMFS-SWFSC-154. (1990) Review Article
    11. Tillman, M.F. The International Whaling Commission: Whale 
conservation at the crossroads, Pp. 67-71. In S. Taylor (ed.), 
Proceedings of the American Cetacean Society Fourth Biennial 
Conference, They're Not Saved Yet, 9-11 November 1990, Monterey, 
California. American Cetacean Society. (1991) Review Article
    12. Tillman, M.F., J.M. Breiwick, and J.R. Twiss. Memories, Douglas 
George Chapman. Mar. Mammal Sci. 13(1):165-8. (1997) Obituary
    13. Tillman, M.F. The scientific and technical underpinnings of the 
moratorium on commercial whaling. Background paper contributed to the 
Pew Symposium on the State of Conservation of Whales in the 21st 
Century, April 2007, New York (unpublished). 12 pp (2007) Review 
Article
    14. Mizroch, S., M. Tillman, S. Jurasz, O. Von Ziegesar, L. Herman, 
A. Pack, S. Baker, J. Darling, D. Glockner-Ferrari, M. Ferrari, D. 
Salden, and P. Clapham. 2008. Long-term survival of humpback whales 
radio-tagged in Alaska from 1976 through 1978. Paper SC/60/O14 
presented to the IWC Scientific Committee, June 2008, Santiago, Chile 
(unpublished). 10 pp. (2008) Research Article
A. Work In Progress
    1. Tillman, M.F. The scientific and technical underpinnings of the 
moratorium on commercial whaling. (In prep.) Review Article
                Item A.12: Memberships in Organizations
Professional (membership only)
        1965-2003--American Fisheries Society

        1973-present--American Institute of Fisheries Research 
        Biologists

        1984-present--Society for Marine Mammalogy

        1988-2003--Senior Executives Association

        1998-2003--Society for Conservation Biology

        2001-2002--Society for the Advancement of Chicanos and Native 
        Americans in Science
Educational/Charitable (membership only)
        1997-present--Athenaeum Music & Arts Library

        2000-2006--La Jolla Historical Society

        2000--present--KSDS-Jazz88

        2001-present--California Native Plant Society

        2006-present--Quail Botanical Gardens

        2007-present--San Elijo Lagoon Conservancy

        2007-present--Batiquitos Lagoon Foundation

        2007-2009--San Dieguito Heritage Museum

        2007-present--Friends of Encinitas Library
Social/Fraternal (membership only)
        1965-present--University of Washington Alumni Association

    Senator Cantwell. Thank you, Dr. Tillman.
    Dr. Boness, thank you very much for being here.

       STATEMENT OF DARYL J. BONESS, CHAIRMAN-DESIGNATE, 
                    MARINE MAMMAL COMMISSION

    Dr. Boness. Thank you, Madam Chairman, Ranking Member 
Hutchison.
    I am honored to be here before you as President Obama's 
nominee for Chairman of the Marine Mammal Commission.
    Growing up in the midst of dairy farming and paper mill 
country in Wisconsin, I never could have imagined being given 
this opportunity to serve in such a capacity. At that point, 
marine mammals and the oceans were only pictures in my mind. It 
is truly a privilege, and I thank the President, and I thank 
you.
    My interest in science began in advanced biology in high 
school, and it was accelerated with encouragement of my 
undergraduate advisor, Dr. Neil Wylie, who I would like to 
thank for his guidance during those critical years of my 
education.
    I would also like to thank my family members, many mentors, 
and friends who have given me unfailing encouragement to pursue 
new challenges. And I would especially like to thank my wife, 
Leslie, who is here in the audience with us today, and my 
daughter Melissa, who, unfortunately, was unable to join us and 
is currently in Colorado.
    I did my graduate work in behavioral ecology in seals in 
the North Atlantic, and that was actually my first foray into 
marine mammal science. And in fact, it was not until I was an 
undergraduate in college that I actually first observed an 
ocean, and that was the Atlantic Ocean in Rockport, 
Massachusetts, where my wife and I first went.
    My early studies focused on basic biology and ecology of 
several seal species with the aim of advancing biological 
theories. However, through discussions with many of my 
colleagues during those early years, I gained an awareness of 
the need to contribute to conservation of marine mammals as 
well.
    It just so happens the opportunity and the appointment to 
the Marine Mammal Commission's Committee of Scientific Advisors 
on Marine Mammals gave me this opportunity. As a Member and 
then Chairman of that committee, I believe that I have made 
valuable contributions to promoting marine mammal research and 
conservation.
    I have also learned a great deal about the complex 
challenges involved. Indeed, although we continue to increase 
our scientific knowledge, marine mammals and our marine 
ecosystems are facing new, emerging threats, and the challenges 
of conservation are becoming even more complex and difficult.
    The Marine Mammal Protection Act has had a profound effect 
on the conservation of marine mammals and marine ecosystems. 
Yet as human populations have grown, so, too, have our 
interactions with marine mammals. Resolving the conflicts that 
arise will not be easy, but we must find workable solutions.
    We have already seen the extinction of two marine mammal 
species in my lifetime, this being the Caribbean monk seal and 
the Yangtze River dolphin. Several other marine mammal species 
are perilously close to extinction.
    In the face of such conservation challenges, I place a high 
value not only on improving our scientific knowledge, but also 
on fostering openness, fairness, and objectivity in applying 
that science to achieve sustainable solutions.
    [The prepared statement and biographical information of Dr. 
Boness follows:]

      Prepared Statement of Daryl J. Boness, Chairman-Designate, 
                        Marine Mammal Commission
    Chairman Rockefeller, Ranking Member Hutchinson, and distinguished 
members of the Committee, I am honored to be here before you as 
President Obama's nominee for Chairman of the Marine Mammal Commission. 
As a relatively naive high school student in the midst of dairy farming 
and paper mill country, I never could have predicted being given the 
opportunity to serve in such a capacity. Marine mammals and the oceans 
they inhabit only existed in pictures for me. It is truly a privilege 
and I thank the President, and I thank you.
    So, how did I get from there to here? I reached this point today 
because my family, mentors, and friends have given me unfailing 
encouragement to pursue new challenges. I have been blessed especially 
by the support of my parents, siblings, in-laws, and particularly my 
wife, Leslie, and daughter, Melissa. I grew up in a large family in 
central Wisconsin where my father worked in a paper mill. He taught me 
to respect our environment and natural resources, which in Wisconsin 
meant forests, fields, rivers, and lakes. He also taught me to hunt and 
fish as a means for putting food on the table. In those early years I 
did not reflect much on the wonder of those resources, or think about 
the fact that they would not be endless if managed in an unsustainable 
manner.
    My world expanded in high school, when I took advanced biology and 
was introduced to the challenge of not only reading about science but 
actually participating in it. The ideas and processes involved in 
discovering new information and resolving questions through research 
broadened my horizons. In college my advisor recognized my enthusiasm 
for science, provided me opportunities for independent research, and 
encouraged me to present my work at professional meetings and to 
publish my results. I would like to acknowledge Dr. Neil Wylie for that 
incredibly important encouragement and guidance during those critical 
years of my education and training. I did indeed become a research 
scientist.
    It was also during college that Leslie provided my first 
opportunity to see an ocean, the Atlantic, in Rockport, Massachusetts, 
not far from where she grew up. Although I don't remember seals from 
that snowy winter day, the ocean vista left a lasting impression of a 
world extending beyond my gaze, now open to me. I realize that my 
experiences as a teenager and a student gave me a deeper appreciation 
of our natural resources and the environment in which we live. I began 
noticing the clumps of foam and debris in the rivers and lakes I used 
to fish and seeing the black sidewalks covered in soot from the local 
foundry. These things were not new; I was just becoming more aware of 
them. The quality of the environment was not a strong concern in 
central Wisconsin in those days. However, from the time this august 
body passed the Marine Mammal Protection Act, the Endangered Species 
Act, and a whole suite of environmental legislation in the late 1960s 
and early 1970s, we have begun to see the great value in, and need for, 
conservation of our bountiful, but not endless, resources.
    In graduate school I studied the behavioral ecology of seals in the 
North Atlantic, my first foray into marine mammal science. While 
presenting my research at a conference, I met a Smithsonian scientist 
and learned that the National Zoological Park had an opening for a seal 
biologist. I applied, had the good fortune of getting the job, and 
began a career path that has led me to this position before you.
    At the Smithsonian National Zoo, I began as a curator responsible 
for some mammal exhibits, including those involving seals and sea 
lions. I was also expected to conduct a research program on these seal 
species. It was at this point that I began to recognize the importance 
of communicating the results of my studies to a broader audience, not 
just my colleagues and peers in science. I later held a full-time 
research position at the Zoo and expanded my research program. In this 
position as well, the Smithsonian strongly encouraged me to disseminate 
the results of my studies to a wide audience, and I share the 
Institution's conviction that science must be integrated into the many 
facets of our society.
    My early studies focused on the basic biology and ecology of 
several seal species with the aim of advancing biological theories. 
However, colleagues from the Smithsonian and elsewhere convinced me 
that such research is also vitally important for conservation, as is 
applied research.
    For me this increased awareness coincided, in the mid-1990s, with 
being appointed to the Marine Mammal Commission's Committee of 
Scientific Advisors on Marine Mammals.
    As a member, and then Chairman, of that committee, I believe that I 
have made valuable contributions to promote marine mammal research and 
conservation. I also have learned a great deal about the complex 
challenges involved. Indeed, although we continue to increase our 
scientific knowledge, marine mammals and our marine ecosystems are 
facing new, emerging threats, and the challenges of conservation are 
becoming even more complex and difficult.
    The Marine Mammal Protection Act has had a profound effect on the 
conservation of marine mammals and, indeed, marine ecosystems. Yet, as 
human populations have grown so, too, have our interactions with marine 
mammals, whether we are trying to make a living or simply enjoy the 
marine environment through recreation. Resolving the conflicts that 
arise will not be easy, but we must find workable solutions. We have 
already seen the extinction of two marine mammal species in my 
lifetime, the Caribbean monk seal and the Yangtze River dolphin. 
Several other marine mammal species are perilously close to extinction, 
including the North Atlantic and North Pacific right whales, the 
vaquita (a porpoise found only in the Gulf of California), and the 
Mediterranean and Hawaiian monk seals, all of which number in the 
hundreds.
    In the face of such conservation challenges, I place a high value 
not only on improving our scientific knowledge, but also on fostering 
openness, fairness, and objectivity in applying that science to achieve 
sustainable solutions. I believe these latter traits explain, in part, 
why I was asked to serve as editor of the leading scientific journal 
devoted to marine mammals and to serve multiple terms as a Scientific 
Advisor to the Marine Mammal Commission.
    The President's request that I now serve as Chairman of the Marine 
Mammal Commission is a great honor and privilege. If I am confirmed, 
the position will be a challenge but also an opportunity to help shape 
policies that will further the conservation of marine mammals and the 
ecosystems of which they are a part. Work with marine mammals has been 
a central focus throughout much of my life, and I believe that I have 
the necessary experience and motivation to guide the Commission as it 
fulfills its important mission. I have the utmost respect for the 
current members of the Marine Mammal Commission and its staff and the 
scientists and managers of the institutions and agencies that the 
Commission advises and oversees. Should I be confirmed, I welcome the 
chance to work cooperatively and productively with these agencies to 
further the goals of the Marine Mammal Protection Act.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Daryl John 
Boness.
    2. Position to which nominated: Chairman, Marine Mammal Commission.
    3. Date of Nomination: 20 January 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: I work from home--Hartford, ME 04220-5035.

    5. Date and Place of Birth: March 22, 1950; Neenah, WI.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Leslie Fern Poland Boness (spouse); retired from Maryland 
        National Capital Park & Planning Commission Employees' 
        Retirement System; child: Melissa Margann Boness (daughter); 32 
        yrs old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        BA in Psychology & Biology; Cornell College, Iowa, 1968-1972.

        MA in Psychology (Human Psychophysiology); Hollins College, 
        Virginia, 1972-1973.

        PhD in Psychology (Behavioral Ecology/Animal Behavior), 
        Dalhousie University, Halifax, Nova Scotia, 1973-1978 (degree 
        awarded in 1979).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Curator of Mammals, National Zoological Park, Smithsonian 
        Institution, 1978-1985.

        Research Zoologist, National Zoological Park, Smithsonian 
        Institution, 1985-1997.

        Chairman, Department of Zoological Research, National 
        Zoological Park, Smithsonian Institution, 1997-2000.

        Senior Scientist and Head, Department of Conservation Biology, 
        National Zoological Park, Smithsonian Institution, 2000-2003.

        Committee of Scientific Advisors to the Marine Mammal 
        Commission, 1993-present (Chairman of the Committee, 2008-
        present).

        Editor-in-Chief, for the scientific journal, Marine Mammal 
        Science, of the Society for Marine Mammalogy, 2007-present.

    Items noted in italics are managerial positions.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Review Panelist for the Marine Mammal Commission to Evaluate 
        the Effectiveness of the North Atlantic Right Whale Recovery 
        Program, March, 2006.

        One-time Service Contractor with North Pacific Research Board 
        (established by Congress) to review Steller Sea Lion Draft 
        Recovery Plan, 2007.

        Member of Pinniped-Fishery Interaction Task Force established 
        by the National Marine Fisheries Service under the Marine 
        Mammal Protection Act to advise the Secretary of Commerce on 
        management of California sea lions at Bonneville Dam preying on 
        salmon stocks listed under the Endangered Species Act, 2007-
        present.

        Chairman, Ordinance Committee for the Town of Hartford, Maine, 
        2008-present.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Research Professor, University of Maine (uncompensated).

        Graduate Student Thesis Committees, University of New England 
        (uncompensated).

        Co-advisor, Graduate Student Thesis, La Rochelle University, 
        France (uncompensated).

        Co-advisor, Graduate Student Thesis, Memorial University, 
        Canada (uncompensated).

        Senior Research Associate, Smithsonian Institution 
        (uncompensated).

        External Examiner on PhD Thesis, Macquarie University, 
        Australia.

        Member, Board of Governors, and Editor in Chief of journal 
        Marine Mammal Science, Society for Marine Mammalogy.

        Member, Board of Directors, Lake Anasagunticook Association, 
        Maine.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    None of the organizations below restrict membership based on the 
above factors:

        Lake Anasagunticook Association, Maine, (Director 2004-2007), 
        2000-present.

        Phi Beta Kappa, National Scholastic Honor Society, 1968-
        present.

        Beta Beta Beta National Biological Honor Society, 1967-present 
        (President of local chapter in 1968).

        Sigma Xi Scientific Research Society, 1981-present.

        Animal Behavior Society, 1992-2004.

        American Society of Mammalogists, 1984-2009.

        International Society for Behavioral Ecology, 1995-2002.

        Society for Conservation Biology, 1989-2000.

        Society for Marine Mammalogy, 1985-present (Board of Governors 
        and Editor-in-Chief of Society's scientific journal, 2007-
        present).

        Washington Biologists Field Club, 1998-present (inactive, Board 
        of Directors, 1998-2000).

        Stanton Bird Club 2008.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Chairman, Ordinance Committee for the Town of Hartford, Maine 
(appointed to standing committee by Board of Selectmen--no campaign 
involved).
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Beta Beta Beta National Biological Honor Society

        Phi Beta Kappa National Scholastic Honor Society

        Sigma Xi National Scientific Research Society

        Hollins College Graduate Fellowship

        Dalhousie University Graduate Fellowship

        National Research Council of Canada Graduate Fellowship

        Smithsonian Institution Exceptional Service Award, 1987

        Smithsonian Institution Personal Recognition for Ingenuity, 
        Drive, and Excellence, 1994, 1995

        Smithsonian 150th Anniversary Scholarly Leadership Award

        Smithsonian Merit Pay Award for Outstanding Performance as 
        Department Head, 1998, 2001

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    See attached list.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The Marine Mammal Commission was established under the Marine 
Mammal Protection Act of 1972. The Commission oversees Federal 
activities to promote the protection and conservation of marine mammals 
and maintain the health and stability of the ecosystems of which they 
are a part.
    During my entire career I have sought to advance our understanding 
of marine mammal behavior and ecology. Midway through my career, the 
Marine Mammal Commission appointed me to serve as a member of its nine-
member Committee of Scientific Advisors on Marine Mammals. I was 
honored to accept and I have served the Commission ever since.
    Prior to serving the Commission, had studied nearly half of all 
seal species worldwide to investigate questions related to their 
behavior, physiology, ecology, and genetics. Through my work on the 
Commission's Committee of Scientific Advisors for the past seventeen 
years, I have been able to expand my understanding of how scientific 
information contributes to conservation management and policy.
    As a member and then Chairman of the Committee of Scientific 
Advisors I believe that I have made valuable contributions toward 
marine mammal research and conservation. I also have learned a great 
deal about the complex challenges involved. Indeed, although we 
continue to increase our scientific knowledge, new threats are emerging 
and the challenges are becoming even more complex and difficult to 
address.
    As human populations have grown so, too, have our interactions with 
marine mammals, whether we are trying to make a living or simply enjoy 
the marine environment through recreation. Resolving the conflicts that 
arise will not be easy, but we must find workable solutions. We have 
already seen the extinction of two marine mammal species in my life 
time, the Caribbean monk seal and the baiji (Yangtze River dolphin). 
Several other marine mammal species are perilously close to extinction, 
including the North Atlantic right whale, the vaquita (a porpoise off 
Baja, Mexico) and the Mediterranean and Hawaiian monk seals, all of 
which number in the hundreds.
    In the face of such conservation challenges, I place a high value 
not only on improving our scientific knowledge, but also on fostering 
openness, fairness, and objectivity in applying that science. I believe 
these latter traits explain, at least in part, why I have been asked to 
serve as editor of the leading scientific journal devoted to marine 
mammals and to continue to serve as a Scientific Advisor to the Marine 
Mammal Commission for multiple terms.
    I consider the President's request that I now serve as Chair of the 
Marine Mammal Commission to be a great honor and a privilege. The 
position will be a challenge, but also a great opportunity to help 
shape policies that will further the conservation of marine mammals 
specifically, and marine ecosystems more generally. Work with marine 
mammals has been a central focus throughout much of my life, and I 
believe that I have the necessary experience and motivation to guide 
the Commission as it fulfills this important mission. I have the utmost 
respect for the scientists and managers of the institutions and 
agencies that the Commission oversees and welcome the chance to work 
cooperatively with them to further the goals of the Marine Mammal 
Protection Act.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Marine Mammal Commission is a relatively small agency that is 
comprised of approximately 14 staff, 9 members of the Committee of 
Scientific Advisors on Marine Mammals, and 3 Commissioners. The 
Department I led at the Smithsonian Institution was of similar size and 
composed of similar professional and support staff. I have experience 
in all facets of managing such an organization, including working 
through times of extreme budget constraints and competing programmatic 
needs.
    The Marine Mammal Commission has an excellent staff that includes 
an Executive Director who is responsible for guiding the complex and 
diverse tasks of the Commission's daily operations. My job should I be 
confirmed, in consultation with the two other Commissioners and the 
Executive Director, will be to set the agency's direction and oversee 
the entire operation of the Commission staff and Committee of 
Scientific Advisors. If confirmed, I expect to be in frequent contact 
with the other Commissioners, Committee members, and the Executive 
Director to assure that proper management and accounting controls 
continue to be followed and the Commission's priorities continue to be 
properly set. Should I be confirmed, I also anticipate visiting the 
Commission's office in Bethesda, Maryland, to meet with staff and 
discuss operational and programmatic issues on an as-needed basis.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The Marine Mammal Protection Act requires that management of marine 
mammal populations be based on the ``best scientific information 
available.'' In practice, the best scientific information may not be 
sufficient to resolve management issues with complete certainty. In the 
face of equivocal information, the greatest challenge often involves 
convincing stakeholders of the need to take action to prevent 
irreversible consequences (e.g., extinction), but also to prevent 
situations where the economic, ecological, and social costs of 
conservation remedies become excessive. Conservation truly is one of 
those endeavors in which an ounce of prevention is worth a pound of 
cure. In this regard, the Commission has long been known for 
communicating its recommendations and rationale clearly, for bringing 
stakeholders together to solve problems interactively, and for 
anticipating problems and devising solutions before costs and 
consequences become excessive. As Chair of the Commission I would 
maintain an anticipatory, interactive approach to problem-solving.
    Known and potential threats to marine mammals and marine ecosystems 
are numerous and often intertwined. In 2003 the Commission convened a 
multinational group of scientists to describe key threats to marine 
mammals and identify the research needed to inform management efforts. 
Based in large part on that review, I believe the most important issues 
include the effects of global climate change on marine mammals and 
marine ecosystems; the degradation of marine habitat through the 
introduction of pollutants and resulting unusual mortality events 
involving marine mammals, seabirds, fishes, and invertebrates; and, on 
a global basis, the continued loss of marine mammals as bycatch in 
fisheries.
    Finally, a continuing challenge for the Marine Mammal Commission is 
to improve research and management strategies for preventing marine 
mammal populations from becoming depleted, threatened, or endangered, 
and to improve the success of recovery efforts for those that have 
reached such status. Conservation efforts often are impaired 
significantly by lack of basic stock assessment information. A recently 
published evaluation of stock assessment efforts indicates that current 
methods are not sufficient to detect as much as a 50 percent decline in 
72 percent of large whale species, 78 percent of dolphins and porpoises 
and 100 percent of ice-breeding seal species. One of our significant 
challenges will be to identify and encourage innovations to overcome 
these assessment limitations. Without better methods to assess 
population trends and detect developing problems we will lose 
opportunities to address problems before they become crises, when 
solutions can be easier to develop and at substantially less cost.
    As part of this effort, the Marine Mammal Commission must continue 
to work closely with other agencies responsible for the conservation 
and management of marine mammals: the National Marine Fisheries Service 
and the Fish and Wildlife Service. Doing so is essential if we are to 
preserve the long-term well-being of marine mammal populations and the 
health and stability of the marine ecosystem, as directed by Congress 
when it passed the Marine Mammal Protection Act.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        Retired Federal employee (Smithsonian Institution) receiving a 
        monthly benefit.

        My spouse is retired from the Maryland National Capital Park & 
        Planning Commission Employees' Retirement System and has a 
        401(k) & 457 retirement account administered by ICMA Retirement 
        Corp.

        I presently receive a stipend from the Society for Marine 
        Mammalogy in support of serving as Editor-in-Chief of its 
        scientific journal.

        I presently receive compensation on an hourly basis for my 
        services as Chairman of the Marine Mammal Commission's 
        Committee of Scientific Advisors on Marine Mammals.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I have informally agreed to continue serving as Editor-in-Chief of 
Marine Mammal Science, the journal of the Society for Marine Mammalogy. 
I have been advised that potential conflicts of interest can be avoided 
through a recusal agreement, although I could resign from this position 
if necessary. My non-salaried Research Professorship at the University 
of Maine requires that I serve periodically on student thesis 
committees and collaborate with other researchers in the department or 
elsewhere, at my discretion. This appointment is renewed on an annual 
basis. I also could terminate this position at any time if necessary. 
At this time, I would prefer to maintain this position as I believe 
strongly in supporting the education of our next generation of research 
scientists.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Marine Mammal Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have 
transmitted to the Commission's designated agency ethics official and 
that has been provided to this committee. That said, I am not aware of 
any potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Marine Mammal Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have 
transmitted to the Commission's designated agency ethics official and 
that has been provided to this committee. That said, I am not aware of 
any potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    My wife and I gave testimony before the State of Maine 
Legislature's Committee on Natural Resources opposing a proposed bill 
that would have targeted our town for an unfair share of costs related 
to a dam in the neighboring town that controls a shared lake. However, 
we were not engaged by any party to present that testimony, which was 
given in our personal capacities.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Marine Mammal Commission's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have 
transmitted to the Commission's designated agency ethics official and 
that has been provided to this committee. I am not aware of any other 
potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                  curriculum vitae of daryl j. boness
Present Position
Research Professor
Department of Wildlife Ecology
  and School of Marine Science
University of Maine
Orono, ME
Senior Scientist (Retired)
Conservation and Research Center
National Zoological Park
Smithsonian Institution
Washington, DC
Education
B.A. Cornell College, Iowa
M.A. Hollins College, Virginia
Ph.D. Dalhousie University, Nova Scotia
1972 Biology and Psychology
1973 Human Psychophysiology
1979 Behavioral Ecology (in Psychology)
Honors and Awards
B.A. Degree, Magna Cum Laude

Beta Beta Beta, National Biological Honor Society, 1971 (Chapter 
    President)

Phi Beta Kappa, National Scholastic Honor Society, 1972

Hollins College Graduate Fellowship, 1972 to 1973

Dalhousie University Graduate Fellowship, 1973 to 1975

National Research Council of Canada Graduate Fellowship, 1975 to 1978

Sigma Xi Research Society, 1981

Smithsonian Institution Exceptional Service Award, 1987

Smithsonian Institution Personal Recognition for Ingenuity, Drive, and 
    Excellence, 1994, 1995

Smithsonian 150th Anniversary Scholarly Leadership Award, 1996

Smithsonian Merit Pay Award for Performance as Department Chair, 1998

Smithsonian Merit Pay Award for Outstanding Performance as Department 
    Head, 2001
Professional Experience
Curator of Mammals: In charge of aquatic vertebrate (seal, beaver, and 
otter), bear, canid, and felid collections; supervised 11 animal 
keepers; assisted in the design of an aquatic habitat complex 
($12,000,000; never completed); performed research in the field and at 
the zoo; 1978 to 1985

Research Zoologist: Responsible for conducting original research on 
marine mammal behavior and advising zoo husbandry staff on seal 
husbandry and water quality; 1985 to 1996

Acting Assistant Director for Research, National Zoological Park: 
Headed the Research Department while the Assistant Director for 
Research was on sabbatical; supervised department staff (7 staff 
research scientists, 8 postdoctoral associates, and 7 graduate 
students); chaired the Research Council (a review and policy-making 
board of 17 Ph.D. or D.V.M. staff); represented the research interests 
of the Zoo at high-level Zoo and Smithsonian meetings; December 1986 to 
April 1987

Scientific Advisor, U.S. Marine Mammal Commission, executive branch; 
1993 to present

Research Professor, Department of Biology, American University; 1994 to 
2003

Acting Head, Department of Zoological Research: completed six-month 
detail as Head of the Department following abolishment of the Assistant 
Director's position (the previous position that had responsibility for 
running the Department) and in the interim to establishing a rotating 
Department Chair. I had ultimate responsibility for running the 
Department of Zoological Research, which consisted of 7 research 
scientists (GS-12 to Senior Scientist level), 9 technical and 
administrative support staff, and a varying number of associates, 
postdoctoral fellows, and graduate and undergraduate students; November 
1996 to May 1997

Chairman, Department of Zoological Research, National Zoological Park: 
I had ultimate responsibility for running the Department of Zoological 
Research, which consisted of 11 research scientists (GS-12 to Senior 
Scientist level), 10 technical and administrative support staff, and a 
varying number of associates, postdoctoral fellows, and graduate and 
undergraduate students. The Department included a molecular genetics 
laboratory, comparative nutrition laboratory, a sound and video 
analysis laboratory, a migratory bird center, and a public science 
education exhibit area with several functional labs open to the public; 
May 1997 to September 2000

Senior Scientist and Head, Department of Conservation Biology, National 
Zoological Park: In a reorganization of the Zoo, several operations 
were merged into a new department, which I headed. The department 
consists of 24 research scientists (GS-12 to Senior Scientist level), 
12 technical and administrative support staff, and varying numbers of 
associates, postdoctoral fellows, and graduate and undergraduate 
students. The department is comprised of several units: Genetics; 
Comparative and Clinical Nutrition; Behavior, Ecology and Population 
Biology; Migratory Bird Center; Monitoring and Assessment of 
Biodiversity Program; International Wildlife and Conservation Training 
Program and Public Science Outreach. The mission of the department is 
to advance the preservation of biodiversity through research, 
conservation activities, training of young professionals and public 
education; May 1997 to December 2003

Adjunct Professor, Department of Biology, Dalhousie University, Canada; 
1999 to 2003

Adjunct Professor, Department of Biology, La Rochelle University, 
France; 1999 to 2004

Smithsonian Senior Scientist (retired and Research Associate); January 
2004 to present

Research Professor, Department of Wildlife Ecology and School of Marine 
Science, University of Maine, Orono; July 2005 to present

Member, Committee of Scientific Advisors for the U.S. Marine Mammal 
Commission; December 1993 to present (Chairman, 2008 to present)

Editor-in-Chief of Marine Mammal Science, the scientific journal of the 
Society for Marine Mammalogy; December 2007 to present
Professional Organizations
American Society of Mammalogists (currently inactive)

Animal Behavior Society (currently inactive)

Society for Marine Mammalogy (Charter Member)

Society for Conservation Biology (currently inactive)

International Society for Behavioral Ecology (currently inactive)

Washington Biologists Field Club (Life Member)
Committees and Appointments
Within Smithsonian:
    National Zoological Park Ad Hoc Children's Zoo Committee, 1985 to 
1986

    National Zoological Park Information Services Panel, 1985 to 1988

    National Zoological Park Water Quality Control Committee, 1986 to 
1989 (Chairman, 1986)

    Smithsonian Institution Academic Program Committee for 
Environmental Sciences, 1987 to 1989

    National Zoological Park Committee on Science and Exhibits, 1987 to 
1989 (Chairman)

    National Zoological Park Institutional Animal Care and Use 
Committee, 1989 to 1993

    National Zoological Park Research Council, Chairman, 1993 to 2001

    Smithsonian Institution Congress of Scholars, representative for 
National Zoological Park, 1994 to 1997

    Planning Committee, Learning is a Family Experience Education 
Program, National Zoological Park, 1994 to 1997

    National Zoological Park Committee on Technology and Education, 
1995 to 1999

    National Zoological Park/Smithsonian Institution Fellowship Review 
Committee Chair, 1995 to 2003

    National Zoological Park Planning and Design Committee for new 
exhibit on water, 1997 to 2000

    Session Facilitator, pan-Smithsonian conference on research and 
educational outreach, 1997

    Member of the National Zoological Park Senior Management Team ( 
advise the Director on Zoo on policy and direction), 1997 to 2003

    Smithsonian Institution Grant Review Panel for Seidell Foundation 
Grants, 1997 to 2003

    Interagency Review of Grade Evaluation of Research Scientists, 1998
Outside Smithsonian:
    Board of Scientific Advisors, Okeanos Oceanographic Foundation, 
1980 to 1996

    Professional Consultant, Graduate Studies in Museum Sciences, 
George Washington University, 1981 to 1984

    Chair, Behavior Session, International Marine Mammal Conference, 
1989

    Conference Awards Committee, Marine Mammal Society, 1991

    Institute of Museum Services, Conservation Program Grants, Field 
Reviewer, 1994

    Institute of Museum Services, Panel to Review the Program for 
Conservation Grants, 1994

    Chair, Behavior Session, International Marine Mammal Conference, 
1995

    Student Awards Judge, International Marine Mammal Conference, 1995

    Review Panel to Evaluate the Hawaiian Monk Seal Research Program, 
U.S. National Marine Fisheries Service, NOAA, 1995

    Review Panel to Evaluate Pinniped Research Program, Alaska 
Department of Fish and Game, 1995

    Scientific Review Board for GulfCet II Project, Texas Institute of 
Oceanography, Texas A&M University at Galveston, 1996 to 1999

    Review Panel Institute of Museum Services Conservation Program 
Grants, 1996

    Marine Mammal Negotiated Rulemaking Advisory Committee (Observer 
for Marine Mammal Commission), U.S. Department of Agriculture, Animal 
and Plant Health Inspection Service, 1996

    Member, Organizing Committee, Animal Behavior Society Annual 
Meeting, 1997

    Member, Marine Mammal Committee, American Society of Mammalogists, 
1997 to 2006

    Abstract Review Committee (Behavior Chair), International Marine 
Mammal Conference, 1997

    Abstract Review Committee, Symposium on Hawaiian and Mediterranean 
Monk Seal Conservation and Biology, 1997

    Review Panel to Evaluate Steller Sea Lion Recovery Program 
(Behavior), U.S. National Marine Fisheries Service, NOAA, 1997

    Steering Committee, Millennium Marine Mammal Symposium at Annual 
Meeting, American Society of Mammalogists, 1998 to 1999

    Nominated for President-Elect, Society for Marine Mammalogy, 1998 
(not elected)

    Session Chair, Human and Animal Acceptability Studies, Sonic Boom 
Symposium, Acoustical Society of America, 1998

    Review Panel to Evaluate Marine Mammal Research Programs, Office of 
Naval Research, 1998

    Elected to Washington Biologists Field Club, 1998 to present (Board 
Member, 1999, 2000)

    Review Panel to Evaluate Steller Sea Lion Recovery Program 
(Physiology), U.S. National Marine Fisheries Service, NOAA, 1999

    Scientific Program Committee (Mating Behavior and Reproduction 
Subcommittee Chair), 13th Biennial International Marine Mammal 
Conference, 1999

    Associate Editor, Marine Mammal Science, 2000 to 2005

    Member, Selection Committee to Recommend Hiring a Scientific 
Program Director, U.S. Marine Mammal Commission, 2000

    Ad Hoc Selection Committee for American Association for the 
Advancement of Science, Diplomacy Fellowship Program, 2001

    Invited participant for workshop on Implementation of Education 
Reform in Conservation Biology sponsored by George Mason University and 
funded by the U.S. Department of Education, 2001

    Abstract Review Committee, International Marine Mammal Conference, 
Vancouver, BC, 2001

    Review Panel to Evaluate Research and Management Program for 
Hawaiian Monk Seals, Marine Mammal Commission and National Marine 
Fisheries Service, Honolulu, 2002

    Consulted for Marine Mammal Commission and Fish and Wildlife 
Service to evaluate captive polar bears in a circus in Puerto Rico, 
November 2002

    Rapporteur for a section of a working group to develop a plan to 
manage the potential conflicts associated with the increase in Hawaiian 
monk seals at the main Hawaiian Islands, December 2002

    Invited participant for Consultation on Future Directions in Marine 
Mammal Research, co-convened by the Marine Mammal Commission and the 
National Fish and Wildlife Foundation, Portland, OR, August 2003

    Participated in review of science synthesis document and advised on 
animal welfare issues in research for a Federal advisory panel to the 
Marine Mammal Commission on Effects of Ocean Noise on Marine Mammals, 
2004 to 2005

    Review Panel to Evaluate the Effectiveness of the North Atlantic 
Right Whale Recovery Program, March 2006

    NOAA Fisheries Pinniped-Fishery Interaction Task Force to advise 
Secretary of Commerce on lethal take option for California sea lions 
preying on ESA listed salmon at the Bonneville Dam, September 2007 to 
2009

    Board of Governors of the Society for Marine Mammalogy, December 
2007 to present
Reviewer for Journals and Grants
Journals:
    American Naturalist

    Animal Conservation

    Animal Behaviour

    Aquatic Mammals Behaviour

    Behavioral Ecology

    Behavioral Ecology and Sociobiology

    Biological Conservation

    Biological Journal of the Linnaean Society Bioacoustics

    Brazilian Archives Biology and Technology

    Canadian Journal of Zoology

    Comparative Biochemistry and Physiology

    Ecological Applications

    Ethology

    Journal of Animal Ecology

    Journal of Mammalogy

    Journal Marine Biological Association, UK

    Journal of Wildlife Management

    Marine Ecology Progress Series

    Marine Mammal Science

    Nature

    Proceedings of the Royal Society

    Wildlife Research
Granting Agencies:
    Center for Field Studies

    Florida Sea Grant Program

    National Geographic Society

    National Institutes of Health

    National Science and Engineering Research Council, Canada

    National Science Foundation

    Natural Environment Research Council, UK

    Inter-American Foundation

    Institute of Museum Service, Conservation Whitehall Foundation

    Australian Research Council

    American Philosophical Society
Grants Received
    Walrus behavior (with E.H. Miller)
        National Geographic Society, World Wildlife Fund Canada, 
        Smithsonian Institution Research Opportunities Fund, (1980) 
        $21,500

    Resident microflora of grey seals
        Friends of the National Zoo, Okeanos Foundation (1981) $13,800

    Maternal strategy of the California sea lion (with O.T. Oftedal and 
K.A. Ono)
        Friends of the National Zoo (1981 to 1986) $110,430
        American Museum of Natural History, Lerner-Grey Fund (1983) 
        $1,000
        Center for Environmental Education, (1984) $1,000

    Lactation in hooded and harp seals (with O.T. Oftedal and W.D. 
Bowen)
        Smithsonian Institution Research Opportunities Fund (1984) 
        $4,700
        Department of Fisheries and Oceans Canada (in-kind ship and 
        helicopter support) $300,000

    Hawaiian monk seal fostering behavior
        Smithsonian Institution Research Opportunities Fund (1986) 
        $4,000
        Friends of the National Zoo (1987 to 1989) $43,000
        National Marine Fisheries Service (1987 to 1989) (in-kind ship 
        and field support through W. Gilmartin) $39,000

    Lactation and maternal care in harbor seals (with O.T. Oftedal)
        Friends of the National Zoo (1988 to 1992) $99,700
        Smithsonian Institution Research Opportunities Fund (1987) 
        $3,200

    Mating and lactation strategies of the Juan Fernandez fur seal 
(with J.M. Francis)
        Friends of the National Zoo (1988 to 1991) $70,000
        National Geographic Society (1990) $8,300
        Smithsonian International Exchange Program (1990) $8,500
        Smithsonian Scholarly Studies Grant (1990 to 1991) $76,230

    Long-term studies of life history and reproductive success of 
female harbor and grey seals on Sable Island, Nova Scotia (with W.D. 
Bowen and S.J. Iverson)
        Department of Fisheries and Oceans, Canada (1988 to 2003) (in-
        kind field support, through W.D.B.) $120,000
        Friends of the National Zoo (1988 to 2003) $75,000
        National Science and Engineering Research Council of Canada 
        (1993 to 2003) (in-kind field and lab support, through W.D.B. 
        and S.J.I.) $35,000
        Christensen Fund (2002 to 2003) $94,000

    How prevalent is fostering behavior in the harbor seal?
        Friends of the National Zoo (1991 to 1992) $21,800

    Male copulatory success in three species of fur seals interbreeding 
on Macquarie Island (with S. Goldsworthy)
        Australian Antarctic Science Advisory Committee (1992 to 1993) 
        $208,636
        Friends of the National Zoo (1994) $21,000

    Do inclusive fitness benefits contribute to fostering in colonially 
breeding phocid seals? (with E. Perry and R. Fleischer)
        Smithsonian Scholarly Studies Grant (1993 to 1994) $42,500

    An underwater video system to investigate the aquatic mating system 
of the harbor seal
        National Geographic Television (with G. Marshall) (1994 to 
        1995) $12,000
        Smithsonian Institution Restricted Endowment Funds (1994 to 
        1996) $17,100

    International symposium on the reproductive strategies and 
conservation biology of otariid seals (April 1996)
        Wildlife Conservation Society (with P. Majluf) (1995) $8,000
        Office of Naval Research (with P.Majluf) (1995) $7,500
        Smithsonian Institution (Office of Fellowships and Grants, 
        150th Anniversary) $10,000
        QANTAS Airways Ltd. (1996) $10,400 (in-kind support)

    The effects of sonic booms on the behavior and physiology of grey 
and harbor seals
        National Atmospheric and Space Administration (1996 to 1998) 
        $254,754

    Bringing biological sciences to the Latino community: the Latino 
initiative at the National Zoological Park (an educational outreach and 
training grant) (with D. Jenkins, M. Roberts, C. Ruiz, and A. Cerezo)
        Office of the Provost, Smithsonian Institution (1997 to 1998) 
        $90,000

    A natural experiment on the effect of environmental changes on 
mating systems (with P. Majluf)
        Smithsonian Research Opportunities Funds ,$1,500
        Smithsonian Scholarly Studies Grant (1997 to 1998) $67,570

    Foraging and attendance patterns in Humboldt penguins (with S. 
Taylor, M. Leonard, and P. Majluf)
        Friends of the National Zoological Park (1998) $6,000
        George S. Sisley Endowment Fund (1998) $5,400
        Oregon Zoo Foundation (1998 to 1999) $6,738

    An investigation of mate choice in South American fur seals using 
GPS technology (with S. Insley)
        Smithsonian Restricted Endowment Grant (1998) $10,000
        Smithsonian Scholarly Studies Grant (1998 to 1999) $24,000

    Variation in pup survival in heat-stressed populations of South 
American fur seals: Effects of habitat features, social environment and 
behavior
        Abbott Restricted Endowment Fund (2000) $3,000
        George S. Sisley Endowment Grant (2001) $5,340

    Alternative male reproductive tactics in the grey seal: a new 
approach
        Friends of the National Zoo (1997 to 2003) $41,000
        Abbott Restricted Endowment Fund (2000 to 2001) $14,300
        Smithsonian Scholarly Studies Grant (2002 to 2003) $68,912

    Sustaining conservation programs at the Smithsonian Conservation 
and Research Center (with C. Wemmer and S. Derrickson), supports 
multiple projects of Center scientists
        Christensen Fund (2002 to 2003) $1,200,000

    Sex differences in foraging behavior of thick-billed murres (with 
R. Paredes)
        Abbott Restricted Endowment Fund (2002) $9,500

    Longitudinal study of male mating tactics in grey seals of varying 
ages
        Friends of the National Zoo (2003) $5,000
        Abbott Restricted Endowment Fund (2004) $8,000

    Post-weaning fast and physiological development in juvenile and 
yearling grey seals (with S. Noren-Kramer)
        Friends of the National Zoo (2003) $4,000

    Capital expenditure, lactation energetics and the importance to 
Weddell seals and their pups (with O. Oftedal and R. Eisert)
        National Science Foundation, Office of Polar Programs (2006 to 
        2008) $393,887
                                 ______
                                 
             Item A.16 Primary Published Work and Speeches 
                 Daryl J. Boness, Ph.D.--February 2010
Peer-Reviewed Publications in Journals and Books
    1. Boness, D.J., and Wylie, N.R. 1971. Experiential factors affect 
red and blue color preferences in neonatal chickens, Gallus gallus. 
Proceedings of the Iowa Academy of Sciences 77:271-275.
    2. McGuigan, F.J., and Boness, D.J. 1975. What happens between an 
external stimulus and an overt response? A study of covert behavior. 
Pavlovian Journal of Biological Science 10:112-118.
    3. Miller, E.H., and Boness, D.J. 1979. Remarks on the display 
function of the snout of the grey seal, Halichoerus grypus (Fab.), with 
comparative notes. Canadian Journal of Zoology 57:140-148.
    4. Boness, D.J., and James, H. 1979. The reproductive behavior of 
the grey seal (Halichoerus grypus) on Sable Island, Nova Scotia. 
Journal of Zoology (London) 188:477-500.
    5. Montali, R., Bush, M., Strandberg, J., Janssen, D.L., Boness, 
D.J., and Whitla, J.C. 1981. A cyclic dermatitis in pinnipeds 
associated with Fusarium solani. Journal of the American Veterinary 
Medical Association 179:1198-1203.
    6. Boness, D.J., Anderson, S.S., and Cox, C.R. 1982. Functions of 
female aggression during the pupping and mating season of grey seals 
(Halichoerus grypus Fabricius). Canadian Journal of Zoology 60:2270-
2278.
    7. Miller, E.H., and Boness, D.J. 1983. Summer behavior of Atlantic 
walruses, Odobenus rosmarus rosmarus at Coats Island, N.W.T. (Canada). 
Zietschrift fur Saugertierkunde 48:298-313.
    8. Boness, D.J. 1984. Activity budget of male grey seals, 
Halichoerus grypus. Journal of Mammalogy 65:291-297.
    9. Bowen, W.D., Oftedal, O.T., and Boness, D.J. 1985. Birth to 
weaning in 4 days: Remarkable growth in the hooded seal, Cystophora 
cristata. Canadian Journal of Zoology 63:2841-2846.
    10. Boness, D.J. 1985. The role of zoos in the conservation of 
marine mammals. Proceedings of the Symposium on Endangered Marine 
Animals and Marine Parks 1:429-439.
    11. Bowen, W.D., Boness, D.J., and Oftedal, O.T. 1987. Mass 
transfer from mother to pup and subsequent mass loss by the weaned pup 
in the hooded seal, Cystophora cristata. Canadian Journal of Zoology 
65:1-8.
    12. Oftedal, O.T., Boness, D.J., and Tedman, R. 1987. The behavior, 
physiology and anatomy of lactation in the Pinnipedia, Current 
Mammalogy 1:175-245.
    13. Ono, K.A., Boness, D.J., and Oftedal, O.T. 1987. The effect of 
a natural environmental disturbance on maternal investment and pup 
behavior in the California sea lion. Behavioral Ecology and 
Sociobiology 21:109-118.
    14. Oftedal, O.T., Iverson, S.J., and Boness, D.J. 1987. Milk and 
energy intakes of suckling California sea lion (Zalophus californianus) 
pups in relation to sex, growth and predicted maintenance requirements. 
Physiological Zoology 60:560-575.
    15. Thompson, S.D., Ono, K.A., Oftedal, O.T., and Boness, D.J. 
1987. Thermoregulation and resting metabolic rates in the California 
sea lion, Zalophus californianus. Physiological Zoology 60:730-736.
    16. Boness, D.J., Bowen, W.D., and Oftedal, O.T. 1988. Evidence of 
polygyny from spatial patterns in the hooded seal (Cystophora 
cristata). Canadian Journal of Zoology 66:703-706.
    17. Oftedal, O.T., Boness, D.J., and Bowen, W.D. 1988. The 
composition of hooded seal (Cystophora cristata) milk: An adaptation 
for postnatal fattening. Canadian Journal of Zoology 66:318-322.
    18. Oftedal, O.T., Bowen, W.D., Widdowson, E., and Boness, D.J. 
1989. Effects of suckling and the postsuckling fast on weights of the 
body and internal organs of harp and hooded seal pups. Biology of the 
Neonate 56:283-300.
    19. Boness, D.J. 1990. Fostering in Hawaiian monk seals: is there a 
reproductive cost? Behavioral Ecology and Sociobiology 27:113-122.
    20. Boness, D.J. 1991. The determinants of mating systems in the 
Otariidae (Pinnipedia). In: Behaviour of Pinnipeds, D. Renouf (ed.). 
Chapman: London, Pp. 1-44.
    21. Boness, D.J., Oftedal, O.T., and Ono, K.A. 1991. The effects of 
El Nino on pup development in the California sea lion. 1. Early 
postnatal growth. In: Pinnipeds and El Nino: Responses to Environmental 
Stress, F. Trillmich and K.A. Ono (eds.), SpringerVerlag: Hiedelberg. 
Pp. 173-179.
    22. Iverson, S.J., Oftedal, O.T., and Boness, D.J. 1991. The 
effects of El Nino on pup development in the California sea lion. 2. 
Milk and energy intake. In: Pinnipeds and El Nino: Responses to 
Environmental Stress, F. Trillmich and K.A. Ono (eds.), SpringerVerlag: 
Hiedelberg. Pp. 180-184.
    23. Ono, K.A., and Boness, D.J. 1991. The influence El Nino on 
mother-pup behavior, pup ontogeny and sex ratios in the California sea 
lion. In: Pinnipeds and El Nino: Responses to Environmental Stress, F. 
Trillmich and K.A. Ono (eds.), Springer-Verlag: Hiedelberg. Pp. 185-
192.
    24. Heath, C.B, Ono, K.A., Boness, D.J., and Francis, J.M. 1991. 
The influence of El Nino on female attendance patterns in the 
California sea lion. In: Pinnipeds and El Nino: Responses to 
Environmental Stress, F. Trillmich and K.A. Ono (eds.), Springer-
Verlag: Hiedelberg. Pp. 138-145.
    25. Oftedal, O.T., Bowen, W.D., Widdowson, E., and Boness, D.J. 
1991. The prenatal molt and its ecological significance in hooded and 
harbor seals. Canadian Journal of Zoology 69:2489-2493.
    26. Francis, J.F., and Boness, D.J. 1991. The effect of 
thermoregulatory behaviour on the mating system of the Juan Fernandez 
fur seal, Arctocephalus phillippii. Behaviour 119:104-127.
    27. Boness, D.J., Bowen, W.D., Iverson, S.J., and Oftedal, O.T. 
1992. Influence of storms and maternal size on mother-pup separations 
and fostering in the harbor seal, Phoca vitulina. Canadian Journal of 
Zoology 70:1640-1644.
    28. Bowen, W.D., Oftedal, O.T., and Boness, D.J. 1992. Mass and 
energy transfer during lactation in a small phocid, the harbor seal, 
Phoca vitulina. Physiological Zoology 65(4):844-866.
    29. Boness, D.J., Bowen, W.D., and Francis, J.M. 1993. Implication 
of DNA fingerprinting for understanding mating systems and reproductive 
strategies of pinnipeds. Symposia of the Zoological Society of London 
66:61-93.
    30. Iverson, S.J., Bowen, W.D., Boness, D.J., and Oftedal, O.T. 
1993. The effect of maternal size and milk energy output on pup growth 
in the grey seal, Halichoerus grypus. Physiological Zoology 66:61-88.
    31. Oftedal, O.T., Bowen, W.D., and Boness, D.J. 1993. Energy 
transfer in lactating hooded seals and nutrient deposition in their 
pups during the 4-days from birth to weaning. Physiological Zoology 
66:412-436.
    32. Ono, K.A., Boness, D.J., Oftedal, O.T., and Iverson, S.J. 1993. 
The effects of El Nino on mother-pup biology in the California sea 
lion. In: Third California Islands Symposium: Recent Advances in 
Research on the California Islands, F.G. Hochberg (ed.). Santa Barbara 
Museum of Natural History: Santa Barbara, Pp. 495-499.
    33. Boness, D.J., Bowen, W.D., and Oftedal, O.T. 1994. Evidence of 
a maternal foraging cycle resembling that of otariid seals in a small 
phocid, the harbor seal. Behavioral Ecology and Sociobiology 34:95-104.
    34. Bowen, W.D., Oftedal, O.T., Boness, D.J., and Iverson, S.J. 
1994. The effect of maternal age and other factors on birth mass in the 
harbour seal. Canadian Journal of Zoology 72:8-14.
    35. Boness, D.J., Bowen, W.D., and Iverson, S.J. 1995. Does male 
harassment of females contribute to reproductive synchrony in the grey 
seal by affecting maternal performance? Behavioral Ecology and 
Sociobiology 36:1-10.
    36. Job, D.A., Boness, D.J. and Francis, J.M. 1995. Individual 
variation in vocalizations of Hawaiian monk seal, Monachus 
schauinslandi, pups and lack of maternal recognition. Canadian Journal 
of Zoology 73:975-983.
    37. Iverson, S.J., Oftedal, O.T., Bowen, W.D. Boness, D.J. and 
Sampugna, J. 1995. Prenatal and postnatal transfer of fatty acids from 
mother to pup in the hooded seal (Cystophora cristata). Journal of 
Comparative Physiology, 165:1-12.
    38. Boness, D.J. 1996. Water quality management in aquatic mammal 
exhibits. In: Wild Mammals in Captivity, D.G. Kleiman, M.E. Allen S. 
Lumpkin, and H. Harris (eds.), Chicago: University of Chicago Press, 
Pp. 231-242.
    39. Boness, D.J. and Bowen, W.D. 1996. The evolution of maternal 
care in pinnipeds. Bioscience 46:1-10.
    40. Ono, K.A., and Boness, D.J. 1996. Sexual dimorphism in sea lion 
pups, Zalophus californianus: differential maternal expenditure or sex-
specific differences in energy use by the pup. Behavioral Ecology and 
Sociobiology 38:31-41.
    41. Oftedal, O.T., Bowen, W.D., and Boness, D.J. 1996. Lactation 
performance and nutrient deposition in pups of the harp seal, Phoca 
groenlandica, on the ice floes off southeast Labrador. Physiological 
Zoology 69:635-657.
    42. Coltman, D.W., Bowen, W.D., Boness, D.J., and Iverson, S.J. 
1997. Striking a balance between foraging and reproduction in the male 
harbour seal: an aquatically mating pinniped. Animal Behaviour 54:663-
678.
    43. Perry, E.A., Boness, D.J., and Fleischer, R.C. 1998. DNA 
fingerprinting evidence of non-kin nursing in grey seals. Molecular 
Ecology 7:81-85.
    44. Boness, D.J., Craig, M.P. Honigman, L., and Austin, S. 1998. 
Fostering behavior in Hawaiian monk seals, Monachus schauinslandi, at 
Laysan Island, with comparative evidence on the effect of female 
density. Journal of Mammalogy 79:1060-1069.
    45. Coltman, D.W., Bowen, W.D., Iverson, S.J. and Boness, D.J. 
1998. The energetics of male reproduction in an aquaticlly mating 
pinniped, the harbour seal. Physiological Zoology 71(4):387-399.
    46. Francis, J.M., Boness, D.J., and Ochoa-Acufia, H. 1998. A 
protracted foraging and attendance cycle in female Juan Fernandez fur 
seals. Marine Mammal Science 14:552- 574.
    47. Bowen, W.D., Boness, D.J., and Iverson, S.J. 1998. Estimation 
of total body water in harbour seals: How useful is bioelectric 
impedance analysis? Marine Mammal Science 14:765-777.
    48. Ochoa-Acuna, H., Francis, J.M., and Boness, D.J. 1998. 
Interannual variation in birth mass and postnatal growth of Juan 
Fernandez fur seals. Canadian Journal of Zoology 76:978-983.
    49. Schaeff, C.M., Boness, D.J., and Bowen, W.D. 1999. Female 
distribution, genetic relatedness, and fostering behaviour in harbour 
seals (Phoca vitulina). Animal Behaviour 57:427-434.
    50. Boness, D.J. 1999. The grey seal, Halichoerus grypus. In: The 
Complete Book of North American Mammals, D.E. Wilson (ed.), Smithsonian 
Institution Press: Washington, D.C., Pp. 211-213.
    51. Boness, D.J. 1999. The ribbon seal, Phoca fasciata. In: The 
Complete Book of North American Mammals. D.E. Wilson (ed.), Smithsonian 
Institution Press: Washington, D.C., Pp. 203-204.
    52. Boness, D.J. 1999. The hooded seal, Cystophora cristata. In: 
The Complete Book of North American Mammals. D.E. Wilson (ed.), 
Smithsonian Institution Press: Washington, D.C., Pp. 215-216.
    53. Wells, R.S., Boness, D.J., and Rathbun, G. 1999. Behavior. In: 
The Biology of Marine Mammals, J.E. Reynolds, III and S.A. Rommel 
(eds.). Smithsonian Institution Press: Washington, D.C., Pp. 324-422.
    54. Goldsworthy, S., Boness, D.J.,and Fleischer, R.C. 1999. Mate 
choice in sympatric fur seals: female preference for conphenotypic 
males. Behavioral Ecology and Sociobiology 45:253-267.
    55. Schwartz, M.K., Boness, D.J., Schaeff, C.M., Majluf, P.M., 
Perry, E.A., and Fleischer, R.C. 1999. Female solicited extra-pair 
matings in Humboldt penguins fail to produce extra-pair fertilizations. 
Behavioral Ecology 10:242-250.
    56. Ambs, S., Boness, D.J., Bowen, W.D., and Fleischer, R.C. 1999. 
Proximate factors associated with high levels of extra-consort 
fertilizations in polygynous grey seals. Animal Behaviour 58:527-535.
    57. Bowen, W.D., Boness, D.J., and Iverson, S.J. 1999. Diving of 
lactating harbour seals and their pups during maternal foraging trips. 
Canadian Journal of Zoology 77:978-988.
    58. McCulloch, S., and Boness, D.J. 2000. Mother-pup vocal 
recognition in the grey seal (Halichoerus grypus) of Sable Island, Nova 
Scotia, Canada. Journal of Zoology 253:449-455.
    59. Goldsworthy, S. Francis, J.M., Boness, D.J., and Fleischer, 
R.C. 2000. Variation in the mitochondrial control region in the Juan 
Fernandez fur seal (Arctocephalus philippii). Journal of Heredity 
91:371-377.
    60. Ellis, S.L., Bowen, W.D. Boness, D.J., and Iverson, S.J. 2000. 
Maternal effects on offspring mass and stage of development at birth in 
the harbour seal, Phoca vitulina. Journal of Mammalogy 81:1143-1156.
    61. Taylor, S.S., Leonard, M.L., and Boness, D.J. 2001. Aggressive 
nest intrusions by single male Humboldt penguins. Condor 103:162-165.
    62. Bowen, W.D., Iverson, S.J., Boness, D.J., and Oftedal, O.T. 
2001. Energetics of lactation in harbour seals: Effect of body mass on 
sources and level of energy allocated to offspring. Functional Ecology 
15:325-334.
    63. Lidgard, D.C., Boness, D.J., and Bowen, W.D. 2001. A novel 
mobile approach to investigating grey seal male mating tactics. Journal 
of Zoology 255:313-320.
    64. Ellis, S.L., Bowen, W.D. Iverson, S.J., and Boness, D.J. 2001. 
Maternal effects on growth rate and weaning mass of harbor seal 
offspring. Canadian Journal of Zoology 79:1088-1101.
    65. Taylor, S.S., Leonard, M.L., Boness, D.J., and Majluf, P. 2001. 
Foraging trip duration increases for Humboldt penguins tagged with 
time-depth recorders. Journal of Avian Biology 32(4):369-372.
    66. Paredes, R., Zavalaga, C.B. and Boness, D.J. 2002. Patterns of 
egg laying and breeding success in relation to number of broods and 
timing of laying in Humboldt penguins (Spheniscus humboldti) in Peru. 
Auk 119:244-250.
    67. Boness, D.J. Estrus and estrus behavior. 2002. In: The 
Encyclopedia of Marine Mammals, Perrin, W.F., Wursig, B. and Thewissen, 
H.G.M. (eds.). Academic Press, San Diego, CA, Pp. 395-398.
    68. Boness, D.J. Sea lions, overview. 2002. In: The Encyclopedia of 
Marine Mammals, Perrin, W.F., Wursig, B. and Thewissen, H.G.M. (eds.). 
Academic Press, San Diego, CA, Pp. 1066-1068.
    69. Boness, D.J., Clapham, P.J., and Mesnick, S.L. 2002. Life 
history and reproductive strategies of marine mammals. In: Marine 
Mammal Biology: An Evolutionary Approach. R. Hoelzel (ed.). Blackwell 
Science, Oxford, U.K., Pp. 278-324.
    70. Perry, E.A., Boness, D.J., and Insley, S.J. 2002. Do sonic 
booms affect the reproductive behavior of grey seals and harbor seals? 
Journal of the Acoustical Society of America 111:599-609.
    71. Taylor, S.S., Leonard, M.L., Boness, D.J., and Majluf, P. 2002. 
Foraging in Humboldt penguins during the chick-rearing period: general 
patterns, sex differences, and recommendations to reduce incidental 
catches in fishing nets. Canadian Journal of Zoology 80:700-707.
    72. Bowen, W.D., Tully, D., Boness, D.J., Bulhier, B., and 
Marshall, G. 2002. Prey-dependent foraging tactics and prey 
profitability in a marine mammal. Marine Ecology Progress Series 
244:235-245.
    73. Stevens, M.A., and Boness, D. J. 2003. Influences of habitat 
features and human disturbance on use of breeding sites by a declining 
population of South American fur seals. Journal of Zoology 260:145-152.
    74. Bowen, W.D., Ellis, S., Iverson, S.J., and Boness, D.J. 2003. 
Maternal and newborn life-history traits during periods of contrasting 
population trends: implications for explaining the decline of harbor 
seals, Phoca vitulina, on Sable Island. Journal of Zoology 261:155-163.
    75. Lidgard, D.C., Boness, D.J., Bowen, W.D., and McMillan, J.I. 
2003. Diving behaviour during the breeding season in the terrestrial 
breeding male grey seal: implications for alternative mating tactics. 
Canadian Journal of Zoology 81:1025-1033.
    76. Taylor, S. S., Leonard, M.L., Boness, D.J., and Majluf, P. 
2004, Foraging patterns in non-breeding Humboldt Penguins (Spheniscus 
humboldti). Marine Ornithology 32:63-67.
    77. Lidgard, D.C., Boness, D.J., McMillan, J.I., Fleischer, R.C., 
and Bowen, W.D. 2004. Reproductive success of male mating tactics in 
the polygynous grey seal. Molecular Ecology 13:3543-3548.
    78. Paredes, R., Jones, I.L. and Boness, D.J. 2005. Reduced 
parental care, compensatory behaviour and reproductive costs 
experienced by female and male thick-billed murres equipped with data 
loggers. Animal Behaviour 69:197-208.
    79. Noren, S.R., Iverson, S.J. and Boness, D.J. 2005. Development 
of the blood and muscle oxygen stores in gray seals (Halichoerus 
grypus): Implications for juvenile diving and the necessity of a 
postweaning fast. Physiological and Biochemical Zoology 78(4):482-490.
    80. Lidgard, D.C., Boness, D.J., Bowen, W.D., and McMillan, J.I. 
2005. State-dependent male mating tactics in the grey seal: the 
importance of body size and body composition. Behavioral Ecology 
16(3):541-549.
    81. Austin, D., Bowen, W.D., McMillan, J.I., and Boness, D.J. 2006. 
Stomach temperature telemetry reveals temporal patterns of foraging 
success in a free-ranging marine mammal. Journal of Animal Ecology 
75:408-420.
    82. Paredes, R., Jones, I.L., and Boness, D.J. 2006. Parental roles 
of male and female thick-billed murres and razorbills at Gannet Island, 
Labrador. Behaviour 143:451-481.
    83. Boness, D.J., Bowen, W.D., Buhleier, B.M., and Marshall, G.J. 
2006. Male mating tactics and mating system of an aquatic-mating 
pinniped: the harbor seal, Phoca vitulina. Behavioral Ecology and 
Sociobiology 61(1):119-130.
    84. Bowen, W.D., Iverson, S.J., McMillan, J.I., and Boness, D.J. 
2006. Reproductive performance in grey seals: age-related improvement 
and senescence in a capital breeder. Journal of Animal Ecology 
75(6):1340-1351.
    85. Paredes, R., Jones, I.L. and Boness, D.J., Tremblay, Y., and 
Renner, M. 2008. Sex-specific differences in diving behaviour of two 
sympatric Alcini species: thick-billed murres and razorbills. Canadian 
Journal of Zoology 86(7):610-622.
    86. Noren, S.R., Boness, D.J., Iverson, S.J., McMillan, J., and 
Bowen, W.D. 2008. Body condition at weaning affects the duration of the 
postweaning fast in gray seal pups (Halichoerus grypus). Physiological 
and Biochemical Zoology 81(1):269-277.
    87. Lidgard, D.C., Boness, D.J., Bowen, W.D., and McMillan, J.I. 
2008. The implications of stress on male mating behavior and success in 
a sexually dimorphic polygynous mammal, the grey seal. Hormones and 
Behavior 53(1):241-248.
    88. Boness, D.J. Estrus and estrus behavior. 2009. In: The 
Encyclopedia of Marine Mammals, 2nd Edition, Perrin, W.F., Wursig, B., 
and Thewissen, H.G.M. (eds.). Academic Press, San Diego, CA, Pp. 384-
388.
    89. Boness, D.J. Sea lions, overview. 2009. In: The Encyclopedia of 
Marine Mammals, 2nd Edition, Perrin, W.F., Wursig, B. and Thewissen, 
H.G.M. (eds.). Academic Press, San Diego, CA, Pp. 331-334.
Theses, Non-Peer-Reviewed and Popular Publications
    1. Boness, D.J. 1973. What happens between an external stimulus and 
an overt response? A study of covert behavior. M.A. Thesis, Hollins 
College.
    2. Boness, D.J. 1979. The social system of the grey seal on Sable 
Island, Nova Scotia, Canada. Ph.D. Thesis, Dalhousie University
    3. Boness, D.J. 1979. Busy as a beaver. Zoogoer 8:27-31.
    4. Boness, D.J. 1980. Harp seals. Smithsonian 10:14-15.
    5. Boness, D.J., Oftedal, O.T., Ono, K.A., and Iverson, S. 1983. 
Maternal investment, lactation and pup development in California sea 
lions on San Nicolas Island, California: Some preliminary results. 
Proceedings Biennial Mugu Lagoon/San Nicolas Island Ecological Research 
Symposium 3:151-169.
    6. Oftedal, O.T., and Boness, D. J. 1983. Fish quality: The net 
result. Proceedings of the American Association of Zoo Veterinarians 
47-51.
    7. Oftedal, O.T., and Boness, D.J. 1983. Considerations in the use 
of fish as food. Proceedings of the Dr. Scholl Conference on the 
Nutrition of Captive Wild Animals 3:149-161.
    8. Oftedal, O.T., and Boness, D.J. 1986. The period of nursing: a 
tough time for seals and sea lions. Zoogoer Special Issue 6:9-11
    9. Boness, D.J. 1990. Who's the mother? Fostering behavior in 
endangered Hawaiian monk seals. Zoogoer 19:10-13.
    10. Boness, D.J. 2003. Walruses (Odobenidae). Grizmek's Animal Life 
Encyclopedia. 2nd Edition, Thompson Gale, MI, Vol. 14:409-416.
    11. Boness, D.J. 2003. True seals (Phocidae). Grizmek's Animal Life 
Encyclopedia. 2nd Edition, Thompson Gale, MI, Vol. 14:417-436.
    12. Boness, Daryl. 2008. Investigating the aquatic mating system of 
harbor seals using Crittercam. In Proceedings of the Animal-Borne 
Imaging Symposium, G. Marshall (ed.). National Geographic Society, 
Washington, D.C., Pp. 75-79.
Invited Book Reviews
    1. Boness, D.J. 1981. Cetacean Behavior: Mechanisms and Functions, 
edited by L.M. Herman. Animal Behaviour 29:969-970.
    2. Boness, D.J. 1986. Fur Seals: Maternal Strategies on Land and at 
Sea, edited by R.L. Gentry and G. L. Kooyman. Marine Mammal Science 
2:329-330.
    3. Boness, D.J. 1989. American Fur Seal Diplomacy: the Alaskan Fur 
Seal Controversy, by J.T. Gay. Journal of Wildlife Management 
53(1):272-273.
    4. Boness, D.J. 1991. The Pinnipeds: Seals, Sea Lions and Walruses, 
by M. Riedman. Berkeley, University Press. Animal Behaviour 42:698.
    5. Boness, D.J. 1995. Antarctic Seals. Methods and Techniques, 
edited by R.M. Laws. Journal of Animal Ecology 64:424-425.
    6. Boness, D.J. 1998. Behavior and Ecology of the Northern Fur 
Seal, by R.L. Gentry. Ecology 79:2972-2973.
    7. Boness, D.J. 2001. Cetacean Societies, edited by J. Mann, R.C. 
Connor, P. Tyack, and H. Whitehead. Marine Mammal Science 17:962-964.
Major Reports
    1. Boness, D.J., and Majluf, P. 1996. Report on the priorities for 
studies of otariid reproductive strategies, population biology and 
conservation. Smithsonian, Office of Naval Research, National Marine 
Fisheries Service; Washington, D.C., 44 pp.
    2. Heath, C., Boness, D.J., Bowen, W.D., Gilmartin, W., Gisiner, 
R., Ralls, K., Siniff, D., Zabel, C., and Didier, A. 1997. Steller sea 
lion behavior review. National Marine Fisheries Service; Seattle, WA, 
26 pp.
    3. Gentry, R.L., Boness, D.J., Bowles, A.E., Insley, S.J., Payne, 
R. Schusterman, R. Tyack, P., Thomas, J., and Gisiner, R. 1998. 
Behavioral effects of anthropogenic noise in the marine environment. 
Office of Naval Research; Washington, D.C., 22 pp.
    4. Williams, T.M., Boness, D.J., Bowen, W.D., Boyd, I., Croll, D., 
Hornig, M. Iverson, S.J., Calkins, D., and Didier, A. 1999. Steller sea 
lion physiology review. National Marine Fisheries Service; Seattle, WA, 
34 pp.
    5. Laist, D., Reynolds, J.E. III, Boness, D.J., Gale, N., 
Gerrodette, T., Lowry, L.F., and Ragen, T.J. 2002. Hawaii monk seal 
program review. A report to the Marine Mammal Commission, 33 pp.
    6. Reeves, R.R., Read. A., Lowry, L., Katona, S.K., and Boness, 
D.J. 2006. Report of the North Atlantic right whale program review, 13-
17 March 2006, Woods Hole, MA, Marine Mammal Commission. Bethesda, MD.
    7. Bowen, W.D., Boness, D.J., and Lowry, L.L. 2007. Review of the 
2007 Draft Steller Sea Lion Recovery Plan. Prepared for the North 
Pacific Fishery Management Council, contracted by the North Pacific 
Research Board.
Talks and Posters at Professional Meetings
        Iowa Academy of Science Meeting, Cedar Falls, IA, 1970

        Midwestern Psychological Association Meeting, Detroit, MI, 1971

        Iowa Academy of Science Meeting, Iowa City, IA, 1972

        Pavlovian Society Meeting, Sarasota, FL, 1974

        Second Biennial Conference on the Biology of Marine Mammals, 
        San Diego, CA, 1977

        Fourth Biennial Conference on the Biology of Marine Mammals, 
        San Francisco, CA, 1981

        Twelfth Annual Conference, International Association of Aquatic 
        Animal Medicine, Mystic, CT, 1981

        Annual Meeting of the American Association of Zoo 
        Veterinarians, Tampa, FL, 1983

        Third Annual Dr. Scholl Conference on the Nutrition of Captive 
        Wild Animals, Chicago, IL, 1983

        Fifth Biennial Conference on the Biology of Marine Mammals, 
        Boston, MA, 1983

        Sixth Biennial Conference on the Biology of Marine Mammals, 
        Vancouver, BC, 1985

        Annual Meeting of the American Association of Zoo 
        Veterinarians, Scottsdale, AZ, 1985

        Animal Behavior Society Annual Meeting, Tucson, AZ, 1986

        Third California Islands Symposium, Santa Barbara, CA, 1987

        Animal Behavior Society Annual Meeting, Williamstown, 1987

        Seventh Biennial Conference on the Biology of Marine Mammals, 
        Miami, FL, 1987

        Animal Behavior Society Meeting, Missoula, MT, 1988

        XXI International Ethological Conference, Utrecht, The 
        Netherlands. 1989

        Eighth Biennial Conference on the Biology of Marine Mammals, 
        Pacific Grove, CA, 1989

        Fourth European Conference on Wildlife Telemetry, Aberdeen, 
        Scotland, 1991

        Ninth Biennial Conference on the Biology of Marine Mammals, 
        Chicago, IL 1991

        XXIII International Ethological Conference, Torremolinos, 
        Spain, 1993

        Tenth Biennial Conference on the Biology of Marine Mammals, 
        Galveston, TX, 1993

        International Symposium on Marine Mammal Genetics, La Jolla, 
        CA, 1994

        Smithsonian Dialogues Symposium. What about increase? 
        Washington, D.C., 1995

        Eleventh International Conference on the Biology of Marine 
        Mammals, Orlando, FL, 1995

        International Behavioral Ecology Congress, Canberra, Australia, 
        1996

        Smithsonian Dialogues II Symposium. What about diffusion? 
        Washington, D.C., 1997

        American Society of Mammalogists, Stillwater, OK, 1997

        Animal Behavior Society, College Park, MD, 1997

        International Marine Mammal Science Conference, Monaco, 1998

        Thirteenth International Conference on the Biology of Marine 
        Mammals, Maui, HI, 1999

        American Society of Mammalogists, Durham, NC, 2000

        Animal Behavior Society, Atlanta, GA, 2000

        South American Marine Mammal Conference, Buenos Aires, 
        Argentina, 2000

        Fourteenth International Conference on the Biology of Marine 
        Mammals, Vancouver, BC, 2001

        American Society of Mammalogists, Missoula, MT, 2001

        American Society of Mammalogists, Lake Charles, LA 2002

        Society for the Study of Evolution, Chicago, IL, 2003

        Fifteenth International Conference on the Biology of Marine 
        Mammals, Greensboro, NC, 2003

        Sixteenth International Conference on the Biology of Marine 
        Mammals, San Diego, CA, 2005
Invited Symposia
        Third Annual Maine Biomedical Science Symposium, Orono, 1977, 
        D.J. Boness, Social organization of the grey seal, Halichoerus 
        grypus. Abstract published in Journal of the Maine Medical 
        Association, 68:245.

        XXII International Congress of Psychology, Leipzig, DDR, 1980, 
        D.J. Boness and H. James, Sexual organization in the grey seal: 
        An ice breeding strategy?

        Symposium on Conservation of Endangered Species in Zoos and 
        Aquariums, Baltimore, 1982 D.J. Boness and O.T. Oftedal, 
        Collection and composition of milk in pinnipeds, with comments 
        on handrearing formulas.

        Symposium on Endangered Marine Animals and Marine Parks, 
        Cochin, India, 1985. D.J. Boness, The role of zoos in 
        conservation of marine mammals.

        Symposium on Science and the Environment, Dartmouth University, 
        1991, D.J. Boness, The probable importance of body size in the 
        evolution of lactation and maternal patterns in seals.

        Symposium on Recent Advances in Marine Mammal Science, 
        Zoological Society London, 1992, D.J. Boness, W.D. Bowen, and 
        J.M. Francis, Implications of DNA fingerprinting for 
        understanding pinniped mating systems and reproductive 
        strategies.

        Symposium on Mating Systems in Marine Mammals, Tenth Biennial 
        Conference of the Biology of Marine Mammals, 1993, Galveston, 
        TX, D.J. Boness, Marine mammal mating systems: a framework and 
        overview.

        International Symposium on the Reproductive Strategies and 
        Conservation of Otariids, Washington, D.C., 1996 I co-convened 
        this symposium with Dr. Patricia Majluf of the Wildlife 
        Conservation Society. The symposium had 82 invited participants 
        from 16 countries and consisted of 2 days of invited talks and 
        one and a half days of workshops.

        Sonic Boom Symposium, Acoustical Society of America, Norfolk, 
        VA, 1998, E.A. Perry, D.J. Boness, and S.J. Insley, Do sonic 
        booms affect the reproductive behavior of grey seals and harbor 
        seals?

        Symposium on Mammalian Reproductive Strategies, 3rd European 
        Mammalogy Congress, Jyvaskala, Finland, 1999, D.J. Boness and 
        W.D. Bowen, At-sea mating strategies of harbor seal males.

        Symposium on Marine Mammals of the Holarctic, Baikal, Russia, 
        2002, D.J. Boness, W.D. Bowen, G. Marshal, and B. Buhleier, The 
        aquatic mating system of harbor seals: is it lekking?

        Mini-Symposium on Biology and Conservation of Marine 
        Vertebrates, Smithsonian National Zoological Park, 2002, D.J. 
        Boness, A lek mating system in a marine mammal. Animal-Borne 
        Imaging Symposium, National Geographic Society, Washington, 
        D.C., 2007
Invited Seminars, Lectures, and Workshops
        March 1984, Department of Psychobiology, Memorial University 
        and Department of Fisheries and Oceans Canada, St. John's, 
        Newfoundland

        February 1985, Audubon Naturalist Society, Bethesda, MD

        March 1988, National Marine Fisheries Service, Honolulu, HI

        March 1990, Department of Zoology, University of Maryland, 
        College Park

        May 1990, Department of Vertebrate Zoology, National Museum of 
        Natural History, Washington, D.C.

        December 1990, Department of Conservation, National Zoological 
        Park, Front Royal, VA

        June 1991, Special Faculty of Science Lecture, Memorial 
        University, St. John's, Newfoundland

        October 1991, U.S. Information Agency, Washington, D.C.

        March 1992, Department of Biology, George Washington 
        University, Washington, D.C.

        December 1992, Department of Zoology, University of Maryland, 
        College Park

        May 1993, Department of Biology, Dalhousie University, Halifax 
        Nova Scotia

        February 1994, Department of Biology, American University, 
        Washington, D.C.

        April 1994, Department of Conservation, National Zoological 
        Park, Front Royal, VA

        April 1994, Virginia Military Institute, Lexington, VA

        November 1994, Department of Zoological Research, National 
        Zoological Park, Washington, D.C.

        November 1994, University Lecture Series, Lethbridge 
        University, Lethbridge, Alberta

        November 1994, Marine Mammal Commission meeting, Woods Hole, MA

        December 1994, Hawaiian monk seal recovery team meeting, 
        National Marine Fisheries Service, Honolulu, HI

        April 1995, Department of Zoology, University of Hawaii, 
        Honolulu, HI

        November 1995, Alaska harbor seal workshop, National Marine 
        Fisheries Service and Alaska Fish and Game Department, 
        Fairbanks, AK

        December 1995, Workshop on translocating Hawaiian monk seals to 
        Midway Island, Honolulu, HI

        July 1996, Smithsonian Resident Associates Lecture, Washington, 
        D.C.

        November 1996, Marine Mammal Commission meeting, Amelia Island, 
        FL

        February 1997, National Ocean and Atmospheric Administration, 
        Strategic Planning Workshop, Washington, D.C.

        November 1997, Marine Mammal Commission meeting, Fairbanks, AK

        December 1997, Hawaiian monk seal recovery team meeting, 
        National Marine Fisheries Service, Honolulu, HI

        December 1997, Workshop to evaluate past behavioral research on 
        Steller sea lions and recommend future directions, National 
        Marine Fisheries Service, Seattle, WA

        February 1998, Workshop on effects of manmade sound on the 
        marine environment, Office of Naval Research, Washington, D.C.

        June 1998, Marine Mammal Committee meeting, American Society of 
        Mammalogists, Blacksburg, VA

        June 1998, GulfCet program review, Galveston, TX

        November 1998, Marine Mammal Commission meeting, Portland, ME

        May 1999, Talk at Smithsonian Conservation and Research Center, 
        Front Royal, VA

        May 1999, Seminar at Zoology Department, Cork University, Cork, 
        Ireland

        April 2000, Lecture at Biology Department, American University, 
        Washington, D.C.

        July 2000, Seminar, Department of Zoological Research, National 
        Zoological Park, Washington, D.C.

        May 2002, Seminar Zoology Department, University of New 
        Hampshire, Durham, NH

        October 2002, Marine Mammal Commission meeting, San Diego, CA

        June 2003, Seminar at Biology Department, University of New 
        England, Biddeford, ME

        June 2003, Seminar at Bigelow Laboratory for Ocean Sciences, 
        West Boothbay Harbor, ME

        October 2003, Marine Mammal Commission meeting, Newport, RI

        November 2003, Seminar at Conservation and Research Center, 
        Smithsonian Institution, Front Royal, VA

        October 2004, Marine Mammal Commission meeting, Kona, HI

        April 2005, Seminar at Biology Department, Colby College, 
        Waterville, ME

        April 2005 Workshop on the Ecological Role of Killer Whales in 
        the North Pacific Ecosystem

        May 2005, Seminar at Wildlife Ecology Department, University of 
        Maine, Orono, ME

        August 2005, Workshop on Implementing a Research Plan to 
        Understand the Role of Killer Whales in the North Pacific Ocean 
        Ecosystem, Seattle, WA

        September 2005, Workshop on Assessing the Population Viability 
        of Endangered Marine Mammals, Savannah, GA

        October 2005, Marine Mammal Commission meeting, Anchorage, AK

        June 2006, Seminar at Brackett Environmental Center, Auburn, ME

        May 2008, 2009, Lecture at Buckfield High School, Buckfield, ME

        May 2009, Seminar at Western Maine Audubon Society, Farmington, 
        ME

        September 2009, Lecture at Waterberg Academy, Vaalwater, South 
        Africa

    Senator Cantwell. I just want to make sure we have your 
written testimony. We appreciate everybody's diligence in their 
statement. And I am going to turn to Mr. Moreland here to make 
his statement.

  STATEMENT OF JEFFREY R. MORELAND, MEMBER-DESIGNATE, AMTRAK 
                       BOARD OF DIRECTORS

    Mr. Moreland. Good morning. Madam Chairman and Ranking 
Member Hutchison, I greatly appreciate the opportunity to be 
considered to serve on Amtrak's Board.
    In addition, I am honored by President Obama's nominating 
me to serve. In addition, I am very thankful for Senator 
Hutchison, for your encouragement and help and support through 
this process.
    My wife of 43 years is here to support me in this, and she 
has traveled on probably as many Amtrak routes as I have. So 
she knows as much as I do.
    I am going to give you my short version, my high-speed rail 
version of my statement. I have a business and law background. 
I worked in the Government for a number of years early in my 
career. I then went to work for freight railroads 30 years--
approximately 18 years in Chicago for freight railroad 
companies and then 12 years in Fort Worth, Texas, for the 
Burlington Northern Santa Fe Railway, which, of course, serves 
your State, Madam Chairman.
    In those 30 years in the rail business, I saw boards of 
directors of railroads go from wondering whether the railroads 
would survive to now where they are investing significant 
amounts of money for additional capacity in the railroads 
freight business.
    I believe the Amtrak can do the same. I believe that just 
as the freight railroads have been successful over the last 30 
years after difficulty, Amtrak can have a bright future, and I 
think we can do that in the same method we were able to achieve 
it through the success of the freight railroads.
    I think that it is important for this country that we have 
a national railway system. I think it is important that we 
develop high-speed rail, and I think the Board of Directors 
role at Amtrak is to ensure that we are following what Congress 
and the Administration has asked us to do and will ask us to do 
and to make sure that the Board monitors the practices and the 
goals and sets objectives for Amtrak.
    And that we meet--and set those goals and meet those goals, 
and we are able to show to the United States public that Amtrak 
is a success so that it will warrant additional funding from 
Government over the years.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Moreland follows:]

     Prepared Statement of Jeffrey R. Moreland, Member-Designate, 
                       Amtrak Board of Directors
    Chairman Rockefeller, Ranking Member Hutchinson, and distinguished 
members of the Committee, I greatly appreciate the opportunity to be 
considered to serve on Amtrak's Board. I am honored that the President 
has nominated me to serve. In addition, I am thankful for Senator 
Hutchinson's encouragement throughout this process.
    I would like to briefly describe my background and qualifications 
for the position on Amtrak's Board. In addition, I will outline some of 
the issues I see facing Amtrak, but most importantly, I would 
appreciate the views of the members of this distinguished committee on 
critical issues facing Amtrak.
    I have an undergraduate degree from Georgetown University's School 
of Business, a Juris Doctorate degree from The Columbus School of Law 
at Catholic University and a MBA from the University of Chicago, School 
of Business. I started my career in government service and worked at 
the Securities and Exchange Commission in Washington, D.C. for 8 years. 
In 1978, I joined Santa Fe Industries, the parent company of the 
Atchison, Topeka, and Santa Fe Railway, in Chicago, Illinois. From then 
until I retired in 2007, I worked for companies that operated freight 
railroads. For the last twelve of those years, I worked in Fort Worth, 
Texas as an executive officer for the Burlington Northern Santa Fe 
Railroad. During those almost thirty years in the railroad business, I 
experienced freight railroads' Boards of Directors questioning whether 
freight railroads would survive, on through to today where freight 
railroads are not only surviving but investing large amounts of capital 
to increase their capacity for the efficient movement of freight in the 
United States.
    Amtrak, like the freight railroads, has struggled for decades. 
However, I believe that with the proper support and encouragement from 
both Congress and the Administration and with a focused and stable 
Board of Directors and management team, the future of Amtrak is bright. 
Amtrak has made progress in recent years, and I believe these positive 
trends can continue. Just as it is important to have multiple means of 
moving freight, it is critically important to this country that we have 
multiple means of moving passengers throughout the United States. I 
also believe it is important to the United States passenger 
transportation system that Amtrak maintain a nationwide rail system and 
develop high-speed rail corridors in many areas of the United States.
    I believe the primary role of the directors of Amtrak is to ensure 
that the organization is run in the manner that Congress and the 
Administration intends for it to be run. The Board needs to clearly set 
Amtrak's strategic direction and monitor Amtrak's compliance with such 
direction. It must ensure that capital is allocated properly and it 
must set goals and monitor such goals that will show to the public that 
Amtrak is successful. If confirmed by the Senate, I feel I can play a 
constructive role in this effort.
    Thank you for your consideration of my nomination and I welcome any 
observations or questions that members of this committee may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Jeffrey R. 
Moreland.
    2. Position to which nominated: Member of Board--Directors-Amtrak.
    3. Date of Nomination: January 20, 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 2378 N. Fillmore St., Arlington, VA 22207

    5. Date and Place of Birth: June 24, 1944.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Nancy C. Moreland (spouse), unemployed; children: Caroline Kate 
        Moreland, 42; Jennifer Anne Moreland, 40; Kimberly M. Beans, 
        39; Amy M. Stallmer, 34.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Chicago, Booth School of Business, MBA, Executive 
        Program, 1981-1983.

        The Catholic University of America, Columbus School of Law, 
        Juris Doctorate, 1966-1970

        Georgetown University. McDonough School of Business, BSBA, 
        1962-1966.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        ESSA/US Dept. of Commerce, 1966-1969, Budget Analyst.

        U.S. Securities and Exchange Commission, Washington, D.C., 
        Branch Chief, Division of Corporate Finance, 1969-1978.

        Burlington Northern Santa Fe Corp. and BNSF Railway, Fort 
        Worth, Texas. June 1978-June 2007 (Including predecessor 
        Companies of Burlington Northern Santa Fe Corp. in Chicago, 11-
        1978-1995). I started as Corporate Attorney in 1978 and served 
        in increasing responsible positions. In 1995, I became Senior 
        VP Law & Gov. Affairs (Chief legal officer) and later Executive 
        VP Law, Gov. Affairs and Corp. Secretary until December 31, 
        2006, then Executive VP Public Affairs until June 2007.

        Retired: June 2007. No further employment.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: N/A.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        The Catholic University of America, Columbus School of Law, 
        Chairman, Board of Visitors. 2007-present.

        Friends of Florence, 2007 to present. Member, Board of 
        Directors.

        Fort Worth Opera, 2005-6/2007 Member, Board of Directors.

        Cook Children's Hospital, Member, Board of Directors, 2004-6/
        2007.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    In addition to #11 above, Rivercrest Country Club, Fort Worth, 
Texas, 1999-2004.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.


------------------------------------------------------------------------
                            Entity                               Amount
------------------------------------------------------------------------
2009--None
------------------------------------------------------------------------
2008
------------------------------------------------------------------------
Anne M. Burke, Illinois Supreme Court                           -$4,260*
------------------------------------------------------------------------
2007
------------------------------------------------------------------------
BNSF PAC                                                          $2,500
Costello For Congress Committee                                   $2,000
Friends of Jim Oberstar                                           $2,300
DeFazio For Congress                                              $2,000
Texans for John Cornyn                                            $2,300
Texans for John Cornyn                                          -$2,100*
Dan Lipinski for Congress                                         $2,000
Anne M. Burke, Illinois Supreme Court                            $10,000
Diane Denish, Lieutenant Governor                                   $500
------------------------------------------------------------------------
2006
------------------------------------------------------------------------
BNSF PAC                                                          $5,000
Nelson (Ben) for U.S. Senate 2006                                 $2,100
Mark Pryor for U.S. Senate                                        $1,000
McConnell Senate Committee. '14                                   $1,000
Kay Granger Campaign Fund                                         $2,000
Talent for Senate Committee                                       $1,000
Kay Bailey Hutchison For Senate Committee                         $2,100
Texans For Senator John Cornyn                                      $900
Texans for Senator John Cornyn                                    -$900*
Texans for Senator John Cornyn                                    $1,000
National Republican Congressional Committee                       $5,000
Alamo PAC                                                         $2,000
Timothy Pawlenty and Carol Molnau, Gov. and Lt. Gov.              $1,000
Kathleen Sebelius and Mark Parkinson, Gov. and Lt. Gov.           $1,000
------------------------------------------------------------------------
2005
------------------------------------------------------------------------
BNSF PAC                                                          $5,000
Carper For Senate                                                 $1,000
Nelson (Ben) For Senate 2006                                      $2,000
Kay Granger Campaign Fund                                         $2,000
Kay Bailey Hutchison For Senate Committee                         $2,100
Texans For Senator John Cornyn                                    $2,000
National Republican Congressional Committee                       $2,000
Friends of Roy Blunt                                              $2,000
Congressman Joe Barton Committee                                  $2,000
Kathleen Sebelius and Mark Parkinson, Gov.& Lt. Gov.              $2,000
------------------------------------------------------------------------
2004
------------------------------------------------------------------------
BNSF PAC                                                          $5,000
Pete Coors For Senate                                             $1,000
John Thune For U.S. Senate                                        $1,000
------------------------------------------------------------------------
2003
------------------------------------------------------------------------
BNSF PAC                                                          $5,000
Missourians For Kit Bond                                          $1,000
Bush-Cheney '04 (Primary)                                         $2,000
Midnight Sun Pol. Action Com.                                     $2,500
------------------------------------------------------------------------
2002
------------------------------------------------------------------------
BNSF PAC                                                          $5,000
National Republican Congressional Committee                         $500
Friends of Max Baucus                                               $500
Texans for Senator John Cornyn                                    $1,000
Michael L. Williams, Texas Railroad Commission                    $1,000
------------------------------------------------------------------------
2001
------------------------------------------------------------------------
BNSF PAC                                                          $5,000
National Republican Congressional Committee                         $500
Feingold Senate Committee                                           $200
Gordon Smith For U.S. Senate 2002                                   $500
Lipinski For Congress Committee                                   $1,000
------------------------------------------------------------------------
2000
------------------------------------------------------------------------
BNSF PAC                                                          $5,000
Kay Granger Campaign Fund                                         $1,000
Lipinski For Congress Committee                                   $1,000
------------------------------------------------------------------------
1999
------------------------------------------------------------------------
BNSF PAC                                                          $5,000
Kay Bailey Hutchison For Senate Committee                         $1,000
------------------------------------------------------------------------
*(returned contributions)

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: N/A.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: N/A.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: N/A.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have over 29 years of experience in the U.S. freight railroad 
business. For the last eleven plus years, I was a senior executive of 
BNSF, one of the largest freight railroads in the United States, with 
service throughout the western two-thirds of the Nation. My 
responsibility during that time included managing the legal, 
regulatory, Federal, and state governmental affairs, communications, 
and corporate secretary areas of the company. Amtrak has extensive 
operations over BNSF, which required my department to deal with Amtrak 
on various issues.
    I hope to use my extensive railroad experience for the long term 
benefit of Amtrak.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe that a director of Amtrak has absolute responsibility to 
ensure that Amtrak has proper management and accounting controls. 
Amtrak's board must provide the leadership to ensure that Amtrak's 
management has the right people in place to properly manage Amtrak, and 
that the Board has effective processes and procedures in place to 
provide oversight of management. In addition, the Board must require 
and monitor long term goals and performance objectives for Amtrak. I 
have significant experience in board activities and ensuring that the 
Board of BNSF was able to perform its fiduciary responsibilities to 
BNSF shareholders. I was general counsel to the BNSF Board and attended 
every board meeting and audit committee for over eleven years. I 
managed a large law department and numerous outside law firms as well.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing Amtrak are:

        1. Developing and implementing a 5-year strategic plan. A long-
        term plan that is adopted and closely followed is essential to 
        the success of any large organization.

        2. Implement and monitor accounting, safety and management 
        controls to ensure that Amtrak is meeting its obligations to 
        the public and that its activities are transparent to the 
        public.

        3. Properly allocate the limited resources that Amtrak has 
        available to it to ensure that resources are used for the 
        highest purposes of the overall strategic objectives of Amtrak.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I receive pension payments from:

        1. BNSF Qualified Pension Plan

        2. BNSF Supplemental Pension Plan

    I have stock and stock options outstanding in Burlington Northern 
Santa Fe Corporation. All of which are expect to be sold or converted 
into another companies stock (Berkshire Hathaway Inc.) by February 28, 
2010.
    I have no other commitments or agreements with any prior employer, 
business associate, client or customer.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated
    See ``B.1'' above.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    See ``B.1'' above.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As an executive officer of BNSF, I was indirectly involved in 
influencing the passage, defeat, and modification of legislation and 
affecting the administrative and execution of law and public policies.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I expect all stock and stock options that I own in BNSF will either 
be sold or converted into Berkshire Hathaway Inc. stock by February 28, 
2010.
    Berkshire Hathaway, Inc. is acquiring BNSF in a merger expected to 
be completed in the first quarter of 2010.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     resume of jeffrey r. moreland
             Retired Executive Vice President Law for BNSF
Born

Washington, D.C., June 24, 1944
Education

Georgetown University, Washington, D.C., BSBA 1966

The Catholic University of America, Columbus School of Law, Washington, 
D.C., J.D. 1970

University of Chicago School of Business, Chicago, II MBA, Executive 
Program--1983
Employment

U.S. Securities and Exchange Commission, Washington, D.C. 1969-1978

Santa Fe Industries, Chicago, IL, Attorney, 1978-1983

Santa Fe Pacific Corporation, Chicago, IL, Attorney, 1983-1995; Last 
position: Senior Vice President Law and Government Affairs

Burlington Northern Santa Fe Corporation,<SUP>**</SUP> Ft Worth, TX, 
Executive Vice President Law, Gov. Affairs and Corporate Secretary, 
1995-12/2006
---------------------------------------------------------------------------
    \**\ BNSF 2007: Revenues $15.8 billion, net income $1.8 billion, 
assets $32 billion, Market capitalization $30 billion and employees 
41,000.

Executive Vice President and Public Affairs 1/1/07-6/30/07
Activities

Chairman, Board of Visitors, Catholic University Law School

Member of Board, and Chairman of Audit Committee, Friends of Florence
Personal

Married Nancy Moreland forty-three years, four daughters, and two 
grandsons.

    Senator Cantwell. Thank you very much, Mr. Moreland.
    And again, appreciate everybody's helping us out this 
morning with an abbreviated statement. And now I am going to 
turn to Senator Hutchison to make a statement and to ask 
questions, if she would like. But we appreciate very much being 
here today.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Madam Chairwoman.
    I probably will not be able to ask the questions that I 
would like, but I would like to submit a couple of questions 
for you to respond to for the record.
    Let me just say that I was part of the nominations process 
for Dr. Weener and Mr. Moreland. Being a former Member and Vice 
Chairman of the National Transportation Safety Board, I feel 
that your qualifications, Dr. Weener, are excellent. And you 
can contribute much to the Board through your efforts in safety 
already, both in the private sector and at the Flight Safety 
Foundation.
    And I will look forward to working with you and also on the 
Committee being able to visit with you and have you testify on 
what we ought to be doing that would increase our safety. We 
believe that aviation safety is world renowned right now. We 
have a great safety record. But in the area of human factors, 
we are now beginning to make more strides, and that is an area 
where you have expertise. So I will look forward to continuing 
our quest for a perfect safety record, which is what we all 
want for the traveling public.
    And Mr. Moreland, I think you have already said what is the 
major emphasis for me, and that is, that Amtrak must be a 
national system, and it must be preserved. Or if it goes away, 
it will be lost forever.
    The reason that I am so supportive of your nomination is 
that you do have the background in rail that I think can 
contribute greatly to the efforts to oversee Amtrak and to look 
for innovative ways that we can keep the national system that 
we have in place and be able to make available to states and 
local governments the opportunity to feed into Amtrak, which 
will be good for Amtrak, as well as good for more access for 
multimodal transportation for all of our citizens.
    So I appreciate that you are going to serve. I hope that 
you will use the expertise that you have to make Amtrak more 
efficient and use our tax dollars wisely and keep improving the 
national service that I think is so important.
    And with that, Madam Chairman, I will have to leave. But I 
really appreciate your chairing this hearing for us and look 
forward to supporting all of these nominees.
    Senator Cantwell. Well, thank you, Senator Hutchison. As 
the Ranking Member, we appreciate your participation. We know 
you have been involved in these nominees. I am sure that we 
will get a fast response to those questions.
    So if I could turn to my questions and start with you, Dr. 
Robinson? You might have heard the previous discussion with the 
Commandant, the future Commandant of the Coast Guard, on ocean 
acidification. And while we need more science, we also need 
more action.
    What do you envision NOAA doing to take action on ocean 
acidification beyond science, and do you believe that NOAA 
currently has the structure to help individuals like the 
shellfish industry in Washington or Maine deal with the 
economic threats posed by ocean acidification?
    Dr. Robinson. Yes. Chair Cantwell, we just this week, the 
Ocean Research and Resources Advisory Panel met in D.C. and had 
an update from NOAA regarding current actions that the agency 
is taking to further understand, address, and adapt to this 
issue. I am further confident that there is a plan in place to 
provide us the knowledge and the safeguards that we need.
    I am acutely aware of the specific threats that--impacts 
that it is having in your part of the Nation with regard to the 
oyster fishery there and the fact that we need to pay special 
attention to this problem.
    But I look forward, if confirmed, Madam Chair, to rally all 
of my resources to help us and help this Administration 
properly address this issue.
    Senator Cantwell. Your position is going to deal not only 
with the science of conservation management, but with the human 
and economic realities of conservation management. How would 
you balance that?
    Dr. Robinson. I think that we have to consider that people 
are part of the system. I mean, they are part of the ecosystem, 
and we have to have a balance of managing our resources and 
addressing economic needs of the communities that we serve.
    And so, what we will have to do is, first, conserve the 
resources that it can provide for the economic development that 
we need in our fishery communities around the Nation; two, to 
ensure that not only can we do that for this generation of 
fishermen and citizens, but for future generations as well. So 
we will have to build explicitly into our goals appreciation 
for both the ecosystem as well as the economic aspects of our 
jobs.
    Senator Cantwell. Thank you, Dr. Robinson.
    Dr. Tillman, the International Whaling Commission is 
considering changes in its approach to whaling limits and the 
moratorium against commercial whaling, prompting much 
opposition and obviously debate. Given the current issues under 
debate, what do you see as the role of the Marine Mammal 
Commission and the United States in developing positions on 
whaling quotas and moratoria?
    Dr. Tillman. My perspective on that is the commission ought 
to be a partner in the development of U.S. positions regarding 
the International Whaling Commission. It serves on the 
delegation. Expressing a personal view, however, I think that 
they could expand their role, become a full partner, and help 
in developing these positions.
    The issue of the future of the International Whale 
Commission is one of concern to the Administration. It has 
played a role in fostering the process to modernize the 
International Whaling Commission and to address the major 
problem of whaling that, even though there is a moratorium, 
there is whaling going on that is out of control under 
loopholes in the convention.
    This negotiation between parties is an attempt to try to 
deal with closing those loopholes and bring the International 
Whaling Commission back to its role of being the lead 
organization for conservation of whales throughout the world.
    Senator Cantwell. Thank you.
    Dr. Boness, I don't know if you want to add anything to 
that. But I also wanted to ask you about just the challenges 
NOAA has and when it is forced to make decisions with limited 
data. The Government is required to use the best available 
science, even when available science is extremely minimal. What 
do you think that the Marine Mammal Commission should do in 
helping to identify and fulfill those data needs, especially in 
this strained fiscal environment?
    Dr. Robinson. Yes, I think that high-quality data is 
essential to high-quality decisions. And we should look for 
data from a variety of sources and conclude in traditional 
scientific undertakings as well as information that can be 
provided us through citizens, fishermen, et cetera. And so, I 
think with an emphasis on a comprehensive approach to data 
acquisition and quality, we can provide the needs--the data 
needs that really are necessary for us to make the sound 
decisions, management decisions at the agency.
    So I look forward to working with my colleagues, if 
confirmed, on data acquisition issues and other areas that we 
obviously have some commonalities with.
    Senator Cantwell. Thank you.
    Dr. Boness, would you like to chime in there?
    Dr. Boness. Yes. Thank you, Madam Chairwoman.
    Regarding the International Whaling Commission issue, the 
Marine Mammal Commission has looked at the proposal that is 
being discussed and provided an initial response. In fact, 
there are still many things that are unanswered and details 
that are not included in the proposal. The Commission will 
certainly be very interested in the final proposal and will 
evaluate it at the time.
    With regard to making decisions with limited information, 
this is often a primary mode of operation in conservation--it 
is critical to make decisions before all the data that you 
would like to have are available to make clear and decisive 
conclusions.
    One of the things that is critical is that there be a 
process in place to evaluate the potential alternatives, and 
the commission has had some meetings in the past where they 
have brought in experts to discuss potential ways of becoming 
more objective in evaluating those sorts of decisions. It is a 
constant problem that is dealt with in conservation.
    The Commission also----
    Senator Cantwell. Where would you say we are on data?
    Dr. Boness. On data? Well, it varies from species to 
species. For some species we have an incredible amount of data. 
For example, the Hawaiian monk seal, is probably one of the 
best studied endangered marine mammals, yet we still have 
problems with population decline. In fact, this is one of the 
species I referred to earlier that is perilously close to 
extinction.
    So, clearly, one needs to invest more effort in collecting 
data, but you have to make decisions as you go with the data in 
hand that you have. This is why adaptive approaches are 
important to have. So as you gain more information, you make 
adjustments to the recommendations and decisions that are made.
    Senator Cantwell. Thank you.
    Well, we will certainly look forward to discussing how we 
can get more data even in these tough economic times because I 
think given our experiences in the Northwest, we see how 
critical that is to having commonality of how to move forward 
based on good scientific data.
    Mr. Moreland, I would like to ask you about obviously here 
in the Northeast, a lot of people understand Amtrak and have a 
great service for it. But Washington State is the final 
destination of the Empire Builder and the Coast Starlight. And 
so, there have been many partnerships between the State and 
Amtrak for years in between Portland and Vancouver.
    And one of the issues, obviously, as you know, is Class 1 
railroads own their own infrastructure. So Amtrak trains in 
Washington State share the track with Burlington Northern, but 
freight has a priority. And because the track is shared, the 
State and Amtrak and Burlington Northern all have to agree on 
investment priorities, and sometimes, you can imagine that they 
differ in opinion.
    I imagine this is probably replicated across the country. 
And if confirmed, given your experience at Burlington Northern, 
what do you think are some of the unique things that we could 
do to help Amtrak and Class 1 railroads facilitate these 
agreements on major rail investments and the support of high-
speed rail as well as freight rail?
    Mr. Moreland. Well, I am very much in favor of the 
partnership between the State's Amtrak and the private 
railroads, Burlington Northern Santa Fe. I think you will see 
that over the years that Burlington Northern Santa Fe did have 
one of the best records in terms of on-time performance for 
Amtrak trains.
    I think the best way to do that is with a strong 
partnership so that everybody has the same interest in getting 
this achieved. I do say it is perception that freight railroads 
own--they do own the tracks, of course. But they don't have a 
priority. Amtrak does, under the law, have a priority. And it 
should continue to have that priority. And I am a strong 
believer in finding the ways of making that work.
    At the same time, there is a lot of freight moving out of 
Seattle, which is important to the State of Washington. And it 
is critical that freight move on time as well. We have to find 
a way of getting both running and cooperating and operating so 
that passenger trains, not just Amtrak, but your passenger 
trains, commuter lines that run along the sound, as well as the 
freight, is able to do that and through partnerships agree to 
the allocation of capital to make sure that that is achieved 
properly.
    Senator Cantwell. Well, this is critically important for us 
in the Northwest. We certainly appreciate the investment in 
high-speed rail capacity. But we obviously, given I think we 
were probably the intake for about 20 percent of cargo coming 
in for China, we also have to move freight.
    Mr. Moreland. Yes.
    Senator Cantwell. Or else we will lose that to Canada.
    Mr. Moreland. It is one of the--I have ridden those lines 
probably five times a year until I retired, and I understand 
the problem. You have some unique issues there because of where 
the real estate is, right along the sound. But it is a doable 
situation, a workable situation. I think Burlington Northern 
works as hard as they can to do that, and we need to make 
sure--Amtrak needs to continue working with them and the State 
of Washington to achieve the goals of all three entities in 
this.
    Senator Cantwell. Thank you.
    Dr. Weener, I understand that the Flight Safety Foundation, 
you spent considerable amount of time at looking at issues of 
runway safety and ground accident prevention. Where do you 
think the FAA is in respect to these issues?
    Dr. Weener. With respect to runway safety, the Flight 
Safety Foundation initiated a program about 3 years ago, an 
international one, and it was driven in large part by European 
interests. Initially, we looked at runway safety from a broad 
perspective. That included runway incursions, runway confusion, 
and runway excursions, excursions being going off the side or 
the end of a runway.
    Runway incursions have brought a great deal of attention 
because of the Tenerife accident of 32 years ago. That was a 
collision on the ground between two 747s. Since that time, the 
FAA has put a great deal of emphasis on runway incursions, and 
runway incursions had become a relatively rare event. Now they 
are reported often, but runway incursions are counted even 
though there is not an accident.
    If we look at simply accidents, then about one-third--
actually 30 percent worldwide over the last 15 years or so--30 
percent of the accidents have been runway excursions. For that 
reason, the Runway Safety Initiative has chosen to focus almost 
entirely on runway excursions. I think the FAA could pay more 
attention to runway excursions.
    Senator Cantwell. Thank you.
    In 2005, we had the unfortunate incident of an EMS 
emergency service helicopter crashing into Puget Sound, taking 
the life of a pilot and two nurses. And so, I have spent a lot 
of time getting up to speed and understanding what the 
oversight and regulation has been and trying to improve the 
safety of the Air Medical Service.
    We passed out of this committee language that I authored in 
Section 507 of the current FAA bill, which is built on a number 
of the NTSB 2006 recommendations. I recognize that Air Medical 
Service is inherently a challenging and dangerous job, but the 
question is how do you manage that risk? And I don't know if 
you have thoughts you would like to offer on that this morning?
    Dr. Weener. It is probably premature for me to offer any 
strong opinions. Nevertheless, the NTSB held a hearing last 
year, as I recall, that addressed helicopter emergency medical 
services, and a number of safety recommendations came out of 
that hearing, including items like terrain awareness systems, 
flight operation quality assurance, FOQA, which means getting 
data off of the airplanes to understand how they are being 
operated, the helicopters in particular.
    This is an area where there is a lot of risk. There is a 
tendency to try to fly under any circumstances. There is a bit 
of an element of trying to be heroic in the face of somebody 
having had an accident and being severely injured. I am sure 
this is an area that is going to continue to receive attention 
in the future.
    Senator Cantwell. Well, we will look forward to working 
with the NTSB on that.
    Again, I want to thank all of the nominees for being here. 
Thank their families for coming to today's hearing and for your 
patience and dedication as your loved ones serve our country, 
and we look forward to processing these nominees quickly.
    We will leave the record open for a short time period here, 
I think 2 weeks, to make sure that we get comments and 
questions answered.
    So thank you very much for being at today's hearing.
    The hearing is adjourned.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I wish to congratulate the nominees appearing before the Committee 
today and to thank them for their commitment to public service. I look 
forward to supporting your nominations through the confirmation process 
and working with you in your new positions.
    In particular, I would like to touch upon the nomination of Vice 
Admiral Robert J. Papp to serve as the Commandant of the United States 
Coast Guard. Managing the extensive and diverse missions and 
responsibilities of the U.S. Coast Guard is a monumental task, and I 
have no doubt that Admiral Papp will fulfill his duties admirably, if 
confirmed. While not part of the Department of Defense (DOD) services, 
the role of the Coast Guard in protecting national security is on par 
with the other services. As such, they should be given appropriate 
recognition for this, including rank and retirement policies that are 
consistent with the Department of Defense.
    The Coast Guard has served with great distinction over the years. 
They served well in the Persian Gulf. In addition, the Coast Guard 
provided critical leadership in the rescue and response efforts in 
Haiti. They were also first on the scene following Hurricane Katrina. 
Moreover, the Coast Guard performs other important missions including 
search and rescue, drug interdiction, environmental protection, and 
fisheries enforcement.
    In Hawaii, the Coast Guard is a very special friend. They are 
always rescuing someone in peril or guarding our ocean borders from 
foreign incursions. The area covered by District 14 is the largest of 
all the Coast Guard Districts, and the challenges are magnified. I 
would like to take this opportunity to thank the men and women of the 
Coast Guard for their outstanding service to our country, and in 
particular for their efforts on behalf of the people of Hawaii.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                    Vice Admiral Robert J. Papp, Jr.
    Question 1. The President's budget request cuts funding for Coast 
Guard operations by $75 million. The Coast Guard is already being asked 
to do more with limited resources. How will the Coast Guard be able to 
maintain its high level of performance under a reduced budget?
    Answer. The Fiscal Year 2011 Budget Request provides the Coast 
Guard with the necessary resources to carry out its missions. The 
budget focuses resources toward recapitalization of aging cutters, 
aircraft, and supporting infrastructure. Recapitalization is critical 
to preserving future surface, air, and shore asset capability. The FY 
2011 budget makes recapitalization a top priority, while allowing the 
Coast Guard to continue to perform its statutory missions in the most 
effective, efficient, and professional manner possible.

    Question 2. I am very concerned about the recommendation to 
eliminate five of the twelve Marine Safety and Security Teams, 
including the team assigned to the Port of New York and New Jersey. 
This Port is directly linked to what the FBI deemed the most dangerous 
two miles in America for a terrorist attack. Was a full risk assessment 
done before this decision was made to determine that the security of 
the Port of New York and New Jersey would not be affected by the loss 
of this team?
    Answer. The FY 2011 budget transitions the Maritime Safety and 
Security Teams (MSSTs) to a regional model, enabling the Coast Guard to 
rapidly deploy teams of skilled professionals to ports and operating 
areas across the country based on risk and threats as needed. The 
decision to transfer to a regional model factored in geographic 
distribution/coverage; mission requirements; port complexities; and 
proximity to other Coast Guard assets, as well as other Federal, state, 
and local capabilities.
    The Coast Guard will continue to leverage all available 
intelligence resources and partnerships across DHS, the Federal 
Government, and state and local law enforcement to collectively 
mitigate risks and ensure the security of the Nation's ports.

    Question 3. Would these five Marine Safety and Security Teams be 
eliminated if the Coast Guard budget were not reduced?
    Answer. Efforts to gain efficiencies, eliminate redundancies, and 
maximize resources toward carrying out all eleven statutory missions 
would have been pursued under any budget scenario.

    Question 4. According to a recent report by the Government 
Accountability Office, the Coast Guard met its defense readiness levels 
only forty-four percent of the time in 2009-the lowest level since 
2004. As Commandant, what actions will you take to bring readiness 
levels up to 100 percent?
    Answer. The Coast Guard's ability to perform its missions is 
closely tied to its assets--we were unable to meet all of our 2009 
performance goals, as noted by the GAO, largely due to the degraded 
condition of the Coast Guard's assets.
    If confirmed, I will work with Congress to recapitalize our fleet 
of High Endurance Cutters through the continued acquisition of National 
Security Cutters (NSC). The NSCs will yield essential system-wide 
capability improvements for defense readiness and other maritime 
homeland security mission areas.
    To improve Port Security Unit (PSU) readiness, I will continue to 
build upon a number of recently implemented initiatives, including 
personnel management enhancements to reduce staffing gaps; 
documentation and tracking of training requirements; and employment of 
a PSU rotational cycle to improve the deploy-return-reconstitute cycle.

    Question 5. I recently went to Haiti and saw the devastation 
following the earthquake. I commend you for the critical work the Coast 
Guard performed in Haiti. Your ships were the first to arrive and 
because of the skills of the Coast Guard, lives were saved. Will tight 
budgetary constraints affect the Coast Guard's ability to respond to 
disasters of this kind in the future?
    Answer. The Coast Guard provided the first U.S. response asset on 
scene less than 18 hours after the earthquake. The Coast Guard's broad 
statutory authorities, nimble organizational structure, and multi-
mission platforms enabled it to quickly flow forces to assist with the 
international response in Haiti.
    The Coast Guard's ability to perform its missions is closely tied 
to its assets. Recapitalization is imperative to meet future demands. 
The FY 2011 budget makes recapitalization a top priority, while 
continuing to direct resources to our highest operational needs based 
on current risks, threats, and mission requirements.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                    Vice Admiral Robert J. Papp, Jr.
    Question 1. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing with the Coast Guard?
    Answer. Yes.

    Question 2. The Coast Guard has requested $10.08 billion in the 
Fiscal Year 2011 budget, a $75 million decrease from the Fiscal Year 
2010 budget. As the only branch in the Armed Forces to take a cut in 
this year's budget request, how will the decrease in funding impact 
Coast Guard operations? Do you support the decrease in Coast Guard 
funding?
    Answer. The President's FY 2011 budget request provides the Coast 
Guard the necessary resources to carry out its missions. I support this 
budget.
    The FY 2011 budget focuses resources toward recapitalization of 
aging cutters, aircraft and supporting infrastructure. Recapitalization 
is critical to preserving future surface, air, and shore asset 
capability. What the Coast Guard builds today will secure the Nation's 
borders, rescue those in peril, preserve essential trade and commerce, 
and protect the environment for decades to come. Under the FY 2011 
budget, the Coast Guard will continue to perform its statutory missions 
in the most effective, efficient and professional manner possible.

    Question 3. The Fiscal Year 2011 budget would cut 1,172 military 
positions. What is the operational impact of this decrease?
    Answer. The reduction in personnel is primarily related to ships 
that are being pulled from active duty as we recapitalize our aging 
fleet. We are also adding over 300 civilian positions to meet our goals 
for balancing our workforce between military and civilian personnel. 
Consequently, the net reduction is approximately 773 positions. Under 
the FY 2011 budget request, the Coast Guard will continue to perform 
all of its statutory missions in the most effective, efficient, and 
professional manner possible.

    Question 4. What is the impact on remaining personnel and their 
families?
    Answer. The FY 2011 budget fully funds military pay benefits and 
entitlements for regular and Reserve members, including a 1.4 percent 
military pay raise. The Coast Guard will remain aligned with Department 
of Defense on any changes to pay and benefits as mandated by the 
National Defense Authorization Act.
    Active duty military personnel attached to units slated for 
decommissioning in the budget will be transferred to new units with 
full consideration of the needs of the members of the Coast Guard and 
their families.

    Question 5. The Coast Guard has recently proposed to eliminate five 
of its twelve Maritime Safety and Security Teams (MSST). How will these 
closures impact the remaining MSSTs?
    Answer. The resources at the remaining seven MSSTs, including 
personnel, boats, operations, and maintenance funding, will not be 
affected. These MSSTs are positioned regionally to deploy nationally to 
address maritime security threats.

    Question 6. Is the Coast Guard committed to maintaining a MSST in 
Galveston?
    Answer. The FY 2011 budget does not affect MSST Galveston.

    Question 7. One of the key issues for the Coast Guard is the 
tradeoff between sustaining current Coast Guard assets and the 
continued investment in future capability through fleet 
recapitalization. Can you discuss how to maintain this balance while 
continuing to meet the Coast Guard's statutory missions?
    Answer. The FY 2011 budget focuses resources toward 
recapitalization of aging cutters, aircraft and supporting 
infrastructure. Recapitalization is critical to preserving future 
surface, air, and shore asset capability. What the Coast Guard builds 
today will secure the Nation's borders, rescue those in peril, preserve 
essential trade and commerce, and protect the environment for decades 
to come. Under the FY 2011 budget, the Coast Guard will continue to 
perform its statutory missions in the most effective, efficient, and 
professional manner possible.
    If confirmed, I will work with Congress to ensure the Coast Guard 
has the resources it needs to recapitalize aging assets while 
continuing to direct resources to our highest operational needs based 
on current risks, threats and mission requirements.

    Question 8. In 2008 Hurricane Ike destroyed the Sector Field Office 
in Galveston. When do you expect to have this facility rebuilt?
    Answer. The Sector Field Office Galveston facility is anticipated 
to be rebuilt by late Calendar Year 2012. In addition, the Coast Guard 
continues to work on a current project to replace the Aids to 
Navigation Team Galveston and shore-side Patrol Boat facilities. This 
project is currently 70 percent complete and is expected to be finished 
in late summer 2010.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                    Vice Admiral Robert J. Papp, Jr.
    Question 1. In light of the proposed 2011 decommissioning (and 
return to the Navy) of Pascagoula, Mississippi-based cutters TORNADO, 
SHAMAL and ZEPHYR, how do you plan to mitigate the operational impact 
of the loss of these cutters? Does the Coast Guard have a long range 
plan to replace these cutters in Pascagoula, and how do you intend to 
cover the potential mission gap in the Gulf of Mexico region? If 
confirmed, would you support a re-negotiation of the present lease 
agreement with the Navy to extend the Coast Guard's use of these 
Pascagoula based cutters?
    Answer. The three Pascagoula Cyclone class cutters, TORNADO, SHAMAL 
and ZEPHYR, are not planned for decommissioning in FY 2011, though the 
current agreement for use of the remaining three cutters expires at the 
end of FY 2011.
    The Coast Guard is currently executing a patrol boat 
recapitalization project to replaces its 49 aged, obsolete 110 foot 
patrol boats (WPBs) with 58 fast response cutters (FRC) to meet mission 
requirements, beginning in 2011. The new FRCs will provide 2,500 
resource hours compared to 1,800--2,200 for WPBs as well as other 
improved capabilities, including stern boat launch and enhanced 
command, control, communications, computers, intelligence, 
surveillance, and reconnaissance systems. The Coast Guard is currently 
working on its FY 2011 operational planning process to best allocate 
its existing and planned cutter forces to maximize performance and 
minimize risk across all statutory missions. As we look to future 
planning cycles, we will assess all available cutter resources, 
including Cyclone class vessels, to best meet mission demands within 
available resources.

    Question 2. During your confirmation testimony, you indicated you 
did not support changing the Coast Guard Academy admissions process 
from the current open enrollment system to the congressional 
appointment model utilized by the other service academies. You also 
stated that Academy admission of under-represented minorities continues 
to be a challenge and that the Coast Guard is expanding its outreach 
with many Historically Black Universities (HBU's). Can you please 
highlight specific outreach efforts with historically black colleges 
and universities in Mississippi and other parts of the country?
    Answer. The Coast Guard has assigned a Captain (O-6) to the 
position of National Association for Equal Opportunity in Higher 
Education (NAFEO)/Historical Black College University (HBCU) Liaison. 
This officer is responsible for partnering with the leadership of NAFEO 
and the Presidents of HBCUs to strengthen relationships between the 
Coast Guard and these institutions and increasing the diversity of the 
Coast Guard active duty, reserve, and civilian work force. 
Additionally, the Coast Guard Liaison partners with other organizations 
that have strong ties to the HBCU community, including the Thurgood 
Marshall Scholarship Fund, the National Society of Black Engineers, the 
Black Engineer of the Year Awards, the RIPPLE Institute, Inc., and the 
White House Initiative on HBCUs.
    In addition, the Coast Guard Academy is increasing recruiting 
outreach in certain geographic areas to focus on underrepresented 
minorities. These areas include Jackson and Hattiesburg, MS; 
Birmingham, Tuscaloosa, and Marion, AL; and Atlanta, GA.

    Question 3. During your confirmation testimony, you stated that 
five Maritime Safety and Security Teams (MSST's) are scheduled for 
decommissioning as part of President Obama's proposed FY 2011 Coast 
Guard budget. In terms of potential decommissioned MSST equipment, how 
many Defender class boats will be affected and what is the Coast 
Guard's redistribution plan for these assets? If confirmed, how do you 
plan on mitigating the increased risk of only having seven MSST's 
available for response and deployment to maritime emergencies?
    Answer. The FY 2011 budget transitions the Maritime Safety and 
Security Teams (MSSTs) to a regional model. Within this new construct, 
the Coast Guard will still be able to rapidly deploy teams of skilled 
professionals to ports and operating areas across the country based on 
risk and threats as needed.
    As a result of the new regional model, 30 Defender class small 
boats will be removed from service.
    The Coast Guard will also continue to leverage all available 
intelligence resources and partnerships across DHS, the Federal 
Government and state and local law enforcement to collectively mitigate 
risks and ensure the security of the Nation's ports.

    Question 4. President Obama's FY 2011 Coast Guard budget includes a 
proposed net reduction of approximately 773 positions (-1,112 military, 
+339 civilians). Could you please detail your human resource plan to 
achieve these 1,112 active duty force reductions without sacrificing 
mission performance?
    Answer. The reduction in personnel is primarily related to ships 
that are being pulled from active duty as we recapitalize our aging 
fleet. Reductions to the workforce will be managed through regular 
attrition and strategic recruitment to minimize the impact and maximize 
operational capacity. Under the FY 2011 budget request, the Coast Guard 
will continue to perform all of its statutory missions in the most 
effective, efficient, and professional manner possible.

    Question 5. Will these active duty cuts be evenly distributed 
between Officer and Enlisted billets?
    Answer. The personnel reductions in the FY 2011 budget are directly 
tied to the decommissionings of several operational units. Those units 
(especially the High Endurance Cutters and MSSTs) have many more 
enlisted members than officers and that is reflected in the proposed 
reductions (104 officers and 1,008 enlisted).

    Question 6. Could you also please provide a breakdown of how the 
additional 339 civilian billets will be distributed?
    Answer. Consistent with Administration and Departmental goals, the 
Coast Guard is committed to building an appropriate balance of in-house 
and contract resources.
    In FY 2011, the Coast Guard plans to implement this balanced 
workforce initiative to convert contracted professional services to 
Federal Government positions through establishment of 300 full time 
positions, of which a portion are civilian positions. Additional 
civilian position increases in the 2011 budget include logistics 
support personnel for new assets being delivered via recapitalization 
projects. Finally, the FY 2011 budget reflects a technical adjustment 
to account for military and civilian conversions in 2009.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Larry Robinson
    Question 1. What do you see as the greatest challenges facing our 
oceans, coasts, and Great Lakes, and how should NOAA address those 
challenges?
    Answer. The Nation's greatest challenge related to our oceans, 
coasts, and Great Lakes will be coping with the cumulative impacts of 
emerging industries, traditional uses, and large coastal populations. 
Multiple direct uses, such as fishing, ocean energy, aquaculture, and 
recreation, are all competing for the same space in our coastal and 
offshore areas, and individual and collective impacts from nearby uses 
can interact to create exponential negative effects. I understand that 
the President's Interagency Ocean Policy Task Force has proposed an 
Interim Framework for coastal and marine spatial planning (CMSP) that 
takes a holistic, spatially explicit look and different potential 
combinations of uses to decide the desired future mix of industries and 
protected areas. I believe that CMSP has the potential to better assess 
and plan for cumulative impacts and competing uses. If I am confirmed, 
I will work to ensure that NOAA will continue to play a key role in 
working with partners nationwide and providing the baseline maps, 
science, and other information needed to make informed decisions.
    The other major challenge facing our Nation is how ecosystems will 
evolve due to climate change, and how management decisions will also 
need to evolve to address these changes. For example, changes in 
ecosystems will likely mean changes in fishery yields and other ocean 
based economies. I believe that NOAA can improve our understanding of 
the interplay between species, humans, and the physical environment 
which is needed for responding to impacts such as ocean acidification, 
which can have far-reaching impacts on our resources and related 
economies. A potential for costly impacts to people, infrastructure, 
and economies might also result from sea level rise. If confirmed, I 
hope to support NOAA's lead role in supporting research, modeling the 
potential range of future impacts and providing services, such as 
coastal inundation maps, to people nationwide as a basis for making 
sound planning decisions.

    Question 2. From food to fuel, we rely on oceans. Nearly 80 percent 
of U.S. import and export freight is transported through seaports. Jobs 
and economic opportunities that emerge from our oceans, Great Lakes, 
and coastal resources generate more than 50 percent of our Nation's 
Gross Domestic Product and provide over 70 million jobs to Americans. 
As Assistant Secretary, you would be responsible for fisheries and 
ocean and coastal programs within NOAA. How would you recommend 
strengthening NOAA's efforts to support the ``blue economy'' and 
stewardship of our coasts, oceans, and fisheries?
    Answer. I have discussed with the NOAA Administrator and the 
Secretary of Commerce their priority, which I will share should I be 
confirmed, of developing and deploying a ``Blue-Green'' strategy. I am 
honored at the prospect of working with NOAA and Department of Commerce 
leadership to create or preserve jobs and foster economic growth 
through the sustainable use, conservation or restoration of ocean and 
coastal resources. If confirmed, I would work with the talented NOAA 
workforce to use sound, science-based management decisions to ensure 
long term sustainability of the Nation's resources in order to support 
a sustainable blue economy and vibrant coastal and fishing communities. 
I also believe that to build NOAA's ``blue economy'' strategy, the 
agency must collaborate with all of its stakeholders to refine its 
services and products that further the growth of the blue-green 
economy.

    Question 3. Dr. Robinson, the National Oceanic and Atmospheric 
Administration's programs and services affect more than one-third of 
our Nation's gross domestic product. The agency's mission is vital to 
protecting our coasts and oceans, and it is also critical to supporting 
our national economy. How would you broaden the National Oceanic and 
Atmospheric Administration's support within the Federal Government and 
bring greater awareness about the agency's work to the public?
    Answer. I know that NOAA is engaged collaboratively with many 
Federal agencies on a range of issues, providing their unique mix of 
data and information services related to coastal and ocean 
environments. These efforts will be greatly enhanced if the proposed 
National Ocean Council is established. This council would highlight 
ocean issues throughout the Federal Government and be a place where 
NOAA could help other agencies meet their mandates related to ocean 
resources by providing useful and timely information. As a current 
member of Ocean Research and Resources Advisory Panel (ORRAP), I have 
been active in advising the Federal sector in strengthening 
collaboration to improve ocean management. If confirmed, I plan to 
continue to work in the interagency process to strengthen NOAA's role 
and support across the government.
    I understand NOAA is also creating a new focus on coastal 
communities and processes. Our coastal areas are a major economic 
engine in this country and they are also where a majority of our 
citizens live, work, and play. Engaging more comprehensively in these 
geographic areas--where numerous other Federal agencies have management 
mandates--will also create opportunities for partnerships and to 
showcase what science and products NOAA can share to enhance these 
other agencies' activities.
    Publically, NOAA's most visible function is the National Weather 
Service because it provides the information that people need on a daily 
basis. Learning from that success, NOAA has now proposed to create a 
Climate Service. If confirmed, I plan to engage with the Climate 
Service to provide the public and coastal managers with essential 
climate and adaption information--a need that is of paramount 
importance to numerous coastal cities and states.
    Finally, I would like to build on the leadership shown by Dr. 
Lubchenco to place a greater emphasis on communicating science to the 
public. An aware and interested constituency is one the greatest 
actions we can take to promote future conservation, as well as 
knowledge of and interest in the NOAA mission.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Dr. Larry Robinson
    Question 1. If I understand NOAA's recent leadership 
reorganization, your position places you between the political leaders 
at the top of the organization and the career NOAA work force, where 
your responsibilities will include two areas very important to Alaska: 
fisheries management and marine mammal conservation. Can you describe 
your philosophy on NOAA's statutory responsibility (in Magnuson-Stevens 
Act) to provide sustainable uses of ocean resources?
    Answer. The effective implementation of the Magnuson-Stevens Act 
is, and will continue to be, a very high priority for NOAA both off 
Alaska and across the country. The management of the marine fisheries 
resources in the North Pacific is often held out as an example of one 
of the most effective in the Nation. If confirmed, my goal will be to 
continue that tradition. In cooperation with the North Pacific Fishery 
Management Council, I look forward to leading NOAA's continued work 
toward both the biological sustainability of these resources and the 
economic stability of the Alaskan communities so dependent upon them. 
While there will undoubtedly be challenges in the future, I assure you 
we will address them through a science-based and public process.

    Question 2. I'm told the new administration will soon put in place 
a new National Ocean Policy. The only view Alaskans have had of this 
new Policy was the release in September 2009 of the Ocean Policy Task 
Force Interim Report, which was exclusively focused on stewardship and 
environmental impact. Lacking in this draft policy was discussion on 
sustainable economic uses of the ocean and the role of Regional Fishery 
Management Council. As the Assistant Secretary overseeing ocean 
resource management, can I be assured that Alaska's ocean resource 
users will have a voice at the policy table?
    Answer. In my present position outside of NOAA, I have not been 
involved in the Interagency Ocean Policy Task Force or its reports. At 
my confirmation hearing, I highlighted my philosophy that coordination 
is key to effective resource management. Of utmost importance is the 
inclusion of stakeholders in such efforts. Should I be confirmed, I can 
assure you that all resource users, including those in Alaska, will be 
able to provide input into these decisions.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           Dr. Larry Robinson
    Question 1. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing with your respective 
agencies?
    Answer. Yes, if confirmed you can count on me to continue to work 
with the Committee on any and all requests and try to find ways to make 
the communication even better.

    Question 2. Last September NOAA sent comments to the Minerals 
Management Service urging the Interior Department to drastically reduce 
plans in the Draft Proposed Outer Continental Shelf Oil and Gas Leasing 
Plan to open new areas to oil and gas development. If confirmed would 
you support opening new areas of the Outer Continental Shelf to oil and 
gas development?
    Answer. I support the President and other Cabinet members in their 
position that the Administration will look at the Outer Continental 
Shelf (OCS) as part of a comprehensive energy program for the Nation. 
This broad and strategic approach will consider economic opportunity in 
the United States from energy-related jobs and technologies, the 
environmental insecurity associated with global warming, and the 
national security issues associated with dependence on foreign energy 
sources. It will not just be focused on oil and gas, but also onshore 
and offshore renewable and alternative sources of energy. If confirmed, 
I will make sure that any new development of our OCS oil and gas 
resources would be considered as part of this comprehensive energy 
program.
    Additionally, it is very important to me that proper environmental 
precautions are taken if any new areas of oil and gas are going to be 
opened on the OCS. NOAA has significant trust resource responsibilities 
in the OCS. I want to ensure that living marine resources and the 
coastal communities that rely upon them are protected in accordance 
with NOAA's legislative mandates. Resilient coastal communities and 
economies depend on healthy ocean and coastal ecosystems.

    Question 3. The Administration has recently developed a framework 
to implement Marine Spatial Planning in U.S. waters. Many are concerned 
that this is an attempt to zone our oceans. How will marine spatial 
planning will impact current and future oil and gas activity?
    Answer. I do not believe that Coastal and Marine Spatial Planning 
(CUSP) is about drawing lines on a map and restricting energy 
development. Rather, I see it as a comprehensive planning process that 
involves all resource managers, stakeholders and users across the broad 
spectrum of sectors that touch the ocean. It is intended to build upon 
and significantly improve existing decision-making and planning 
processes, minimize user and use conflicts, identify compatible uses 
and activities, and result in a more coherent system of managing the 
diverse uses.
    As I understand the Interagency Ocean Policy Task Force's work thus 
far, CMSP would build upon planning processes for oil and gas 
development; not supersede them. The CMSP process is not intended to 
halt existing projects or plans pending the development of coastal and 
marine spatial plans (CMS Plans). However, those responsible for making 
decisions on existing plans and projects would be expected to take into 
account the goals, principles and objectives of CMSP to the extent 
possible under existing law. Once a CMS Plan is put into effect, its 
implementation would be phased in to avoid undue disruption or delay of 
projects with pending permits or other applications.

    Question 4. NOAA recently released a draft policy on implementing 
catch shares for our Nation's fisheries. While catch share have worked 
for many commercial fisheries I am concerned about their impact on 
recreational fishermen. How would you propose to implement a catch 
share scheme for a fishery with a significant recreational component?
    Answer. While I am not yet familiar with the details of NOAA's 
draft catch share plan, I am familiar with catch share programs 
generally. I understand that their design is largely driven by the 
needs of the fishery. As with all programs of this sort in which 
stakeholders, including recreational fishermen, are affected, I believe 
that strong stakeholder input and involvement are key to success. 
Should I be confirmed, I look forward to familiarizing myself with 
NOAA's draft catch share policy, reviewing the comments that NOAA 
receives from stakeholders, working with NOAA staff to finalize the 
policy and then giving fishery management councils the support they 
need, should they vote to implement a catch share program.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Dr. Larry Robinson
    Question 1. What is your opinion of marine spatial planning and how 
do you believe that recreational fishing ought to be treated under this 
type of planning process?
    Answer. I believe that Coastal and Marine Spatial Planning (CMSP) 
is an important process for helping our Nation comprehensively address 
the multiple threats that are facing our oceans and coasts and the 
increasing demands of users for access to these important resources. 
Recreational fishing and boating are important parts of our Nation's 
economy and social fabric that rely on these resources. In order for 
CMSP to work effectively, all users and stakeholders, including the 
recreational user community, will need to participate by expressing 
their views and concerns and working collaboratively with other parties 
to ensure that our ocean ecosystems are healthy and resilient and able 
to support current and future uses of our oceans, coasts and Great 
Lakes.

    Question 2. Considering that recreational angling only accounts for 
3 percent of the total U.S. fish landings every year, while providing 
an annual economic stimulus of $125 billion and supporting over 1 
million jobs, how would you recommend that recreational angling and 
access to fishing in public waters be protected in any policies put 
forward by this Administration?
    Answer. NOAA is entrusted with ensuring the long-term health and 
use of America's living marine resources. To meet this very direct, yet 
exceedingly complex charge, NOAA must continually promote and evaluate 
emerging marine science, build consensus and ensure compliance with 
management decisions, and balance competing needs of stakeholders with 
respect to such issues as access, conservation, recreation, and 
commerce. I recognize recreational saltwater fishing is vitally 
important to our coastal areas as both a source of recreation and 
significant income and employment for many communities. I am aware that 
the Interagency Ocean Policy Task Force is carefully considering the 
comments and needs of the recreational fishing community in its final 
report. Engaging stakeholders throughout the process is an essential 
element of both of these activities. I also understand that Dr. 
Lubchenco is committed to improving NOAA `s relationship with the 
recreational community.
                                 ______
                                 
    Response to Written Question Submitted by Hon. David Vitter to 
                           Dr. Larry Robinson
    Question. Regarding the Ocean Policy Task Force's Interim Framework 
for Effective Coastal and Marine Spatial Planning, please list all 
legal and regulatory tools the Administration planning on utilizing in 
its implementation of the program?
    Answer. As I have not yet been confirmed and have not been involved 
in the development of the Interim Framework, I cannot speak to all of 
the legal and regulatory tools the Administration is planning on 
utilizing in its implementation of Coastal and Marine Spatial Planning 
(CMSP). I understand that Interim Framework envisions that CMSP would 
be developed and implemented under existing authorities. Coastal and 
marine spatial plans (CMS Plans) would not be regulatory in nature, but 
regional planning body partners would be expected to adhere to an 
agreed-upon final CMS Plan within the limits of their existing 
statutory and regulatory authorities. Federal and State agencies and 
tribal authorities would incorporate CMS Plans into their pre-planning, 
planning, and permitting processes to the extent consistent with 
existing laws and regulations.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Dr. Earl Weener
    Question 1. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf count 
on this cooperative relationship continuing with the NTSB?
    Answer. It is my understanding that the NTSB enjoys a good working 
relationship with the members of the Senate Commerce Committee and 
their staff. If I am confirmed to be a Board Member on the NTSB, I will 
be pleased to help continue that relationship and support the Committee 
Members and their staff in their efforts to develop and review proposed 
legislation.

    Question 2. What do you believe are the most critical 
transportation safety issues facing our Nation today?
    Answer. There are two critical transportation safety issues in 
which I am particularly interested:

        1. The effect of human factors, specifically those related to 
        fatigue and distraction/attention. Both of these factors cut 
        across all modes of transportation because the same make and 
        model of human operator is involved regardless of the specific 
        mode of transportation. The NTSB has identified fatigue as an 
        issue for its Most Wanted List of Safety Improvements in 
        several modes of transportation. Operator distraction issues 
        are becoming more prevalent because of the increased 
        availability of portable, hand-held electronic communication 
        devices such as cell-phones, text messaging devices, notebook 
        computers, etc. It is more important than ever to gather 
        objective data about accidents involving operator distraction, 
        whether it is a factor in the accident or part of the probable 
        cause.

        2. Implementation of Safety Management System (SMS) principles 
        and practices, which are applicable in principle to all modes 
        of transportation, as a means to further improve transportation 
        safety. The basic elements of SMS are relatively 
        straightforward:

  <bullet> Recognition by the organization's management of its 
        responsibility for managing safety as an element of the 
        enterprise operation;

  <bullet> Awareness by management of the organization's safety 
        performance, which may require implementation of a ``just 
        culture'' philosophy to enhance safety information flow;

  <bullet> Risk assessments of the operations and the implementation of 
        changes to operational processes and procedures to reduce or 
        eliminate safety risks;

  <bullet> Assessment and review of subsequent safety performance to 
        identify refinements that further enhance safety performance.

    Question 3. NTSB recently added ``Improved Oversight of Pilot 
Proficiency'' to its Most Wanted List. As someone with a background in 
aviation safety, how do you recommend that FAA improve its oversight of 
the way airlines hire and train their pilots?
    Answer. Investigation of recent accidents has found that pilots who 
meet regulatory requirements sometimes lack adequate proficiency. More 
attention should be paid to proficiency as determined by testing and 
evaluation, including simulation evaluations. Crew Resource Management 
(CRM) training can augment technical flight and ground training with 
human factors subjects, with an emphasis being placed on operations by 
a crew rather than by individuals.
    Improved flight safety is not dependent upon new innovation; it can 
continue with effective practice of what is already well known. 
Implementation of safety data reporting and resolution processes such 
as ASAP (Aviation Safety Action Program) are very effective safety 
tools when embraced by both management and pilots. Likewise, FOQA 
(Flight Operations Quality Assurance) provides objective understanding 
of how an operator's airplanes are being operated.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to Dr. Michael F. Tillman
    Question 1. You've worked as both a researcher and a manager. One 
of the greatest challenges to effective conservation is translating 
good science into good policy. What are some of the ways you will apply 
your varied work experiences in order to turn the best available 
science into well-informed policies?
    Answer. I have had the good fortune of working on conservation 
matters as a scientist, manager, and policy-maker. Based on my 
experience, I would emphasize certain seemingly simple but often 
neglected principles. Specifically, if confirmed I will----

  <bullet> prioritize research to ensure it is well-aligned with 
        current policy needs;

  <bullet> stress the need for strategic planning to anticipate 
        emerging conservation issues;

  <bullet> emphasize the value of long-term research well suited to the 
        temporal dimensions of the policy issue;

  <bullet> emphasize an adaptive management approach that adjusts to 
        account for new information and knowledge;

  <bullet> stress structured decision-making based on objective risk/
        benefit analyses;

  <bullet> strive to understand the socio-economic conditions in which 
        the policies must be implemented; and

  <bullet> support an appropriately precautionary approach to resource 
        management.

    Clear, concise communication also is critical for translating the 
best available science into well-informed policies. Moreover, if 
confirmed I will do my best to communicate frequently and regularly 
with policymakers to ensure that they are as well informed about marine 
mammal conservation issues as possible.

    Question 2. You've served three times on the U.S. delegation to the 
International Whaling Commission. Since the moratorium was imposed by 
the IWC on all commercial whaling, the numbers of whales harvested 
through exemptions and disregard for IWC policies has increased every 
year. What do you see as the future role of IWC in this decade and 
beyond?
    Answer. I have served on a number of U.S. delegations to the 
International Whaling Commission (IWC). My involvement with the IWC 
goes back to the 1970s. I have served as Vice Chair and Chair, of the 
IWC's Scientific Committee, as a senior advisor to U.S. Commissioners, 
and, for 10 years, as the Deputy U.S. Commissioner to the IWC.
    As you indicate, the number of whales being killed in scientific 
whaling and under objections to the moratorium on commercial whaling 
has increased ten-fold since the moratorium on commercial whaling was 
established over two decades ago. This whaling arguably is consistent 
with the terms of the International Convention on the Regulation of 
Whaling, the international agreement that governs the operation of the 
IWC. Article V of the Convention sets forth a process by which member 
nations may object to Schedule amendments and thus not be bound by 
them. Both Norway and Iceland have filed objections to the commercial 
whaling moratorium. Japan's whaling is conducted pursuant to Article 
VIII of the Convention, which grants member nations independent 
authority to issue special permits to their nationals to allow the 
killing of whales for purposes of scientific research.
    My preference would be to end whaling under these exceptions by 
securing full compliance with the commercial whaling moratorium and 
bringing scientific whaling under the control of the IWC. After several 
years of pursuing these goals, however, I am convinced that our chance 
of achieving them fully in the near term is remote. That is why I 
support the recent efforts of the United States and several other 
countries to find a way past the current logjam that is undermining the 
operation and effectiveness of the IWC. These countries have been 
pursuing a compromise under which some significantly reduced level of 
whaling would be countenanced--but not legitimized--for a set period of 
time while IWC works on longer-term solutions to resolve the current 
impasse. The details of this compromise are still being negotiated. 
Consequently, without a clearer picture of the extent to which the 
number of whales being killed would be reduced, the adequacy of the 
monitoring program that would ensure that hunting limits are observed, 
and other elements of the compromise, it is too early to form a 
conclusion. Nonetheless, I believe that the negotiations have good 
prospects and am hopeful that they will result in a way forward that 
will retain and strengthen the role of the IWC in conserving whales 
over the next decade and beyond. If no compromise is reached and the 
whaling nations abandon the IWC, the whales will be the ultimate 
losers.

    Question 3. The recent interim report from the Joint Ocean Policy 
Task Force stressed the need for ecosystem-based management. Do you see 
areas where we can better integrate ecosystem-based management into 
marine mammal conservation?
    Answer. The Marine Mammal Protection Act was one of the first laws 
to recognize the value of an ecosystem-based approach to research and 
management. Although much remains to be learned about a full ecosystem-
based approach, important progress has been made and further progress 
can be expected under the Marine Mammal Protection Act, Endangered 
Species Act, National Environmental Policy Act, Coastal Zone Management 
Act, and other environmental legislation. For example, efforts to 
reduce bycatch of non-target species in fisheries is, in many respects, 
one element of an ecosystem approach to the management of direct 
fishery effects. In essence, bycatch reduction measures protect non-
target species, including marine mammals, from injury and mortality 
associated directly with fishing.
    Evaluating the indirect effects of fishing could make further 
progress toward an ecosystem approach to fishery management. The 
current approach to fisheries management aims to reduce the biomass of 
target species by as much as 60 percent or more, which may constitute a 
considerable reduction in available prey to marine mammals and other 
predators that depend on the same target species.
    Marine mammals also could benefit from research to identify and 
protect biological hotspots and migratory pathways. Since many marine 
mammals move between seasonal breeding and feeding grounds, seasonal 
adjustments to the timing and locations of certain human activities 
(e.g., commercial shipping, fishing, seismic testing for oil and gas, 
Navy exercises) may reduce substantially the potential for adverse 
interactions with marine mammals. The development of shipping corridors 
in the Cape Cod area provides an example of a spatial measure that 
greatly reduces the likelihood of ship strikes involving endangered 
right whales.
    Reducing nutrient input into coastal marine environments also could 
benefit marine mammals, as well as seabirds, fishes and invertebrates, 
by preventing or reducing the lethal effects of harmful algal blooms. 
Although a number of factors may contribute to such blooms, reducing 
nutrient input by controlling upstream activities is one way of 
preventing or mitigating them.
    The development and implementation of ship-quieting technologies 
also could reduce the potential for adverse effects on marine mammals 
by reducing background noise that may interfere with marine mammal 
hearing, communication, hunting and detection of predators. These are 
but a few examples of ways to minimize degradation of marine ecosystems 
for the benefit of marine mammals and other living marine resources.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Kay Bailey Hutchinson 
                                  to 
                         Dr. Michael F. Tillman
    Question 1. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing with the Marine 
Mammal Commission?
    Answer. Based upon my past professional experience, the staff of 
the Marine Mammal Commission does indeed constitute a significant 
source of advice and information. Given their extensive expertise, 
experience and historical perspective, the staff of the Commission 
constitutes a valuable resource that should be called upon by committee 
members and staff on both sides of the aisle. I would expect them to 
continue being available to explain the background on current 
legislation, to serve as an informal sounding-board for new ideas, and 
to provide technical drafting assistance. If confirmed, I anticipate 
that this level of cooperation should continue and encourage committee 
members and their staff to think first about contacting the 
Commission's staff when they have questions or need assistance 
pertaining to marine mammals and the legislation relating to their 
conservation and management.

    Question 2. For a number of years, the Marine Mammal Commission has 
expressed concern about NOAA's Fisheries Service authorization of 
incidental take of marine mammals during Navy sonar training exercises. 
Some of these very important exercises take place in the Gulf of 
Mexico. As a part of the Marine Mammal Commission, how would you plan 
to work with the Navy and with NOAA to find workable policies and 
mitigation strategies?
    Answer. I recently became aware of Jane Lubchenco's letter of 19 
January 2010 to Nancy Sutley regarding NOAA's review of mitigation 
measures in rules authorizing takes of marine mammals incidental to 
Navy training exercises. The letter describes three new, substantial 
investments that would improve the scientific basis for designing and 
implementing new mitigation strategies. With both agencies, as well as 
the Minerals Management Survey, engaging as full partners in their 
planning and execution, the new initiatives will include:

  <bullet> new aerial surveys for cetaceans and sea turtles to identify 
        areas of biological significance and provide fine-scale density 
        estimates;

  <bullet> a workshop to develop a plan for estimating a comprehensive 
        sound budget for oceans and providing a baseline for measuring 
        and evaluating cumulative sound impacts; and

  <bullet> workshops that will provide the scientific basis for 
        designing new, effective mitigation measures that protect 
        marine mammal habitat.

    Additionally, the letter referred to the requirement under existing 
permits for convening workshops to evaluate current mitigation measures 
and to identify new, improved mitigation strategies that could be 
implemented through the permits' adaptive management provisions. 
Moreover, the letter stressed the new monitoring program the Navy was 
implementing under its existing permits.
    All of these cooperative efforts bode well for the health of 
affected marine mammal populations. The letter encourages me in the 
belief that all parties are working together in good faith to find and 
implement workable policies and implementation strategies. The role of 
the Marine Mammal Commission will be to review these efforts, evaluate 
them, and advise on ways to improve them, as needed.

    Question 3. Are you committed to helping the Navy find a way to 
conduct these exercises?
    Answer. Within the limits of applicable law, I am committed to 
helping the Navy accomplish its mission, including needed training. 
Based upon Dr. Lubchenco's letter mentioned above and other recent 
consultations, I am much encouraged by the cooperative attitudes of 
both the Navy and NOAA. It appears to me that both parties are 
committed to working together to find ways forward that meet applicable 
national policies and legal mandates. If confirmed, I am committed to 
having the Marine Mammal Commission facilitate and support these joint 
activities that hold much promise. They will make our job much easier.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. Daryl J. Boness
    Question 1. As the Chairman of the Marine Mammal Commission, you 
will need to bring both leadership and vision to the Commission. What 
do you see as the greatest challenge facing the Commission today? And 
do you have a vision for what the Commission might look like tomorrow?
    Answer. Congress enacted the Marine Mammal Protection Act with the 
primary objective of maintaining the health and stability of the marine 
ecosystem. Although the Act focuses on marine mammals, their long-term 
conservation is intimately tied to the overall status of the world's 
oceans. The greatest challenge facing the Commission is to promote 
measures that will sustain healthy marine mammal populations and oceans 
in a rapidly changing world. The U.S. Census Bureau estimates that, by 
2030, the U.S. population will have increased by 55 million people, 
about half of whom will reside in coastal regions, but all of whom may 
affect marine ecosystems. The Bureau projects that the global human 
population will reach 8.2 billion in the same period, and such growth 
will place great strain on the world's oceans. We are seeing many of 
the warning signs now, including the effects of climate change (e.g., 
loss of sea ice, acidification), overfishing, degradation of coastal 
habitats, harmful algal blooms, dead zones, disease, contaminants, and 
increasing noise introduced into the oceans by various human 
activities. Efforts to address such threats have been and undoubtedly 
will be compromised by limited resources and competing priorities. In 
many regards, the challenge is first to understand the diverse human 
activities that are interconnected to form a broad pattern of use, or 
in some cases misuse, of marine resources, and then to ensure that our 
research and management efforts are sufficiently well focused to 
address the resulting conservation issues.
    The Commission's future and its ability to help resolve future 
conservation challenges lie largely in the quality of its staff and 
Committee of Scientific Advisors. To prepare for the foreseeable 
future, the Marine Mammal Commission must have a staff and Committee 
with the essential expertise to evaluate threats to marine mammals and 
ecosystems, the creativity and resourcefulness to identify potential 
solutions to those threats, the social skills to foster cooperation and 
coordination among the multiple agencies with ocean-related 
responsibilities, and the endurance to tackle those issues over time 
until they have reached the state of being well-managed. The Commission 
need not be (and indeed should not be) large, but its human resources 
are its greatest asset, and they must be sufficient to keep the 
Commission abreast, or a step ahead, of those factors that threaten our 
marine environment. So I view the Commission as a dynamic organization 
driven to fulfill its duties as set forth in the Marine Mammal 
Protection Act through the hard work and commitment of a well-informed, 
objective, and resourceful staff and Committee of Scientific Advisors.

    Question 2. Given declining Federal funds for scientific research, 
monitoring, and modeling, how will the Commission work in partnership 
with Federal agencies to ensure the best possible science is used in 
the protection and conservation of marine mammals?
    Answer. Partnerships are and will continue to be essential to 
promote marine mammal protection and conservation. They must be multi-
agency, multi-disciplinary, and--in many cases--multi-national. The 
Commission will continue its regular contact with agencies that have 
ocean-related responsibilities, and will continue to emphasize the need 
for well-prioritized, pro-active research appropriate to the temporal 
(i.e., both short- and long-term) and spatial (i.e., both 
geographically focused and broad) scales involved. The Commission also 
will continue using its small research fund to identify key 
conservation issues, provide seed money to jump-start promising 
projects, and encourage matching funds from cooperating agencies. 
Importantly, the Commission also will focus on the question of whether 
the best available science is, indeed, adequate for the purposes at 
hand and, when that is not the case, work with involved agencies to 
address shortcomings. To that end, the Commission has recently been 
developing a web-based survey of Federal funding for marine mammal 
research and conservation to provide involved agencies and interested 
parties an overview of all marine mammal research and conservation 
efforts. This effort should help identify important gaps and 
redundancies and thereby promote a more effective and coherent national 
research strategy.

    Question 3. Marine mammals can be affected by a number of human 
activities. What role can the Commission play in resolving the inherent 
tension between important human uses of the oceans--such as energy 
development, transportation, and military operations--and protecting 
vulnerable marine mammal populations?
    Answer. Here, the Marine Mammal Commission can play a number of 
vital roles. The Commission has long been and will continue to be an 
advocate for anticipating potential effects of human activities and 
developing pro-active solutions. It has emphasized, and will continue 
to emphasize, the value of collecting adequate baseline information to 
provide a basis for detecting when human activities are resulting in 
unacceptable adverse impacts. It has encouraged, and will continue to 
encourage, the development and implementation of best practices for 
such activities. The Commission also has emphasized the importance of 
monitoring and mitigation, and promoted careful evaluation of such 
measures to ensure that they are meeting expectations. The Commission 
also works closely with marine mammal experts from around the world and 
frequently fosters international cooperation to address potential risk 
factors. Finally, and importantly, the Commission has expanded, and 
will continue to expand, its relationships with other agencies to 
identify and circumvent risks before they become crises. For example, 
it meets frequently with staff from the National Marine Fisheries 
Service and Fish and Wildlife Service, and regularly with the Navy, 
Department of State, and Minerals Management Service. It also 
participates in various multi-agency committees and working groups to 
promote better problem solving.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Dr. Daryl J. Boness
    Question 1. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing with the Marine 
Mammal Commission?
    Answer. If confirmed as Chairman of the Marine Mammal Commission, I 
would ensure that the Commission, its Committee of Scientific Advisors 
on Marine Mammals, and its staff continue to support and work closely 
with the Committee whenever requested to provide technical and legal 
expertise and advice. Indeed, the Marine Mammal Commission has 
endeavored to be responsive to the Committee, as evidenced by the 
completion of and submission of reports to Congress over the past few 
years on several issues that were requested by the Committee. Among 
these include reports on the Biological Viability of the Most 
Endangered Marine Mammals and the Cost Effectiveness of Protection 
Programs and Marine Mammals and Noise: A Sound Approach to Research and 
Management. I consider such cooperation and support to be critical 
elements of the Commission's mission.

    Question 2. For a number of years, the Marine Mammal Commission has 
expressed concern about NOAA's Fisheries Service authorization of 
incidental take of marine mammals during Navy sonar training exercises. 
Some of these exercises very important exercises take place in the Gulf 
of Mexico. As a part of the Marine Mammal Commission, how would you 
plan to work with the Navy and with NOAA to find workable policies and 
mitigation strategies? Are you committed to helping the Navy find a way 
to conduct these exercises?
    Answer. The Marine Mammal Commission has great respect for the Navy 
and recognizes the importance of Navy sonar training exercises to the 
national security of our country. The Commission also believes that the 
Navy is making substantial effort to be a good steward of the marine 
environment. That being said, the Commission is concerned about the 
effects of certain Navy exercises on the marine environment. The 
Commission communicates its concern in letters, but also meets 
quarterly with the Navy to discuss ways to address the underlying 
issues. For example, the Commission has discussed at length its 
concerns about the efficacy of monitoring and mitigation measures and 
the Navy has responded by developing an Integrated Comprehensive 
Monitoring Plan. Similarly, the Commission has emphasized the need for 
peer review of Navy science and the Navy has established a pattern of 
engaging the best available scientists in these reviews.
    The Navy has worked closely with NOAA to prepare incidental take 
authorizations for Navy exercises. NOAA also has recently reviewed 
mitigation measures in rules authorizing take of marine mammals 
incidental to Navy training exercises and announced efforts to work 
with the Navy to develop additional mitigation measures. These measures 
include reinitiating comprehensive aerial surveys of cetaceans, 
estimating a comprehensive sound budget for the oceans, identifying 
cetacean ``hot spots,'' and evaluating models of cetacean distribution. 
I can assure you that, if confirmed as Chairman of the Marine Mammal 
Commission, I will ensure that the Commission participates 
constructively in such efforts by providing useful recommendations for 
protecting marine mammals while facilitating the Navy's vital work.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Jeffrey R. Moreland
    Question 1. One of the biggest challenges you will face as a Board 
member for Amtrak is developing an annual budget. The Administration's 
budget request for Amtrak this year is $500 million dollars less than 
what Amtrak requested to meet its needs. What role will you play to 
spur the Administration to support Amtrak's higher budget needs?
    Answer. I recognize that Amtrak is a somewhat unique entity in that 
the Board of Directors is independent of the Administration but one of 
the members is the Secretary of Transportation. As a member of the 
Board, I will advocate to all of my colleagues, including the Secretary 
that the Corporation seek the resources it needs to fulfill the 
strategy and business plan we adopt. I am also mindful that the needs 
of Amtrak are far from the only consideration that goes into developing 
an Administration's budget request. Thus, I believe that where 
necessary, the Corporation may need to use its statutory authority to 
advocate for its resource needs independent of the Administration's 
proposal.

    Question 2. You come from an industry where companies have the 
ability to make multi-year capital investment plans. Unfortunately, 
Amtrak does not have this same luxury and its fate rests on the annual 
appropriations process. How would Amtrak benefit from a multi-year 
guaranteed funding program?
    Answer. Not knowing from year-to-year what financial resources are 
available limits the ability of any entity to establish a meaningful 
vision other than survival and forces consideration of strategies that, 
over the long run, are not the most effective use of resources. This 
unfortunately, has been Amtrak's situation since its inception. A 
multi-year guaranteed funding program as suggested in your question 
would go a long way toward addressing this chronic challenge.

    Question 3. In a report that studied high-speed rail in France, 
Japan, and Spain, the GAO found that these countries committed 
significant government support for their high-speed rail systems. But 
here in this country, every year we have to fight for just enough funds 
to keep Amtrak afloat. Is it realistic to expect a high-speed passenger 
rail system to be successful without significant government 
contributions toward capital and operating expenses?
    Answer. Few if any markets for high-speed rail are likely to be 
able to cover all of their costs, particularly initial capital costs, 
for the foreseeable future. If the national policy is to develop a 
national system of high-speed intercity passenger rail, then it will 
require substantial financial investment by others, in particular 
governments at all levels. Amtrak, with one foot in the public sector 
and one foot in the private sector, may also be able to play an 
important role in facilitating non-governmental investment to reduce 
the burden that would be placed on governmental budgets.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Jeffrey R. Moreland
    Question 1. The State of New Mexico recently constructed a third 
passenger rail line that provides regular service from Belen north to 
Santa Fe. I would like to see passenger rail expanded even further in 
the intermountain west to eventually provide transportation options for 
travelers from El Paso all the way north to Denver. Do you support the 
creation of a truly national passenger rail system that includes the 
rapidly growing Intermountain West?
    Answer. I share the vision of a truly national system of intercity 
passenger rail service that connects and serves all of our regions. I 
believe that the Intermountain West has a place in such a national 
system.

    Question 2. How can Amtrak achieve this goal?
    Answer. Under the Passenger Rail Investment and Improvement Act, 
Amtrak, the U.S. Department of Transportation and the States all have a 
role in the development and operation of intercity passenger rail 
service. The key planning responsibilities fall on the States and the 
DOT. Amtrak, because of its experience in rail operations and its right 
of access to the rail system, can be a valuable support to the States 
and DOT in developing plans for expanded service, such as that in the 
Intermountain West, and strategies for making such expanded service a 
reality.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Jeffrey R. Moreland
    Question 1. We often rely on the technical and legal expertise of 
agency staff when we are developing or reviewing proposed legislation. 
Can all members of the Committee, and their staff on their behalf, 
count on this cooperative relationship continuing with Amtrak?
    Answer. Yes. I believe it is the responsibility of all who seek 
funding or other benefits from the Congress to help the Congress make 
informed decisions by providing both information and the technical 
expertise that Congress might request.

    Question 2. What do you believe are the major management challenges 
facing Amtrak today? As a board member, how will you respond to these 
challenges?
    Answer. A major challenge that has faced Amtrak since its inception 
is the inability to make multi-year commitments to planning and 
investment because the Corporation depends on the uncertain and highly 
fluctuating levels of annual appropriations. Another serious challenge 
has been the comparatively brief tenure of CEOs over the last 15 years. 
This lack of stability at the top of the organization makes it 
exceedingly difficult to develop and implement a strategic vision for 
the Corporation. I believe that the Board owns the latter challenge and 
we must provide both stability and very high-level direction to the 
senior management. With this, the Corporation will develop the 
credibility that might help Congress address the former challenge.

    Question 3. You have spent much of your career as an executive at 
BNSF. What can be done to improve the working relationship between 
Amtrak and the freight railroads?
    Answer. Over the years, Amtrak's relationship with BNSF and its 
predecessor companies have been among the best. But even this 
relationship can be improved by better communications and a better 
understanding of each other's needs that result in more realistic 
expectations of what each other can accomplish. The new Federal funding 
role for intercity passenger rail service, including congestion relief, 
offers the opportunity for win/win investments benefiting both 
passenger and freight service that will make cooperation much more 
productive than confrontation for both parts of the rail industry.

                                  <all>

</pre></body></html>
